  AUDIT OF MANAGEMENT OF DOJ GRANTS
  AWARDED TO THE U.S. VIRGIN ISLANDS
LAW ENFORCEMENT PLANNING COMMISSION
 BY THE OFFICE OF JUSTICE PROGRAMS AND
THE OFFICE ON VIOLENCE AGAINST WOMEN




       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


       Audit Report GR-40-12-001
               March 2012
         AUDIT OF MANAGEMENT OF DOJ GRANTS
         AWARDED TO THE U.S. VIRGIN ISLANDS
       LAW ENFORCEMENT PLANNING COMMISSION
        BY THE OFFICE OF JUSTICE PROGRAMS AND
        THE OFFICE ON VIOLENCE AGAINST WOMEN

                            EXECUTIVE SUMMARY

      The Office of the Inspector General Audit Division has completed
an audit of the management of Department of Justice (DOJ) grants,
including American Recovery and Reinvestment Act (Recovery Act)
grants, awarded by the Office of Justice Programs (OJP) and the Office
on Violence Against Women (OVW) to the U.S. Virgin Islands Law
Enforcement Planning Commission (LEPC). 1 The purpose of these
grants was to support a broad range of activities to control and
prevent crime based on local needs and conditions; provide services to
victims of crime, control and prevent violence against women; and
improve the juvenile justice system. From October 2005 through
September 2010, the LEPC was awarded 40 grants by the DOJ.

      Exhibit I: Grants Awarded to the Law Enforcement Planning
       Commission from October 2005 through September 2010
    GRANTING                                                    NUMBER OF   TOTAL FUNDS
                                 BUREAU/OFFICE
     AGENCY                                                      GRANTS      AWARDED
                  Bureau of Justice Assistance                     8           $3,676,352
                  Bureau of Justice Assistance – Recovery Act      1           $4,972,500
                  Office for Victims of Crime                      5           $3,115,088
       OJP        Office for Victims of Crime – Recovery Act       1             $507,000
                  Juvenile Justice and Delinquency Prevention     18           $1,962,314
                  Bureau of Justice Statistics                     1             $150,000
                                   Total OJP Grants               34        $14,383,254
                                                     2
                  STOP Violence Against Women                      5           $3,158,043
      OVW         STOP Violence Against Women – Recovery           1             $638,390
                                   Total OVW Grants                6           $3,796,433
                                       Total                      40        $18,179,687
 Source: Office of Justice Programs and the Office on Violence Against Women




       1
       The U.S. Virgin Islands was also awarded grants by the DOJ Office of
Community Oriented Policing Services but those grants were not administered by the
LEPC.
       2
           STOP is an acronym for Services, Training, Officers, Prosecutors.


                                                 i
      As shown in Exhibit I, from October 2005 through September
2010 the LEPC received 34 grants from OJP totaling $14,383,254.
One of these grants for $4,972,500 was a Recovery Act award under
the Edward Byrne Memorial Justice Assistance Formula Grant Program
(Byrne JAG). 3 The other Recovery Act grant for $507,000 was
awarded under the Victims of Crimes Act Formula Grant Program
(VOCA).

       During the same period the LEPC received 6 grants from OVW
totaling $3,796,433. One of these was a Recovery Act grant for
$638,390, awarded under the STOP Violence Against Women Act
Formula Grant Program (STOP).

      The U.S. Virgin Islands consists primarily of the islands of
St. Thomas, St. Croix, and St. John, and is located about 1,100 miles
southeast of Miami, Florida. According to the 2010 census, the
U.S. Virgin Islands has a population of about 109,000. The LEPC,
located on St. Thomas and St. Croix, has been designated by the
Governor of the U.S. Virgin Islands as the State Administering Agency
for DOJ grants. The LEPC oversees the implementation of the grant
programs in an effort to address criminal justice issues in the U.S.
Virgin Islands. The Director of the LEPC is also the Drug Policy Advisor
to the Governor.

      In its role as the State Administering Agency, the LEPC is
responsible for: (1) applying to the DOJ for grants, (2) soliciting and
evaluating subrecipients’ applications for funding, (3) making
allocations and subawards, (4) drawing down grant funds from OJP,
(5) reviewing and approving grant fund disbursements, (6) monitoring
subrecipients to ensure they meet the fiscal and programmatic
requirements of the grants, (7) submitting the required financial and
programmatic reports to OJP, and (8) submitting Recovery Act
expenses and job data to FederalReporting.gov.




      3
         The LEPC received the $4,972,500 Byrne JAG Recovery Act award in
May 2009. In September 2010, the LEPC received a $50,000 supplement to the
award, but the supplemental award was not part of our audit.

                                       ii
Recovery Act

       On February 17, 2009, the President signed into law the
American Recovery and Reinvestment Act of 2009 (Recovery Act).
The purposes of the Recovery Act are to: (1) preserve and create jobs
and promote economic recovery; (2) assist those most impacted by
the recession; (3) provide investments needed to increase economic
efficiency by spurring technological advances in science and health;
(4) invest in transportation, environmental protection, and other
infrastructure that will provide long term economic benefits; and
(5) stabilize state and local government budgets, in order to minimize
and avoid reductions in essential services and counterproductive state
and local tax increases.

Office of Justice Programs Grants

       The Byrne JAG program supports all components of the criminal
justice system, including multi-jurisdictional drug and gang task
forces, crime prevention and domestic violence programs, courts,
corrections, treatment, and justice information sharing initiatives.
Recovery Act Byrne JAG funded projects could address crime by
providing services directly to individuals and communities and by
improving the effectiveness and efficiency of criminal justice systems,
processes, and procedures.

      VOCA grants support community-based organizations that serve
crime victims. Nationwide, recipients of VOCA funds make about
5,600 subawards annually to domestic violence shelters, rape crisis
centers, child abuse programs, and victim service units in law
enforcement agencies, prosecutors’ offices, hospitals, and social
service agencies. These organizations provide crisis intervention,
counseling, emergency shelter, criminal justice advocacy, and
transportation services.

Office on Violence Against Women Grants

      STOP grants support communities’ efforts to develop and
strengthen effective law enforcement and prosecution strategies to
combat crimes against women and provide victim services. The grants
provide funding for many of these services.

     Exhibit II shows the status of Recovery Act grants awarded by
OJP and OVW to the LEPC as of June 30, 2011.


                                    iii
       Exhibit II: Reported Recovery Act Grant Funds Expended
               and Jobs Created or Saved as of June 30, 2011
    GRANTING                                          AWARD                      J OBS
                    GRANT N UMBER       PROGRAM                    EXPENDED            4
     AGENCY                                           AMOUNT                   CREATED
                   2009-SU-B9-0059      Byrne JAG   $4,972,500    $2,429,842      8.07
      OJP          2009-SG-B9-0119        VOCA        $507,000      $435,221      1.16
                             Subtotal               $5,479,500   $2,865,063       9.23
      OVW          2009-EF-S6-0056        STOP        $638,390      $303,145      4.89
                                            Total $6,117,890     $3,168,208      14.12
Source: The Law Enforcement Planning Commission


Audit Purpose

      The purpose of this audit was to assess the LEPC’s
administration of DOJ grants. Our audit covered grants awarded by
OJP and the OVW. Our review of OJP grants included grant programs
administered by the Bureau of Justice Assistance and the Office for
Victims of Crime. In addition, we performed limited testing of OJP
grants administered by the Office of Juvenile Justice and Delinquency
Prevention and the Bureau of Justice Statistics. Our review of OVW
grants included STOP Program grants.

      We assessed the LEPC’s process for soliciting and making
subawards, and whether the LEPC and its subrecipients used grant
funds for costs that were allowable, reasonable, and in accordance
with applicable laws, regulations, guidelines, and terms and conditions
of the grants. We also assessed whether the LEPC and its
subrecipients met or were meeting the goals and objectives of the
grants as outlined in the grant programs and applications.

      We tested compliance with essential grant conditions pertaining
to: (1) internal controls; (2) grant fund drawdowns; (3) income
generated from grant funds and programs; (4) grant expenditures;
(5) management of property items bought with grant funds;
(6) management of subrecipients; (7) financial, program, and
Recovery Act reports; and (8) grant goals and accomplishments.

      We found weaknesses in the administration of OJP and OVW
grants. Specifically, we found the following.


       4
          As discussed later in the report, we tested the accuracy of nine Recovery Act
reports submitted to Federal Reporting.gov. We found all nine reports incorrectly
reported the amount of grant funds drawn down or expended. For seven of those
reports, the number of jobs created or saved was also incorrect.

                                            iv
   •   The LEPC did not have adequate controls in place to account for,
       manage, and report the use of DOJ grant funds. These
       weaknesses have existed for several years and led to a former
       U.S. Virgin Islands government official being convicted of
       embezzling $1.25 million. 5 This is discussed in detail later in this
       report.

   •   The LEPC did not have sufficient staff with the training and
       experience to properly manage the grants and oversee
       subrecipients.

   •   The LEPC did not ensure that federal cash-on-hand was the
       minimum needed for disbursements to be made immediately or
       within 10 days. At the time of our audit the LEPC had $216,980
       excess cash-on-hand from grant funds. Of this amount,
       $152,241 was from grants awarded by OJP and $64,739 was
       from grants awarded by the OVW. None of this excess cash was
       from Recovery Act grants or Byrne JAG grants, which the LEPC
       was permitted to draw down in advance of grant costs.

   •   The LEPC could not provide accounting records showing how it
       spent $972,976 in grant funds of which $600,542 was from OJP
       grants and $372,434 was from OVW grants. These funds are
       unaccounted for.

   •   The LEPC commingled DOJ funds with funds from other sources.

   •   The LEPC did not draw down and expend $606,317 in grant
       funds before the grants expired. Of this amount, $134,261 was
       from grants awarded by OJP and $472,056 was from grants
       awarded by the OVW.

   •   The LEPC earned $43,503 in interest on Byrne JAG Recovery Act
       grant funds drawn down in advance, but it did not report the
       income to OJP and did not allocate the additional income to the
       grant as required.

   •   The LEPC did not have adequate controls in place to track the
       use of prepaid airline tickets for inter-island travel. We identified


       5
          In January 2011 the Governor appointed a new LEPC Director. We discussed
the lack of adequate controls with the new Director and he agreed with our
assessment of the need to establish controls to improve the oversight and
transparency in the administration of DOJ grant funds.

                                        v
    $3,063 in OVW grant funds spent on airline tickets bought in
    advance, but the tickets were not used and had expired.

•   The LEPC and a third-party fiduciary used by the LEPC to
    administer grant funds charged $160,546 in excess
    administrative costs to five grants awarded by OJP.

•   The LEPC did not adequately monitor subrecipients’ use of grant
    funds. Consequently, $293,322 in grant expenditures from
    grants awarded by OJP was either unsupported or unallowable.

•   The LEPC did not have an adequate system in place for soliciting
    and making subawards and did not maintain documentation
    supporting the award decisions it made. It appeared that the
    LEPC did not maintain fair and open competition for subawards
    for grant funds received from both OJP and OVW grants.

•   The LEPC did not allocate 2007, 2008, and 2009 Violence Against
    Women Act grant funds in accordance with grant requirements.

•   The LEPC used a third-party fiduciary, the St. Croix Foundation
    for Community Development, Inc. (the St. Croix Foundation) to
    administer the finances for some grant funded projects. In
    2007, OJP told the former LEPC Director to stop using a third-
    party fiduciary to administer grants, but the LEPC continued
    disbursing funds to the fiduciary to administer. At the time of
    our audit, the fiduciary was administering 18 grant projects
    funded through the LEPC. We found that $93,432 in OJP grant
    funds disbursed by the third-party fiduciary was for either
    unsupported or unallowable costs. Independent financial
    auditors also found serious weaknesses in the fiduciary’s ability
    to administer federal funds. In January 2011 the Governor
    appointed a new LEPC Director. The new Director worked as the
    Fiscal Officer for the St. Croix Foundation until December 2006.

•   The LEPC did not monitor and did not have adequate procedures
    for monitoring subrecipients to ensure they met the fiscal and
    programmatic requirements of the grants.

•   The LEPC frequently did not submit quarterly federal financial
    reports to OJP by the required due dates. We tested 8 grants
    and found that OJP withheld funding from the LEPC 45 times
    because of late financial reporting. In June 2010, OJP
    designated the LEPC as a “high-risk” grant recipient because the

                                vi
      LEPC did not take corrective action on some of the findings OJP
      staff identified during site visits to the LEPC. A summary of
      OJP’s site visit reports is presented in Appendix 4.

  •   The LEPC submitted incorrect Recovery Act reports to
      FederalReporting.gov.

  •   We could not evaluate whether grant goals and accomplishments
      were being met because neither the LEPC nor its subrecipients
      had adequate systems for identifying, tracking, and reporting on
      the achievement of grant goals.

      Because of these weaknesses, we question $2,173,159 in grant
funds. Of this amount, $1,325,606 was from grants awarded by OJP
and $847,553 was from grants awarded by the OVW. We make
25 recommendations – 8 to remedy these questioned costs, 3 to put
funds to better use, and 14 to improve the LEPC’s administration of
grants.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix 1.




                                  vii
                              TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
     Background.......................................................................... 2
          Office of Justice Programs Grants...................................... 3
          Office on Violence Against Women Grants .......................... 4
     Recovery Act ........................................................................ 4
          Office of Justice Programs Recovery Act Grants .................. 4
          Office on Violence Against Women Recovery Act Grants ....... 5
     Audit Approach ..................................................................... 5
FINDINGS AND RECOMMENDATIONS ....................................... 8
     Internal Control Environment ................................................. 8
          Financial Management System.......................................... 9
          Process for Disbursing Grant Funds ................................... 9
          Staff Training and Experience .......................................... 10
          Policies and Procedures for Administering Grants ............... 11
          Planning for Recovery Act Grants ..................................... 12
          Audit History ................................................................. 12
          Conclusion on Control Environment .................................. 17
     Drawdowns ......................................................................... 18
          Excess Federal Cash-on-Hand.......................................... 18
          Unaccounted for Grant Funds .......................................... 19
          Separate Bank Accounts ................................................. 21
          Grant Funds Not Drawn Down (Funds Not Used) ................ 22
     Program Income .................................................................. 23
     Grant Expenditures .............................................................. 24
          The LEPC's Administrative Expenditures ............................ 24
          Subrecipients' Expenditures ............................................ 26
     Property Management .......................................................... 28
          Property Items at the LEPC ............................................. 28
          Property Items at the U.S. Virgin Islands
          Police Department.......................................................... 29
     Management of Subrecipients ............................................... 29
          Solicitation Process ........................................................ 29
          Making Subawards ......................................................... 33
          Unauthorized Use of a Third-Party Fiduciary to
          Administer Subawards .................................................... 43
          Monitoring Subrecipients................................................. 46
          Technical Assistance ....................................................... 47
     Reporting ........................................................................... 48
          Financial Reports ........................................................... 48
          Grant Progress Reports ................................................... 51
          Quarterly Recovery Act Reports ....................................... 52
     Grant Goals and Accomplishments ......................................... 54
     Conclusion .......................................................................... 56
     Recommendations ............................................................... 58
APPENDIX 1 -          Objectives, Scope, and Methodology ............. 61
APPENDIX 2 -          Schedule of Dollar-Related Findings .............. 63
APPENDIX 3 -          Single Audits of the St. Croix Foundation ...... 65
APPENDIX 4 -          OJP Site Visit Reports .................................... 67
APPENDIX 5 -          Unsupported Costs (Funds Managed by
                      the LEPC) ...................................................... 71
APPENDIX 6 -          Unsupported Costs (Funds Managed by the
                      St. Croix Foundation) .................................... 74
APPENDIX 7 -          Crime Prevention Projects Funded With Byrne
                      Justice Assistance Grants .............................. 75
APPENDIX 8 -          Letter from OJP to the LEPC .......................... 79
APPENDIX 9 -          Government of the U.S. Virgin Islands
                      Response to the Draft Report ........................ 81
APPENDIX 10 - Office of Justice Programs Response to the
              Draft Report .................................................. 98
APPENDIX 11 - Office On Violence Against Women Response
              to the Draft Report ...................................... 105
APPENDIX 12 - Office of the Inspector General Analysis and
              Summary of Actions Necessary to Close the
              Report ......................................................... 108
                                   INTRODUCTION

      The Office of the Inspector General Audit Division has completed
an audit of the management of Department of Justice (DOJ) grants,
including American Recovery and Reinvestment Act (Recovery Act)
grants, awarded by the Office of Justice Programs (OJP) and the Office
on Violence Against Women (OVW) to the U.S. Virgin Islands Law
Enforcement Planning Commission (LEPC). 6 The purpose of these
grants was to support a broad range of activities to control and
prevent crime based on local needs and conditions; provide services to
victims of crime, control and prevent violence against women; and
improve the juvenile justice system. From October 2005 through
September 2010, the LEPC was awarded 40 grants by the DOJ.

     Exhibit 1: Grants Awarded to the Law Enforcement Planning
      Commission from October 2005 through September 2010
                                                                    NUMBER
    GRANTING                                                                 TOTAL FUNDS
                                  BUREAU/OFFICE                       OF
     AGENCY                                                                   AWARDED
                                                                    GRANTS
                  Bureau of Justice Assistance                        8        $3,676,352
                                                                7
                  Bureau of Justice Assistance – Recovery Act         1        $4,972,500
                  Office for Victims of Crime                         5        $3,115,088
      OJP         Office for Victims of Crime – Recovery Act          1         $507,000
                  Juvenile Justice and Delinquency Prevention         18       $1,962,314
                  Bureau of Justice Statistics                        1         $150,000
                                   Total OJP Grants                  34      $14,383,254
                                                     8
                  STOP Violence Against Women                         5        $3,158,043
      OVW         STOP Violence Against Women – Recovery Act          1         $638,390

                                   Total OVW Grants                   6       $3,796,433

                                          Total                       40   $18,179,687
 Source: Office of Justice Programs and the Office on Violence Against Women


     As shown in Exhibit 1, from October 2005 through September
2010, OJP awarded the LEPC 34 grants totaling $14,383,254, including
$5,479,500 in Recovery Act grants awarded under the Edward Byrne
Memorial Justice Assistance Grant (Byrne JAG) program and the

      6
         The U.S. Virgin Islands was also awarded grants by the Office of Community
Oriented Policing Services but those grants were not administered by the LEPC.
      7
       The LEPC received the $4,972,500 Recovery Act award in May 2009. In
September 2010, the LEPC received a $50,000 supplement to the award.
      8
          STOP is an acronym for Services, Training, Officers, Prosecutors.


                                                 1
Victims of Crimes Act (VOCA) grant program. During the same period,
the LEPC received 6 grants from the OVW totaling $3,796,433. One of
these was a $638,390 Recovery Act grant awarded under the STOP
Violence Against Women Act grant program.

Background

      The U.S. Virgin Islands is located about 1,100 miles southeast of
Miami, Florida, and includes the islands of St. Thomas, St. Croix, and
St. John. According to the 2010 census, the U.S. Virgin Islands has a
population of about 109,000. The Governor of the U.S. Virgin Islands
designated the LEPC as the State Administering Agency for DOJ
grants. The Director of the LEPC is also the Drug Policy Advisor to the
Governor. 9

      As the State Administering Agency, the LEPC is responsible for:
(1) applying to the DOJ for grants, (2) soliciting and evaluating
subrecipients’ applications for funding, (3) making allocations and
subawards, (4) drawing down grant funds from OJP, (5) reviewing and
approving grant fund disbursements, (6) monitoring subrecipients to
ensure they meet the fiscal and programmatic requirements of the
grants, (7) submitting the required financial and programmatic reports
to OJP, and (8) submitting Recovery Act expenses and job data to
FederalReporting.gov.

      The LEPC received funding through grant programs administered
by these OJP bureaus and offices.

  •   Bureau of Justice Assistance

  •   Office for Victims of Crime

  •   Office of Juvenile Justice and Delinquency Prevention

  •   Bureau of Justice Statistics

     Below is a brief description of the grant programs administered
by OJP and OVW that we reviewed during this audit.




      9
          In January 2011, the Governor appointed a new LEPC Director.

                                         2
Office of Justice Programs Grants

     Edward Byrne Memorial Justice Assistance Grants

      OJP’s Bureau of Justice Assistance administers the Byrne JAG
grants that allow states, tribes, and local governments to support a
broad range of activities to prevent and control crime based on their
own local needs and conditions. Byrne JAG funds may be used for
seven general purpose areas – law enforcement, prosecutions, courts,
prevention and education, corrections, drug treatment, and technology
improvements. The Byrne JAG program is the LEPC’s largest source of
DOJ grant funding.

     Victims of Crime Act Grants

      OJP’s Office for Victims of Crime administers VOCA grants, which
support community-based organizations that provide services to
victims of crime. Nationwide each year, VOCA fund recipients make
about 5,600 subawards to domestic violence shelters, rape crisis
centers, child abuse programs, victim service units in law enforcement
agencies, prosecutors’ offices, hospitals, and social service agencies.
In turn, these subrecipients provide a variety of services to crime
victims including crisis intervention, counseling, emergency shelter,
criminal justice advocacy, and transportation.

     Office of Juvenile Justice and Delinquency Prevention Grants

      OJP’s Office of Juvenile Justice and Delinquency Prevention
administers grants to help state-level and community organizations
develop and implement effective and coordinated programs to prevent
juvenile delinquency, improve the juvenile justice system, enhance
public safety, hold offenders accountable, and provide treatment and
rehabilitative services to juveniles and their families.

     Bureau of Justice Statistics Grants

     OJP’s Bureau of Justice Statistics administers the National Crime
History Improvement Program to provide financial and technical
support to states in improving the accuracy, utility, and interstate
accessibility of criminal history records and enhancing records of
protective orders involving domestic violence and stalking, sex
offender records, automated identification systems, and other state
systems supporting national records systems and their use for
background checks.

                                    3
Office on Violence Against Women Grants

     STOP Violence Against Women Act Grants

      The STOP Violence Against Women program grants support the
DOJ’s efforts to combat violence against women and provide services
to victims of violence by providing the protection and services women
and children need to pursue safe and healthy lives and enable
communities to hold offenders accountable.

Recovery Act

      On February 17, 2009, the President signed into law the
American Recovery and Reinvestment Act of 2009 to help preserve
and create jobs, stimulate the economy and investment in long-term
growth, and foster accountability and transparency in government
spending. The Recovery Act provided $787 billion for tax cuts,
education, health care, entitlement programs, contracts, grants, and
loans. Recipients of Recovery Act funds are required to report
quarterly to FederalReporting.gov on how they spent Recovery Act
funds and the number of jobs created or saved. The LEPC received
two Recovery Act grants from OJP totaling $5,479,500 and one
Recovery Act grant from the OVW for $638,390.

Office of Justice Programs Recovery Act Grants

       Nationwide, Recovery Act grants awarded under OJP’s Byrne JAG
grant program support all components of the criminal justice system
including multi-jurisdictional drug and gang task forces, crime
prevention and domestic violence programs, courts, corrections,
treatment, and justice information sharing initiatives. Recovery Act
funded projects could address crime by providing services directly to
individuals and communities and by improving the effectiveness and
efficiency of criminal justice systems, processes, and procedures.

      Recovery Act grants awarded under the Victims of Crime Act
were awarded to provide services to victims of crime. Services under
this grant program are defined as those that: (1) respond to crime
victims’ emotional and physical needs; (2) assist primary and
secondary victims of crime to stabilize their lives after being
victimized; (3) assist victims to understand and participate in the
criminal justice system; and (4) provide victims of crime with a
measure of safety and security, such as boarding-up broken windows
and replacing and repairing locks.

                                  4
Office on Violence Against Women Recovery Act Grants

      Recovery Act funds awarded by the OVW under the STOP
program support communities’ efforts to hire and retain personnel to
respond to violence against women and strengthen law enforcement,
prosecution strategies, and victim services. The OVW encourages
recipients to use Recovery Act funds to hire and retain criminal justice
and victim services personnel, support efforts that create and preserve
jobs, promote economic growth, and improve responses to domestic
violence, dating violence, sexual assault, and stalking.

     Exhibit 2 shows the status of Recovery Act grants awarded by
OJP and OVW to the LEPC as of June 30, 2011, according to LEPC
Recovery Act reports.

    Exhibit 2: Reported Recovery Act Grants Funds Expended and
                 Jobs Created or Saved as of June 30, 2011
  GRANTING                                        AWARD                        J OBS
                   GRANT           PROGRAM                     EXPENDED              10
   AGENCY                                         AMOUNT                     CREATED
              2009-SU-B9-0059    Byrne JAG        $4,972,500    $2,429,842      8.07
     OJP      2009-SG-B9-0119       VOCA           $507,000       $435,221      1.16
                       Sub-Total                 $5,479,500    $2,865,063       9.23
    OVW       2009-EF-S6-0056       STOP           $638,390       $303,145      4.89
                   Total                         $6,117,890    $3,168,208      14.12
Source: The Law Enforcement Planning Commission


Audit Approach

      The purpose of this audit was to determine whether the LEPC’s
managerial processes ensure that costs claimed under the grant were
allowable, reasonable, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants. The
objectives of the audit was to review management in the following
areas: (1) internal controls; (2) grant fund drawdowns; (3) income
generated from grant funds and programs; (4) grant expenditures;
(5) management of property items bought with grant funds;
(6) management of subrecipients including the process for soliciting
applications for funding, making subawards, and monitoring of
subrecipients; (7) financial, program, and Recovery Act reports; and
(8) grant goals and accomplishments.

       10
           As discussed later in the report, we tested the accuracy of nine Recovery Act
reports submitted to Federal Reporting.gov. We found all nine reports incorrectly
reported the amount of grant funds drawn down or expended. For seven of those
reports, the number of jobs created or saved was also incorrect.

                                             5
      We tested compliance with what we consider to be the most
important conditions of the grants. Unless otherwise stated in our
report, the criteria we audited against are contained in the OJP
Financial Guide, grant award documents, Code of Federal Regulations,
VOCA Program Guidelines, Office of Management and Budget Circulars,
and the Recovery Act. We tested the LEPC’s:

  •   internal controls including plans, policies, procedures, and staff
      training and experience that help the LEPC meet its mission,
      goals, and objectives;

  •   grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the LEPC was managing grant
      receipts in accordance with federal requirements;

  •   program income to determine whether grant funds or
      programs generated revenues and whether this income was
      reported and used for grant purposes;

  •   grant expenditures to determine whether costs were
      allowable, supported, reasonable, and properly charged to the
      grants;

  •   property management to determine whether the LEPC could
      account for property bought with grant funds and whether the
      property was being used for grant purposes;

  •   management of subrecipients including its process for
      soliciting and making subawards and monitoring subrecipients to
      ensure they meet the fiscal and programmatic requirements of
      the grants;

  •   financial and progress reports to determine whether those
      reports were submitted timely and accurately reflected grant
      activity; and

  •   grant goals and accomplishments to determine whether the
      LEPC and subrecipients met, or were meeting, the goals and
      objectives of the grants.


      In conducting our audit, we performed sample testing in the
areas of grant expenditures; property management; financial,

                                   6
progress, and Recovery Act reports; management of subrecipients,
and grant goals and accomplishments.




                                 7
              FINDINGS AND RECOMMENDATIONS

     We found that the LEPC: (1) did not have adequate controls to
     account for, manage, and report the use of DOJ grant funds;
     (2) did not have adequate policies, procedures, and staff with
     the training and experience to administer the grants; (3) drew
     down excess grant funds; (4) could not account for $972,976 in
     grant funds drawn down; (5) commingled DOJ funds with funds
     from other sources; (6) did not use $606,317 in grant funds
     from some grants before those grants expired; (7) did not
     identify and report interest income earned on grant funds and
     ensure the additional funds were used for grant purposes;
     (8) did not have adequate controls to track the use of prepaid
     airline tickets for intra-island flights, which resulted some tickets
     having expired before they were used; (9) charged $160,546 in
     excess administrative costs to some grants; (10) spent grant
     funds for unallowable purposes; (11) did not have an adequate
     system for soliciting and making subawards; (12) did not
     allocate grant funds in accordance with grant requirements for
     the 2007, 2008, and 2009 OVW grants; (13) used a third-party
     fiduciary to administer grant funds for some subrecipients after
     OJP told the LEPC to stop doing so and failed to identify
     unsupported and unallowable costs administered by the third-
     party fiduciary; (14) did not adequately monitor subrecipients to
     ensure they met the fiscal and programmatic requirements of
     the grants; (15) submitted financial reports late to OJP;
     (16) submitted incorrect Recovery Act reports to
     FederalReporting.gov; and (17) did not assess, and had not
     procedures to assess, whether subrecipients were meeting the
     goals and objectives of the grants. As result of these
     weaknesses, we question $2,173,159 in grants funds. Of this
     amount $1,325,606 is from grants awarded by OJP and
     $847,553 is from grants awarded by the OVW. We make 25
     recommendations, of which 14 are designed to improve the
     management of grants.

Internal Control Environment

       We reviewed the financial management system, LEPC staff
training and experience, policies and procedures for administering
grants, and financial audit reports conducted in accordance with the
Single Audit Act to assess the risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the grants. We
also interviewed personnel from the LEPC and the U.S. Virgin Islands

                                    8
Department of Finance, both of which play key roles in administering
DOJ grants.

Financial Management System

      The U.S. Virgin Islands’ accounting system, used by the LEPC
and other government agencies, is managed by the Department of
Finance and has applications for general ledger, purchasing, accounts
payable and receivable, payroll, fixed assets, and reporting. System
controls appear to provide adequate separation of duties, and separate
accounting for each grant. All grant fund receipts and disbursement
are processed through this system.

      The LEPC draws down grant funds, reviews and approves grant
fund disbursements to subrecipients, and submits financial and grant
progress reports to OJP and OVW. The Department of Finance
receives grant funds drawn from the DOJ (drawdowns), which are
electronically deposited into a bank account, maintains custody of the
grant funds received from the federal government; reconciles the bank
statements, disburses grant funds; and records grant fund receipts
and disbursements in the accounting system. 11 However, as discussed
in the Grant Drawdowns section of this report, the LEPC and the
Department of Finance could not account for $972,976 in grant funds
received from OJP and OVW.

Process for Disbursing Grant Funds

      After the LEPC is awarded a grant, the Department of Finance
assigns accounting codes for the grant revenues and expenses and
provides those to the LEPC. The LEPC solicits applications for
subawards of the grant funds. After making subawards, LEPC staff
enter the approved budget for each grant subrecipient and the
associated accounting codes into the accounting system.

       When government entity subrecipients incur grant-related costs,
those entities enter their payment requests directly into the
Department of Finance accounting system. Department of Finance
staff review these payment requests and enter the grant expense
codes associated with the payment requests into the accounting
system. Government entities also send copies of invoices and other

       11
           The Department of Finance performed bank reconciliations once per year.
In our judgment, reconciling bank statements on a monthly basis would make it easier
to identify and correct errors between grant fund drawdowns, bank accounts, and
accounting records.

                                         9
supporting documents associated with the payment requests to the
LEPC, where staff then review the supporting documents and
electronically approve the payment requests that the government
entity subrecipients entered directly into the accounting system.

      When non-profit organization subrecipients incur grant-related
costs, they send paper copies of their payment requests to the LEPC
along with invoices and other supporting documentation. LEPC staff
review and approve the requests and the Department of Finance
disburses the funds directly to the subrecipients. Some non-profit
subrecipients receive grant funds in advance of grant expenditures. In
those cases, the subrecipient submits a Request for Funds form with
an estimate of the project costs to be incurred during a defined period.
The LEPC reviews the request for availability of funds and if the
request appears reasonable, the LEPC Director authorizes the advance
payment and the Department of Finance disburses the funds.

      The LEPC requires all subrecipients to submit monthly financial
reports on their grant expenditures along with invoices or other
supporting documents for each expense. These monthly reports and
supporting documents are essential to the LEPC’s ability to monitor the
subrecipients. As discussed later, some government entities and
non-profit organizations that received funding through the LEPC were
often late in submitting these critical reports to the LEPC, which
caused the LEPC to be late in submitting its required financial reports
to OJP.

Staff Training and Experience

       We found that the LEPC did not have sufficient staff with the
training and experience to properly manage the grants. At the time of
our audit, one LEPC employee, a Financial Specialist, was responsible
for overseeing the financial activities of 75 subrecipients, including
drawing down grant funds from OJP, reviewing and approving
subrecipients’ payment requests, reviewing monthly fiscal reports
submitted by every subrecipient, following up with subrecipients on
late and incorrect financial reports, and submitting required reports to
OJP. LEPC staff told us that this volume of work caused the LEPC to be
late in submitting reports to OJP and OVW and did not allow LEPC staff
sufficient time to oversee subrecipients.

      The LEPC’s Director of Financial Management Services told us
she had been on board for about 2 years but had not been trained on
the LEPC’s grant management process and had performed only limited

                                  10
work on the grants. The former LEPC Director told us he had relieved
the LEPC’s Director of Financial Management Services of most of her
duties. In our judgment, the lack of staff with the training and
experience to manage the grants has had a negative effect on the
LEPC’s management of grants. The LEPC has a history of not
submitting the required financial reports to OJP and OVW when due
and not taking corrective actions on issues identified during OJP site
visits. This resulted in OJP classifying the LEPC as a “high-risk”
recipient. The LEPC has been on the OJP’s current list of high-risk
active grant recipients since June 1, 2010.

      For eight grants awarded to the LEPC from FYs 2008 through
2010 the OJP withheld funds 45 times because of late financial
reporting. The former LEPC Director told us financial reports were
frequently submitted late because of the lack of staff and because
subrecipients were late in providing their financial reports to the LEPC,
which the LEPC needs to prepare and submit its financial reports to
OJP. Details of late financial reporting are discussed in the Reporting
section of this report.

Policies and Procedures for Administering Grants

      We examined the U.S. Virgin Islands’ policies and procedures
pertaining to recordkeeping, procurement, property management,
payment of invoices, and payroll. According to LEPC staff, the LEPC
has a manual binder of written policies and procedures for financial
management and reporting of DOJ grants. However, at the time of
our audit, LEPC staff could not find the manual.

       We tested whether the LEPC’s procedures for administering
grants ensured that DOJ funds were accurately accounted for and
reported. We found that the LEPC and the Department of Finance did
not reconcile grant funds drawn down to the revenues and
expenditures recorded in the accounting records. We compared the
grant funds the LEPC drew down to the government’s bank accounts
and accounting records. As discussed earlier there is a $972,976
difference between grant funds drawn down and grant expenditures
recorded in the accounting records. We consider these funds to be
unaccounted for. Details of our testing are provided in the Drawdown
section of this report.




                                   11
Planning for Recovery Act Grants

      We interviewed LEPC officials about their plans for administering
Recovery Act funds. LEPC officials told us those grants are being
administered under the LEPC’s existing policies and procedures, but
the LEPC took additional steps to prepare for the receipt of Recovery
Act grants by hiring two additional program managers – one to
administer the Byrne JAG Recovery Act grant and one to administer
the VOCA and OVW Recovery Act grants. LEPC officials told us that
both of the new program managers had administrative experience.
Both of these new program managers attended training and received
e-mail bulletins, Office of Management and Budget (OMB) guidance,
and information on the special conditions associated with grant
awards.

      In January 2011 the Governor appointed a new LEPC Director. 12
Although the LEPC has made an effort to improve its procedures to
ensure efficient management of Recovery Act funds, there appears to
be a lack of coordination between the LEPC and the Department of
Finance. Reconciliations are not performed on a frequent and regular
basis and reports are not completed and submitted to OJP when they
are due. These concerns are discussed in the Drawdowns section of
the report. Based on our findings, we recommend that the LEPC
improve its procedures to ensure Recovery Act funds are properly
expended and activities accurately reported.

Audit History

       Single Audits of the U.S. Virgin Islands Government

        According to Office of Management and Budget Circular A-133,
Audits of States, Local Governments, and Non-Profits, the government
of the U.S. Virgin Islands is required to have a Single Audit performed
annually with the report due no later than 9 months after the end of
its fiscal year. The U.S. Virgin Islands’ fiscal year runs from October 1
through September 30, with the Single Audit report being due the
following June 30. The FY 2007 Single Audit report was issued in
November 2009, which was more than 16 months late. The FY 2008
Single Audit was issued in October 2010, which was more than 15
months late. According to the external auditors the audits were late
because management failed to ensure the timely closing of books and

       12
         The new LEPC Director had worked as the Fiscal Officer for the St. Croix
Foundation for Community Development, Inc., until December 2006.

                                         12
the availability of adequate accounting records. The FY 2009 Single
Audit report was submitted in September 2011, which is over 14
months late. As of November 2011, the Virgin Islands was not in
compliance with the Single Audit requirement because its FY 2010
Single Audit report had not been submitted and was over 4 months
late.

       We reviewed the FYs 2007 and 2008 Single Audit Reports and
identified the following findings pertaining to the U.S. Virgin Islands
government’s internal controls and its ability to adequately manage
federally-funded programs.

   •   Finding 2007-01 and 2008-01 – Internal Controls

       Auditors found that the U.S. Virgin Islands government: (1) did
       not have a sufficient level of “control consciousness” throughout
       all of the government’s administrative operations; (2) lacked
       controls to ensure compliance with federal laws, regulations, and
       program requirements; and (3) did not exercise appropriate
       management, review, and approval of transactions, accounting
       entries, and financial and other reporting.

       In its response to the FY 2007 and FY 2008 audit reports, the
       U.S. Virgin Islands government stated that it had implemented a
       new financial management system, which it believed would
       correct these deficiencies within 3 to 5 years.

   •   Finding 2007-02 and 2008-02 – Compliance with Single
       Audit Requirements

       Auditors found that the U.S. Virgin Islands government did not
       comply with the due date for submitting the Single Audit reports.
       This occurred because management failed to ensure that
       adequate accounting records exist and that the timely closing of
       books occurs.

       In its response to the FY 2007 audit, the government stated that
       it could not effect the timely issuance of Single Audit reports
       until the FY 2008 audit is completed.

       In its response to the FY 2008 audit, the government stated that
       it could not effect the timely issuance of Single Audit reports
       until the FY 2009 audit is completed.


                                   13
   •   Finding 2007-04 and 2008-04 – Reporting Grant Revenues
       and Expenditures

       Auditors found that some federal revenues and expenditures
       made by a third-party fiduciary on behalf of the government
       were not reported or were incorrectly reported in the financial
       statements. 13

       In its response to the 2007 and 2008 audits, the government
       stated that it had implemented new accounting policies and was
       developing an interface with the third-party fiduciary, which
       would mitigate these deficiencies.

       In response to the 2007 audit, the government stated that the
       interface would be fully operational by FY 2010.

       In response to the 2008 audit, the government stated that the
       interface would be fully operational by FY 2011. The deficiencies
       highlighted in these reports still existed at the time of our audit.

       Single Audits of the St. Croix Foundation

       We found that the LEPC used a third-party fiduciary, the
St. Croix Foundation, to manage the grant funds it awarded to some
subrecipients. At the time of our audit, the St. Croix Foundation was
administering 16 grant projects funded through the LEPC. However,
the St. Croix Foundation’s FY’s 2007, 2008, and 2009 Single Audit
Reports identified serious deficiencies in the St. Croix Foundation’s
ability to adequately manage federal programs. Some of these were
repeat deficiencies from prior years. Findings from the St. Croix
Foundation’s Single Audits and the relationship of those findings to our
results are discussed in Appendix 3.

       U.S. Virgin Islands Office of the Inspector General Report

      The U.S. Virgin Islands Office of the Inspector General has
issued two reports containing findings relevant to the internal control
structure of the LEPC and one of its subrecipients. The findings of
those reports are summarized below.


       13
          The report did not name the third-party fiduciary; however, the St. Croix
Foundation for Community Development, Inc. was the third-party fiduciary the LEPC
used to administer subrecipients’ finances and keep their accounting records.


                                         14
       Audit of the Funding for the Abandoned Vehicle Program 14

      In March 2010, the U.S. Virgin Islands Office of the Inspector
General completed an audit of the St. Thomas abandoned vehicle
program after a former Deputy Chief of Staff to the then-Governor was
convicted of embezzling $1.25 million. The embezzled accounts
included $700,000 in DOJ Byrne JAG funds subawarded to the
St. Thomas Task Force (the task force) from FY 2004 through FY 2006.
The task force received DOJ funds through the LEPC and funds from
other federal and local sources to remove abandoned vehicles and
demolish abandoned buildings used for illegal activities. Auditors
found the following weaknesses in the LEPC’s administration of federal
funds.

   •   The LEPC allowed the task force to manage federal funds outside
       the Department of Finance accounting system, did not ensure
       that federal grant funds were properly managed, and did not
       ensure the task force followed federal guidelines on submitting
       grant reports.

   •   The task force did not establish controls for managing federal
       funds and did not comply with reporting requirements.

   •   The Department of Finance did not ensure that funds provided to
       the task force were properly accounted for.

   •   The former Deputy Chief of Staff to the Governor exercised
       undue influence over the LEPC to circumvent controls established
       by the LEPC and Finance.

       Consequently, DOJ Byrne JAG and other funds were improperly
distributed, not properly managed, commingled, and unaccounted for.
The total cost to the government was $1.9 million. Because funds
from 10 sources were commingled and embezzled from a single
checking account set up by the former government official, auditors
could not determine the amount of DOJ Byrne JAG funds that were
embezzled. The report recommended that the former LEPC Director:

    • ensure all government agencies receiving federal funds maintain
      and account for those funds through the government accounting
      system maintained by the Department of Finance, and

       14
         U.S. Virgin Islands, Office of the Inspector General, Audit of the Funding for
the Abandoned Vehicle Program, Audit Report AR-01-11-10 (March 2010).

                                         15
    • enforce all federal grant award guidelines as established by the
      federal government.

       We obtained documentation showing the LEPC implemented the
first recommendation, but we could not determine whether the LEPC
implemented the second recommendation.

      Audit of LEPC Victims of Crime Act Grants Awarded to the Safety
      Zone 15

      In April 2005, the U.S. Virgin Islands Office of the Inspector
General issued a report on grant funds subawarded by the LEPC to the
Safety Zone, a non-profit organization that provides services to victims
of crime. The Safety Zone received an advance payment of grant
funds to begin providing services to crime victims. All grant fund
payments for the provision of goods and services had to be fully
supported by invoices, bills, receipts, timesheets, paid checks, and
contracts. The Safety Zone also had to submit periodic financial and
grant progress reports to the LEPC.

      Auditors found that the Safety Zone did not provide adequate
supporting documentation for some grant costs, did not always submit
financial and grant progress reports to the LEPC when they were due,
and did not respond timely to the LEPC’s requests for information and
documents.

       Auditors found that the LEPC frequently asked for documentation
that the Safety Zone had already provided and, in one instance,
reimbursed the Safety Zone $755 more than it had claimed. Neither
the LEPC nor the subrecipient could provide documentation showing
that the Safety Zone repaid the $755. An LEPC employee also alleged
that two Safety Zone employees paid with funds from another source
also tried to claim reimbursement for their salaries from the LEPC for
the same time period. However, the LEPC employee could not provide
documentation to support the allegation.

     The audit report recommended that the LEPC ensure claims for
reimbursement are adequately supported and that the Safety Zone
make certain management improvements.



      15
         U.S. Virgin Islands, Office of the Inspector General, Audit of Law
Enforcement Planning Commission VOCA Grants Awarded to the Safety Zone, Audit
Report AR-04-50-05 (April 2005).

                                      16
      At the time of our audit, the Safety Zone was continuing to
receive grant funds from the LEPC. The former LEPC Director told us
that on two occasions funding had been withheld from the Safety Zone
because it had not submitted the required financial reports. The
former LEPC Director also told us that he had received several
complaints from an attorney representing the owner of the property
where the Safety Zone offices were located, that the Safety Zone was
not making its rent payments. The most recent subaward to the
Safety Zone included funds for rent. We tested $5,904 in rent
payments the Safety Zone made in FY 2009, but the LEPC could not
provide cancelled checks or other supporting records for those
expenses. The former LEPC Director also told us that the LEPC has
continued to provide funding to the Safety Zone because it had been
pressured to do so by local political leaders.

      OJP Site Visit Reports

       From May 2007 through February 2010, OJP staff made four site
visits to the U.S. Virgin Islands to review various aspects of the LEPC’s
grant management. OJP staff identified numerous concerns and made
recommendations for improvement as discussed in detail in
Appendix 4 of this report.

Conclusion on Control Environment

       We found a lack of adequate controls in key areas that increased
the risk of non-compliance with laws, regulations, guidelines, and
terms and conditions of the grants. As discussed throughout this
report, we found deficiencies in the LEPC’s policies and procedures
pertaining to accounting for, managing, and reporting the use of grant
funds. Although the financial management system appears adequate
to administer the grants, the LEPC did not have procedures to account
for all grant funds drawn down, identify and report interest earned on
grant funds, ensure grant expenditures were allowable and supported,
ensure fair and open competition for grant funds, manage and monitor
subrecipients, and ensure subrecipients achieve grant goals and
objectives. We also noted that the LEPC did not have an adequate
number of trained staff to properly manage and monitor the grants.
Prior audits and reviews have disclosed a pattern of difficulties in
achieving proper management of grants.




                                   17
Drawdowns

      The OJP Financial Guide, Part III, Chapter 1, generally requires
that grant recipients time their drawdown requests to ensure that
federal cash-on-hand is the minimum needed for disbursements to be
made immediately or within 10 days. Recipients of Byrne JAG awards
may draw down any amount of the grant funds in advance, but must
establish a trust fund in which to deposit the funds. Recipients of
VOCA and VAWA grants awarded under the Recovery Act must not
commingle those funds with funds from other sources. These
requirements also apply to subrecipients that receive funds from these
grants.

      We interviewed LEPC officials responsible for drawing down grant
funds and reviewed drawdown procedures and accounting records.
LEPC officials told us that drawdown amounts were based on funding
requests from subrecipients and the LEPC’s estimated administrative
expenditures.

      We tested whether the LEPC complied with OJP’s requirements
pertaining to grant fund drawdowns. We found serious internal control
weaknesses including excess federal cash-on-hand, unaccounted for
grant funds, grant funds that were commingled with funds from other
sources, and grant funds that were not used before the grants expired.

Excess Federal Cash-on-Hand

      We tested whether the LEPC had excess federal cash-on-hand by
comparing grant funds drawn down to the grant expenditures recorded
in the accounting records. We tested eight active grants that permit
drawdown of funds in advance for immediate needs or to be disbursed
within 10 days. We found the LEPC had drawn down $216,980 more
grant funds than it had in grant expenditures for these grants.
Exhibit 3 shows excess cash-on-hand for the grants we tested.




                                  18
         Exhibit 3: Excess Federal Cash-on-Hand for Active Grants
                                                                   GRANT
                                                 GRANT F UNDS   EXPENDITURES      EXCESS
 GRANTING
              GRANT N UMBER         GRANT          DRAWN         ACCORDING        FEDERAL
  AGENCY
                                   AMOUNT         DOWN FROM        TO THE        CASH - ON -
                                                    OJP         ACCOUNTING         HAND
                                                                 R ECORDS
             2009-JP-FX-0033           $8,372          $8,372               $0       $8,372
   OJP       2009-SG-B9-0119        $507,000        $441,711        $359,683        $82,028
             2009-VA-GX-0044        $619,898        $351,700        $289,859        $61,841
            Subtotal             $1,325,270        $801,783        $649,542      $152,241
             2009-WF-AX-0050        $632,395        $259,606        $249,224        $10,382
   OVW
             2009-EF-S6-0056        $638,390        $192,349        $137,992        $54,357
            Subtotal             $1,270,785        $451,955        $387,216        $64,739
             Total               $2,406,055       $1,253,738     $1,036,758      $216,980
Source: Office of Justice Programs and the Law Enforcement Planning Commission


       In May 2010, OJP’s Office of the Chief Financial Officer notified
 the LEPC that it had drawn down $357,798 in excess grant funds and
 advised the LEPC to return the excess funds or submit a revised
 financial report. LEPC officials told us the excess drawdown was a
 mistake by the LEPC’s Director of Financial Management Services. The
 LEPC requested that the U.S. Virgin Islands Department of Finance
 issue a check to OJP, but no check was issued. Because the funds
 were eventually used to reimburse subrecipients for their grant costs
 we make no recommendation about the excess funds drawn down.

       The LEPC should implement procedures to ensure that federal
 cash-on-hand is the minimum needed for disbursement immediately or
 within 10 days. The LEPC should also implement procedures to
 periodically reconcile grant funds drawn down from OJP to the grant
 expenditures recorded in the U.S. Virgin Islands accounting system
 and follow up on any differences.

 Unaccounted for Grant Funds

       We also tested whether the LEPC could account for the grant
 funds received for grants that had expired. We identified 13 grants
 awarded since 2006 that had expired and compared grant fund
 drawdowns to expenditures recorded in the accounting records. For
 10 of those grants, the LEPC had drawn down $2,793,625 in grant
 funds, but the expenditures according to the accounting records were
 $1,820,649. The remaining $972,976 in grant funds drawn down are
 unaccounted for. We recommend that OJP remedy these unsupported
 costs. Exhibit 4 shows the details of the unaccounted for grant funds.

                                            19
             Exhibit 4: Unaccounted for Funds From Expired Grants
                                                            EXPENDITURES
                                               GRANT F UNDS ACCORDING TO UNACCOUNTED
GRANTING                              AWARD
                GRANT N UMBER                  DRAWN D OWN       THE      FOR G RANT
 AGENCY                               AMOUNT
                                                FROM OJP     ACCOUNTING     FUNDS
                                                              R ECORDS
           2006-DJ-BX-0093 (BJA)      $730,000    $729,843     $688,924       $40,919
           2006-VA-GX-0051 (OVC)       $634,387     $632,865     $350,746         $282,119
           2006-JB-FX-0041 (OJJDP)     $103,185      $98,025       $30,080         $67,945
                                                                             16
           2006-JP-FX-0043 (OJJDP)      $18,750      $14,998            $0         $14,998
           2006-JF-FX-0060 (OJJDP)      $60,000      $56,879       $56,376            $503
  OJP
           2007-JB-FX-0076 (OJJDP)     $102,488      $74,052       $70,241          $3,811
           2007-VA-GX-0031 (OVC)       $624,000     $620,017     $490,316         $129,701
           2007-JP-FX-0023 (OJJDP)      $25,075      $25,075            $0         $25,075
           2007-RU-BX-K012 (BJS)       $150,000      $99,368       $63,897         $35,471
                  Total OJP          $2,447,885 $2,351,122 $1,750,580             $600,542
 OVW       2006-WF-AX-0019             $632,934     $442,503       $70,069        $372,434
               Totals                 $3,080,819 $2,793,625 $1,820,649             $972,976
Source: Office of Justice Programs, Office on Violence Against Women, and the LEPC


       We asked LEPC officials about the unaccounted for funds and we
 were told that some of the accounting records for these grants were
 processed under the old accounting system and may not have been
 imported into the new accounting system. We requested reports from
 the old accounting system from the Department of Finance, but we
 were told that all accounting activity for these grants was processed in
 the new system, which the LEPC had already provided. Officials from
 the LEPC and the Department of Finance could not provide any other
 explanation for the $972,976 in unaccounted for funds.

       We also noted that neither the LEPC nor the Department of
 Finance reconciled the grant funds drawn down to the grant
 expenditures recorded in the accounting records. The LEPC and the
 Department of Finance should immediately reconcile all grants to
 determine the status of DOJ grant funds that are unaccounted for. We
 discussed this issue with the current LEPC Director and he concurred
 with our assessment on the lack of adequate controls to account for
 DOJ grant funds. He also told us that he is developing new procedures
 to address those deficiencies and said he is establishing controls to
 improve the oversight and transparency in the administration of DOJ
 grants. The LEPC and the Department of Finance also should
 periodically reconcile grant funds drawn down to the expenditures


        16
           The LEPC did not provide accounting records to support expenditures
 charged to Grant Numbers 2006-JP-FX-0043 and 2007-JP-FX-0023.

                                            20
recorded in the accounting records and follow up on any differences.
We recommend that these reconciliations be performed monthly.

Separate Bank Accounts

      We also tested whether the LEPC established a trust fund
account for the Byrne JAG Recovery Act grant and whether Recovery
Act grant funds awarded under the Victims of Crime Act (VOCA) and
Violence Against Women Act (VAWA) were commingled with funds
from other sources. We found that the Department of Finance
established a separate bank account for the Byrne JAG Recovery Act
grant.

      The LEPC drew down the entire $4,972,500 Byrne JAG Recovery
Act award amount in advance and deposited the funds into a separate
account. However, the Department of Finance did not establish
separate bank accounts for Recovery Act grants awarded under the
VOCA and VAWA programs or for non-Recovery Act grants awarded
under the Byrne JAG program. 17 As previously discussed,
expenditures were allocated to each grant within the accounting
system, but the funds from these grants were commingled with funds
from other sources and the grant fund balances were not tracked and
reconciled to ensure they were properly accounted for. Exhibit 5
shows the funds that were commingled with funds from other sources.

           Exhibit 5: Grant Funds Commingled with Other Funds
    GRANTING                                               AWARD
                            GRANT N UMBER                               DRAWDOWN
     AGENCY                                                AMOUNT

                2006-DJ-BX-0093 (Byrne JAG)                  $730,000       $729,843
                2008-DJ-BX-0055 (Byrne JAG)                  $373,273       $357,754
      OJP       2008-DJ-BX-0726 (Byrne JAG)                   $25,179        $20,000
                2009-DJ-BX-1097 (Byrne JAG)                $1,209,694     $1,003,080
                2009-SG-B9-0119 (VOCA-Recovery Act)          $507,000       $485,289
      OVW       2009-EF-S6-0056 (STOP-Recovery Act)          $638,390       $326,848
                         Totals                           $3,483,536     $2,922,814
  Source: Office of Justice Programs and the Law Enforcement Planning Commission


     As explained earlier, because the LEPC commingled these funds,
we could not reconcile grant funds drawn down to the bank accounts



      17
         The LEPC was not required to establish separate bank accounts for the
VOCA and VAWA Recovery Act grants, but funds from those grants were not to be
commingled with funds from other sources.

                                          21
and accounting records. Consequently, $972,976 in grant funds are
unaccounted for.

      The LEPC should implement procedures to ensure it establishes a
bank accounts for Byrne JAG grants and does not commingle grant
funds from VOCA and VAWA grants with funds from other sources.
The LEPC should also determine what happened to the $972,976 in
grant funds drawn down that are unaccounted for. We recommend
that OJP remedy the $972,976 in unaccounted for funds and ensure
that LEPC: (1) establishes a bank account for DOJ grant funds,
(2) implements appropriate accounting procedures to separately track
grant fund balances, and (3) periodically reconciles the fund balance
for each grant to the bank account. 18

Grant Funds Not Drawn Down (Funds not Used)

      During our testing of grant drawdowns we identified 13 expired
grants with $606,317 in grant funds that were not used. These grants
are shown in Exhibit 6.




       18
          The OJP Financial Guide does not require the grantee to establish a separate
bank account for every grant; however, doing so would help improve the
accountability of DOJ grants.

                                         22
                      Exhibit 6: Expired Grants with Funds Not Drawn Down
                                                                                              FUNDS N OT
                                                                     FUNDS
 GRANTING                             GRANT END      GRANT                        AMOUNT        DRAWN
                  GRANT N UMBER                                     DRAWN
  AGENCY                                DATE        AMOUNT               19     DEOBLIGATED    DOWN TO
                                                                    DOWN
                                                                                              DEOBLIGATE
            2006-JB-FX-0093 (OJJDP)   09/30/2009        $730,000     $729,843         $157            $0
            2006-JP-FX-0043 (OJJDP)   09/30/2008         $18,750      $14,998       $3,752            $0
            2006-VA-GX-0051 (OVC)     09/30/2009        $634,387     $632,865       $1,522            $0
            2007-JB-FX-0076 (OJJDP)   11/26/2010        $102,488      $74,052                    $28,436
            2007-JF-FX-0063 (OJJDP)   09/30/2010         $80,000                                 $80,000
            2008-AH-FX-0065 (OJJDP)   05/31/2011        $350,000     $344,555                     $5,445
   OJP
            2008-JP-FX-0061 (OJJDP)   09/30/2010         $12,099           $0                    $12,099
            2006-JB-FX-0041 (OJJDP)   11/26/2009        $103,185      $98,025                    $ 5,160
            2006-JF-FX-0060 (OJJDP)   09/30/2009         $60,000      $56,879                    $ 3,121
            2007-RU-BX-K012 (BJS)     09/02/2007        $150,000      $99,368      $50,632            $0
            2007-VA-GX-0031 (OVC)     09/30/2010        $624,000     $622,816       $1,184            $0
              Subtotal                             $2,864,909      $2,673,401     $57,247      $134,261
            2006-WF-AX-0019           06/30/2009     $632,934        $442,503                   $190,431
   OVW
            2007-WF-AX-0053           11/30/2009        $627,524     $345,899                   $281,625
              Subtotal                             $1,260,458       $788,402                   $472,056
                Total                              $4,125,367      $3,461,803     $57,247      $606,317
Source: OJP Grant Payment History


               We discussed the unspent grant funds with LEPC staff. The new
         LEPC Director appeared to be surprised at the amount of OVW funds
         that were not used. The new LEPC Director also told us that local
         government regulations make it difficult to conduct monitoring of
         juvenile correctional facilities. Those activities are typically associated
         with OJJDP grants. Another LEPC official told us that grant funds were
         not used because the LEPC did not have enough staff to administer the
         grants. Consequently, funds intended to improve the U.S. Virgin
         Islands criminal justice system were not used.

               As of November 2011, the unspent funds shown in Exhibit 6 had
         not been deobligated. We recommend that OJP and OVW deobligate
         the $134,261 and $472,056, respectively, in unspent grant funds.

         Program Income

              According to the OJP Financial Guide, Part III, Chapter 4, all
         income generated as a direct result of a federally-funded project must
         be used to further program objectives, reported as program income on

                 19
                   As shown earlier in Exhibit 4, funds drawn down from some of these grants
         are unaccounted for.

                                                   23
financial reports submitted to OJP, and may only be used for allowable
program purposes. Any unexpended program income must be
returned to OJP.

       We interviewed LEPC and Department of Finance staff and
reviewed accounting records and bank statements to determine
whether the grant funds or grant funded programs generated income.
We found no evidence of income generated from grant program
activities; however, the bank statement for the 2009 Recovery Act
grant from OJP showed $43,503 in interest earned on those grant
funds. The former LEPC Director told us he was not aware the LEPC
had an additional $43,503 that could be used for grant purposes. We
also found that the LEPC had no procedures to determine whether DOJ
funds or programs generated additional revenues.

       We recommend OJP ensure that the LEPC allocates the $43,503
in program income to grant purposes or returns the funds to the DOJ.
The LEPC should also implement procedures to: (1) identify income
generated from grant funds and programs, (2) report such income in
the financial reports submitted to OJP, and (3) ensure the funds are
spent for allowable DOJ grant purposes.

Grant Expenditures

      According to the OJP Financial Guide, Part III, Chapter 7,
allowable costs are those identified in Office of Management and
Budget circulars and the grant program’s authorizing legislation. In
addition, costs must be reasonable and permissible under the specific
guidance of the grants. To ensure compliance with grant conditions,
the LEPC reviews the supporting documentation associated with
Subrecipients’ grant expenditures.

      We reviewed a judgmental sample of administrative costs, other
direct costs, and property items charged to grant funds and found that
the LEPC and subrecipients charged unallowable and unsupported
costs to grant funds. Details of the questioned costs are discussed
below. Details of the other direct costs we questioned are presented
in Appendix 5.

The LEPC’s Administrative Expenditures

       Administrative costs include salaries and fringe benefits for LEPC
staff, office supplies, utilities, equipment, and other grant-related
items. We judgmentally selected nine OJP grants and three OVW

                                   24
grants for testing. The LEPC charged $222,754 in personnel costs and
$67,109 in other administrative costs to these grants.

     We tested $20,930 in personnel costs for five of the six LEPC
employees paid with grant funds. We tested these costs for two
non-consecutive pay periods and found that the charges were properly
authorized, supported, allowable, and properly allocated to the grants.

      For other administrative costs, we tested 10 transactions totaling
$28,937. We found the LEPC charged $3,063 to OVW Grant Number
2007-WF-AX-0053 for 35 airline tickets purchased in advance for inter-
island travel, but those tickets were not used and had expired.

       According to LEPC officials, the advance purchase of airline
tickets for intra-island travel is necessary because LEPC staff
frequently travel to St. Croix and St. John to perform site visits to
subrecipients. As discussed later in this report, we found only seven
site visit reports in the LEPC’s grant files that we reviewed. LEPC
officials also told us they provide funds to other state agencies to
purchase tickets. We found that the LEPC did not have controls in
place to track the use of prepaid intra-island travel. We reviewed the
airline ticket usage logs maintained by the LEPC but those logs were
not consistently updated with the name of the traveler and the date
and purpose of the travel. As a result, $3,063 the LEPC spent on pre-
paid airline tickets was wasted. Those funds could have been put to
use on grant related activities. We discussed the expired tickets with
LEPC officials and we were told that the airline should have given the
LEPC credit for future travel, but the LEPC provided no supporting
documentation showing credit for the tickets.

      Excess Administrative Costs

      The LEPC did not have controls in place to ensure it complied
with the maximum allowable administrative costs for the grants. We
selected a judgmental sample of 12 of the 40 grants administered by
the LEPC and compared the personnel and other administrative costs
to the amounts permitted by the grants. We found that for 5 of 12
grants we tested, the LEPC exceeded the maximum allowable
administrative costs. For one of those five grants, the LEPC disbursed
a portion of the grant funds to a third-party fiduciary, the St. Croix
Foundation to administer. The fiduciary retained 7.5 percent of those
funds as administrative fees. Exhibit 7 shows excess administrative
costs charged to the grants by the LEPC and the third-party fiduciary.


                                    25
                     Exhibit 7: Excess Administrative Costs
                                 PERCENT
                                   OF
                                          MAXIMUM       LEPC      ST . C ROIX   TOTAL
                                  GRANT
                      AWARD              ALLOWABLE     ADMIN     FOUNDATION     EXCESS
  GRANT /P ROGRAM                ALLOWED
                      AMOUNT               ADMIN       COSTS       ADMIN        ADMIN
                                   FOR
                                           COSTS      (ACTUAL)     COSTS        COSTS
                                  ADMIN
                                  COSTS
2008-DJ-BX-0055
(BJA Byrne JAG)       $373,273    10%      $37,327     $61,131                  $23,804
2006-DJ-BX-0093
(BJA Byrne JAG)       $730,000    10%      $73,000    $127,307                  $54,307
2008-VA-GX-0030
(OVC VOCA)            $601,000     5%      $30,050     $78,089                  $48,039
2007-VA-GX-0031
(OVC VOCA)            $624,000     5%      $31,200     $33,367                   $2,167
2008-AH-FX-0065
(OJJDP)               $350,000     5%      $17,500     $25,354      $24,375     $32,229
        Total                               $189,077 $325,248       $24,375     $160,546
Source: Office of Justice Programs and Law Enforcement Planning Commission records

      Consequently, the LEPC and the St. Croix Foundation charged
 $160,546 more in administrative costs to these grants than was
 permitted. We recommend that OJP remedy the $160,546.

 Subrecipients’ Expenditures

       We also tested subrecipients’ grant fund expenditures. As noted
 in the Management of Subrecipients section in this report, we found
 that the LEPC did not properly monitor subrecipients to ensure that
 they complied with the grant conditions. Along with their requests for
 reimbursement of grant expenses, subrecipients must submit to the
 LEPC, time and attendance records for personnel costs, receipts,
 invoices, copies of checks, or other documentation needed to
 substantiate the expenses.

       We selected a judgmental sample of 7 of the 40 OJP and OVW
 grants awarded to the LEPC between FY 2006 and FY 2010. For these
 seven grants, the LEPC awarded funds to 84 subrecipients. We tested
 $782,160 in grant expenditures reimbursed to 20 of those 84
 subrecipients. The $782,160 we tested is 55 percent of the grant
 funds to those 20 subrecipients. The results of our testing are shown
 in Exhibit 8.




                                           26
    Exhibit 8: LEPC Subrecipients’ Unsupported and Unallowable Costs
                                                     EXPENDITURES   AMOUNT      AMOUNT
          SUBRECIPIENT                 GRANT
                                                       R EPORTED  UNSUPPORTED UNALLOWABLE

University of the Virgin Islands   2006-DJ-BX-0093       $39,906     $39,906
Boys and Girls Club                2008-DJ-BX-0055       $13,988                   $4,200
Our Town Frederiksted              2008-DJ-BX-0055       $29,831     $29,831
Basketball Federation              2008-DJ-BX-0055       $28,395     $20,553       $2,589
Family Resource Center             2008-VA-GX-0030       $84,914     $84,914
Legal Services                     2008-VA-GX-0030       $72,500     $72,500
The Safety Zone                    2008-VA-GX-0030        $5,472      $4,920
Volunteer Advocates for Children   2008-VA-GX-0030        $4,770      $4,650
Women's Coalition                  2008-VA-GX-0030       $20,981     $13,342
Council on Alcoholism              2009-SG-B9-0119       $15,384     $14,523
Kidscope, Inc.                     2009-SG-B9-0119        $6,414      $1,394

                        Total                          $322,555    $286,533       $6,789
Source: The Law Enforcement Planning Commission

          We found that 38 percent of the subrecipients’ expenditures we
    tested were either unsupported ($286,533) or unallowable ($6,789).
    The unsupported costs included transactions missing supporting
    documentation such as timesheets, invoices, proof of payment
    documents, or other types of support required by the LEPC. Additional
    details of the unsupported costs are presented in Appendix 5.

           According to the LEPC’s special conditions for subrecipients,
    subrecipients may not expend Byrne JAG funds for independent
    (individual) contractors. However, we identified $4,200 in 2008 Byrne
    JAG grant funds that a subrecipient, the Boys and Girls Club, spent on
    an independent contractor for consulting services.

          We also identified $2,589 in unallowable expenditures charged
    by the U.S. Virgin Islands Basketball Federation. The funds were
    spent on travel costs for a U.S. Virgin Islands Science and Math Club
    to travel to Florida to visit a space center and an amusement park.
    These costs are unallowable because the funds were not expended for
    grant purposes. The funds awarded to the Basketball Federation were
    intended for a program designed to take 2,000 youths off the streets
    when they are most vulnerable to delinquent activities and gang
    violence. Consequently, the subrecipient had $2,589 less funds to
    address these problems.

         LEPC staff told us they do not have sufficient trained staff to
    adequately monitor all subrecipients’ expenditures. As discussed in


                                               27
the Staff Training and Experience section of this report, one LEPC
employee was responsible for monitoring the financial activities of 75
subrecipients. The new LEPC Director told us that he believes the
LEPC needs to hire another person to help administer the grants.

Property Management

      According to the OJP Financial Guide, Part III, Chapter 6, grant
recipients must be prudent in the acquisition and management of
property bought with federal funds. Property acquired with federal
funds should be used for the purposes stated in the grant programs
and applications, adequately protected from loss, and the property
records should indicate that the property was purchased with federal
funds. The OJP Financial Guide also states that grant recipients and
subrecipients must maintain property records that include a
description of the property, serial number or other identification
number, location of the property, and records that indicate the use
and condition of the property.

      We performed limited testing of property items bought with
2009 Byrne JAG Recovery Act funds to determine whether the items:
(1) were recorded in the property records, (2) could be accounted for,
and (3) were being used for the purposes described in the grant
programs and applications. We performed these tests at the LEPC and
the U.S. Virgin Islands Police Department for property items bought
with 2009 Byrne JAG Recovery Act funds. We included the Police
Department in our testing because it received $2.5 million of the
$4.9 million in Byrne JAG Recovery Act funds awarded to the LEPC in
2009.

Property Items at the LEPC

     At the LEPC we tested three laptop computers valued at $3,152.
These were the only property items the LEPC bought with 2009 Byrne
JAG Recovery Act funds. We physically verified the LEPC had all three
computers and that the computers were being used for grant
purposes.

      At the time we tested these items, the LEPC did not maintain a
system of property records for items bought with grant funds.
Subsequent to our testing, the LEPC established a log of property
items bought with grant funds that includes a description of the item,
the date the item was acquired, and the source of the funds used to
purchase the items.

                                  28
Property Items at the U.S. Virgin Islands Police Department

      At the time of our site work, the Police Department had spent
$485,653 (about 19 percent) of its $2.5 million share of the
2009 Byrne JAG Recovery Act grant on equipment items. The
equipment included 68 computers valued at $52,824, which is
11 percent of the total value of equipment the Police Department
purchased with its share of the Recovery Act funds. We selected
19 property items, including 14 computers, and physically verified that
the Police Department had all 19 items. We also verified that the
items were properly tagged and were recorded in the Police
Department’s property records.

      During our testing of property items we identified an issue
pertaining to Recovery Act funds that were to be used to purchase
equipment. In July 2010 the Department of Finance issued to the
Police Department a $69,120 check drawn on Byrne JAG Recovery Act
funds and made out to a supplier of police officer body armor. The
equipment was to be delivered to the Police Department from 2 to 6
months after the supplier received the payment.

      We made multiple requests that the Police Department provide
us with documentation showing it had received and deployed the body
armor. In December 2010 we were told by Police Department staff
that they had temporarily misplaced the check, but the check had
been found and would be mailed to the supplier the following day.

       In June 2011 the LEPC told us that the Police Department had
lost the check again and the supplier had still not been paid.
Consequently, equipment that could save police officers’ lives had not
been delivered. The LEPC also reported the $69,120 check as an
expenditure of Recovery Act funds. However, the LEPC’s Recovery Act
reports are incorrect because the funds have not been spent and the
check is apparently lost. We recommend that OJP monitor this
transaction to ensure the expenditure is supported and allowable.

Management of Subrecipients

Solicitation Process

      Federal regulations 28 CFR §66.36, § 70.43, and Virgin Islands
law, Title 31, Section 236 requires that procurement transactions be
conducted in a manner to provide open competition. Federal
regulations require states to follow the same policies and procedures

                                  29
for procurement from non-federal funds and the Virgin Islands is
considered to be a state. 20

      We interviewed LEPC staff and reviewed the LEPC’s policies and
procedures for soliciting applications and making subawards. We
found that the LEPC did not provide, or could not show that it
provided, free and open competition for grant funds. An LEPC
program manager told us that grants were awarded on a competitive
basis with priority given to applicants that had demonstrated a history
of successful grant projects. Another LEPC program manager told us
the LEPC used a scoring form to assess grant applications against
specific requirements and key criteria highlighted for each grant
program. Program managers then provided the highest ranked
applications to the former LEPC Director for consideration, but the final
funding decisions rested solely with the former LEPC Director.

      Before 2006, an advisory board made up of representatives from
government and non-government organizations reviewed the
applications for funding. However, the Governor and the LEPC
disbanded the advisory board because some of the members were not
independent because they had received or applied for grant funds,
which posed conflicts of interest. Exhibit 9 shows the LEPC’s process
for soliciting and making subawards.




       20
          The OJP Financial guide defines subaward as an award to an eligible
subrecipient or a procurement contract made under an award by a recipient. We
consider the LEPC’s subgrants to provide services needed to meet grant objectives to
be procurement transactions.

                                         30
                   Exhibit 9: The LEPC’s Process for Soliciting
                             and Making Subawards
 1. The LEPC Director (Drug Policy Advisor to the Governor) accepts and signs the OJP
    and OVW award document and the document is returned to OJP. By signing the
    document the LEPC accepts the federal award.
 2. Within 5 days, the LEPC forwards a Request for Proposal to the media outlets
    soliciting applications for funding from prospective subrecipients.21
 3. Government agencies and non-profits submit their applications and proposals for
    subawards to the LEPC electronically via the LEPC’s website. 22
 4. The LEPC notifies the Governor to set his priorities for funding, including the amounts
    to be allocated to governmental agencies. 23
 5. The date of receipt of an application via the internet is recorded on the application
    and the application is forwarded to the appropriate LEPC grant manager for review.
 6. After receiving an application for funding, the LEPC:
    o reviews each application for completeness, accuracy, and conformity with the
         applicant’s comprehensive plan and DOJ requirements;
    o evaluates each applicant’s ability to meet the goals, objectives, and performance
         measures outlined in its application; and
    o notifies each successful applicant via a letter that its application has been
         approved and the amount of the allocation or award. If the application was not
         approved, the LEPC sends a letter citing the reasons for
         non-acceptance and suggestions for improving the application if the applicant
         desires to reapply.
 7. The LEPC prepares award documents including a description of each applicant’s
    proposed accomplishments, a time-line for outcomes, grant performance
    measurements, a line-item budget, and any special conditions applicable to the
    award.
 8. The applicant receive the funds reads and signs the award documents.
 9. The LEPC fiscal officer retains the award documents and budget as the source
    documents used to appropriate the funds to each recipient in the accounting system.
Source: Law Enforcement Planning Commission Standard Operating Procedures Manual

       According to its written policies, the LEPC publishes a Request
 for Proposals (RFP) in the newspaper within 5 days after it has
 accepted a grant from OJP or OVW. However, we saw no
 documentation showing whether the RFPs were published according to
 those policies.

       During our site visit to the Virgin Islands, two government law
 enforcement agency officials told us they had concerns about the

        21
           LEPC staff told us the solicitation is published in the newspaper once a week
 for 4 weeks.
        22
            At the start of our audit, the LEPC’s website was operational, but shortly
 thereafter, we could not access the website. In July 2011, LEPC officials told us that
 the website was no longer in operation due to lack of funds to maintain it and that
 applicants now submit their applications by e-mail.
        23
           According to LEPC officials, the former LEPC Director made the final decision
 on how funds were allocated. We found no evidence that funds were allocated
 according to the governor’s priorities until the 2009 Recovery Act Byrne JAG grant
 funds were allocated.

                                               31
LEPC’s process for soliciting grants and a lack of transparency in the
awards process. Both officials told us they were not always notified
when the LEPC was accepting applications for funding and at other
times they submitted applications, but received the funds late or not at
all. One official told us that long delays in receiving funds from the
LEPC had an impact on his department’s operations and planning.
Below are three examples of the LEPC taking 21 months or longer to
subaward grant funds after it received the initial award.

   •   The LEPC received a FY 2008 OVW grant in August 2008. In July
       2009 the LEPC published an RFP seeking applications for
       funding. 24 In August 2009 a U.S. Virgin Islands government
       official applied for grant funds in response to the RFP. The funds
       were awarded 9 months later, in May 2010. In this example, it
       took the LEPC 21 months from the time it received the 2008
       grant until it made the subaward.

   •   In March 2011 the LEPC made a subaward from the FY 2008
       OVW grant it received in August 2008. In this example it took
       over 30 months from the time the LEPC received the grant until
       it made the subaward.

   •   In April 2009 the LEPC made a subaward from the FY 2007 OVW
       grant it received in July 2007. In this example, it took the LEPC
       21 months to subaward the funds.

      The government officials we spoke to told us that because they
play key roles in the government’s law enforcement strategy, the LEPC
should notify them directly when grant funds become available. We
agree with those officials and believe that, in addition to publishing an
RFP in the media, the LEPC should also directly notify government
agencies by e-mail or telephone when they can apply for funding.

      As shown earlier in Exhibit 6, for the FYs 2006 and 2007 OVW
grants, $472,056 in grant funds were not used. In addition, for the
FY 2008 OVW grant (Grant Number 2008-WF-AX-0044), the LEPC
requested and OVW approved an extension of the project until
November 2011. However, as of November 2011, $218,488 of those
funds had not been drawn down. We discussed this with the LEPC’s
OVW grant Program Manager and we were told that: (1) the LEPC


       24
          The LEPC’s VAWA program manager told us that the RFP did not specify a
grant year since the RFP covered funding available from previous years.


                                       32
does not receive enough applications for the amount of OVW grant
funds it was awarded, and (2) the LEPC does not make additional
subawards until previous subawards have been expended, which is
why the LEPC takes a long time to draw down the funds.

      The LEPC needs to re-evaluate its practices for subawarding
funds and ensure that grant funds are allocated timely in accordance
with grant requirements.

Making Subawards

      We evaluated the LEPC’s process for making subawards for the
FYs 2008 and 2009 OJP and OVW grants to determine whether the
award process was fair and the awards were made on a competitive
basis. At the time of our audit, the LEPC had not allocated FYs 2010
and 2011 grant funds. 25 Depending of the type of grant, grant funds
are available for 2 to 4 years. OJP and OVW may give the recipient
additional time to spend the funds.

       We requested copies of the scoring forms that the LEPC program
managers told us they used to evaluate applicants’ requests for
funding, but those documents were not provided. 26 One LEPC
program manager told us that after the decision was made about
which applicants were to receive funding, the scoring forms used in the
selection process were discarded. As a result, we could not determine
if the LEPC awarded funds to those subrecipients with the highest peer
review scores. We reviewed documentation showing rejected
applicants were invited to apply for future funding, but we saw no
documentation showing that rejected applicants are given an
opportunity to appeal the decision.

      We also examined how the LEPC distributed grant funds between
non-profit organizations and U.S. Virgin Islands government
organizations in accordance with the goals of the grant program and
the Governor’s priorities. 27 We performed this review after two
U.S. Virgin Islands government officials expressed concern with the

          25
               The LEPC subsequently provided documentation for its allocation of FY 2010
grants.
          26
               The LEPC only used the scoring forms for the VOCA and VAWA grants.
          27
           We made multiple requests that the LEPC and the Governor’s office provide
us with a copy of its strategic plan for addressing crime in the Virgin Islands and how
federal funds should be allocated, but none was ever provided.

                                             33
lack of transparency in the LEPC’s award process. According to these
officials, the funding needs of some government justice agencies had
been ignored and that most of the funds were awarded to non-profit
organizations.

      We reviewed the LEPC’s allocation of FYs 2006, 2008, and 2009
Byrne JAG grants (excluding the Recovery Act grant) and found that
the LEPC appeared to favor non-profit organizations over government
law enforcement organizations when deciding which applicants would
receive funding.

      Using non-profit organizations to implement crime prevention
programs is within grant guidelines. However, as discussed later we
found no evidence that the LEPC or non-profit subrecipients measured
the effectiveness of their programs or the impact they had on crime in
the U.S. Virgin Islands. Below we discuss the various OJP and OVW
grant programs and how the LEPC allocated those funds.

      Edward Byrne Memorial Justice Assistance Grants (Byrne JAG)

      The Byrne JAG program is the primary provider of federal
criminal justice funding to state and local jurisdictions. Byrne JAG
funds may be used to support the criminal justice system in law
enforcement, prosecution, courts, corrections, prevention, drug
treatment, and technology improvements. Grant recipients may use
the funds based on their own local needs and conditions.

       Exhibit 10 shows how the LEPC distributed funds from the
FYs 2006, 2008, and 2009 OJP Byrne JAG grants to non-profit
organizations and U.S. Virgin Islands government law enforcement
entities. 28




      28
          The BJA did not award Byrne JAG grants to the LEPC in FY 2007 because the
LEPC did not apply for FY 2007 Byrne JAG funding. The 2009 Byrne JAG grant is
discussed separately. Subsequent to our audit, the LEPC received FY 2011 Byrne JAG
grant funds.

                                        34
             Exhibit 10: Byrne JAG Funds Awarded to Non-Profit
                 Organizations and Government Agencies 29
                   (number of subawards in parentheses)
                         Non-Profit Organizations        Government Agencies



                                                           $637,715 (24)
            2006 grant
                         $0 (0)



                                          $256,913 (8)
        2008 grants
                                  $100,000 (1)



                                                                       $894,724 (23)
            2009 grant
                                  $198,000 (2)



       Source: The Law Enforcement Planning Commission


      As shown Exhibit 10, the LEPC awarded $298,000 (14 percent)
to government entities in three subawards and $1,789,352
(86 percent) to non-profit organizations in 55 subawards. 30

      As shown in Appendix 7 at the end of this report, funds were
subawarded to non-profit organizations for summer camps and
after-school activities. 31 We discussed this with the former LEPC
Director and he told us that he believed in crime prevention programs
and favored awarding funds to non-profit organizations to administer
those programs. He told us that the Governor preferred that more of
the funds be allocated to government entities such as the U.S. Virgin
Islands Police Department, Department of Justice, and Bureau of
Corrections for enforcement, prosecutions, and corrections.

      Crime prevention programs are an allowable use of Byrne JAG
funds and are recognized in the law enforcement community as an

       29
           The amounts shown in the chart do not include the LEPC’s administrative
costs. FY 2011 grant funds were not yet subawarded. Byrne JAG grant funds are
available for 3 years unless OJP gives the grant recipient additional time to expend the
funds.
       30
           The amounts discussed in the Exhibit do not include $250,793 in grant funds
for the LEPC’s administrative costs or funds not distributed.
       31
             Appendix 7 is a partial list of subrecipients.

                                                   35
acceptable approach to address crime problems. Yet, neither the LEPC
nor the non-profit organizations that implemented these crime
prevention projects evaluated whether the programs had any effect on
crime. Further, limiting government agencies access to grant funds
limits their ability to address crime problems.

       Crime continues to be a problem in the U.S. Virgin Islands.
According to U.S. Virgin Islands government sources, the homicide
rate in the U.S. Virgin Islands has increased steadily for several years.
In 2009 and 2010, the rate was 56 and 60 homicides per 100,000
residents, respectively. On the U.S. mainland, the rate was 5 and 4.8
homicides per 100,000 residents, respectively.

       In August 2010 the U.S. Virgin Islands Legislature questioned
how the LEPC used grant funds. In a Virgin Islands Senate
Appropriations Budget Committee hearing, a Senator questioned the
then LEPC Director (Drug Policy Advisor to the Governor) about the
effectiveness of grant funds spent on crime given the rate of crime in
the territory. The Senator wanted to know “why more is not being
done to put the money to good use.”

      We met with a representative from the Governor’s office who
told us that communication and coordination among government
organizations had been a problem, but recently the Governor’s office
became more involved in the allocation and oversight of DOJ funds.

     As discussed in the following section, subsequent to the
Governor’s Office involvement and beginning with the 2009 Byrne JAG
Recovery Act grant, funds were distributed differently.

       Allocation of the 2009 Byrne JAG Recovery Act Grant Funds

      For the Recovery Act grant (2009 Byrne JAG), the former LEPC
Director planned to subaward 60 percent of the funds to non-profit
organizations and 40 percent to U.S. Virgin Islands government law
enforcement entities. 32 However, the Governor allocated 95 percent of
the funds to the Police Department, Department of Justice, and Bureau
of Corrections. The remaining 5 percent ($272,500) was for the
LEPC’s administrative costs. Exhibit 11 shows how the 2009 Recovery
Act Byrne JAG grant funds were allocated.


       32
          Subsequent to our work in the U.S. Virgin Islands, the LEPC received a
$50,000 supplement to its 2009 Byrne JAG Recovery Act grant award. We did not
audit those grant funds.

                                        36
                Exhibit 11: Allocation of the 2009 Byrne JAG
                            Recovery Act Grant Funds
                                                     Bureau of
                                                    Corrections,
                                                    $1,000,000




                                                                        LEPC
                                                                   Administrative
          Police                                                   Costs, $272,500
       Department,
        $2,500,000




                                                      Department of
                                                         Justice,
                                                       $1,200,000


  Source: The Law Enforcement Planning Commission


      The Police Department planned to use its $2.5 million share of
the 2009 Byrne JAG Recovery Act grant for the following programs and
projects.

   •     $250,000    –   police cadets program
   •     $350,000    –   crime prevention unit
   •     $500,000    –   forensics unit
   •     $100,000    –   island investigations
   •     $100,000    –   investigations bureau
   •     $650,000    –   media and information systems
   •     $250,000    –   school security program
   •     $300,000    –   special operations bureau

       The Bureau of Corrections planned to use its $1 million share of
the grant to: (1) hire two case workers, two vocational trade
specialists, and a volunteer coordinator; and (2) construct a solar
powered building to be used as a training facility, a warehouse for
supplies and equipment, an armory, and administrative offices. The
Bureau of Corrections also used some of the funds to develop a tilapia
fish farm. The fish will be used to feed the inmates and eventually be
used as a consumer product. The former LEPC Director told us that


                                        37
the decision to build a fish farm was based on a survey of inmates’
vocational interests.

     The U.S. Virgin Islands Department of Justice planned to use its
$1.2 million share of the grant to hire two attorneys to prosecute
homicides and two paralegals to assist them.

       Allocation of 2010 Byrne JAG Grant Funds

      In July 2011, the LEPC provided documentation detailing its
allocation of the 2010 Byrne JAG grant funds. The allocation illustrates
a marked change in comparison to previous years. The LEPC allocated
$457,120 (55 percent) of the grant to 20 non-profit organizations, and
$375,940 (45 percent) to 3 U.S. Virgin Islands government law
enforcement agencies – $150,000 to the Bureau of Corrections,
$200,000 to the Department of Justice, and $25,940 to the Police
Department.

       Allocation of OJP’s Victims of Crime Act Grants

       Victims of Crime Act grants help victims of crime respond to
their emotional and physical needs, stabilize their lives after they have
been victimized, help them understand and participate in the criminal
justice system, and help them feel safe by providing funds to board-up
broken windows and replace or repair locks. We reviewed
documentation showing that these types of services are usually
provided by non-profit organizations. We examined four Victims of
Crime Act grants totaling $3,115,088 awarded to the LEPC in
FY’s 2006 through 2010. Of this amount, the LEPC subawarded
$2,806,753 to non-profit organizations to provide services to victims
of crime. 33

       Allocation of OJP’s Office of Juvenile Justice and Delinquency
       Prevention Grants

      These grants help state-level and community organizations
develop and implement effective and coordinated programs to prevent
juvenile delinquency, improve the juvenile justice system, enhance
public safety, hold juvenile offenders accountable, and provide
treatment and rehabilitative services to juveniles and their families.


       33
           At the time of our audit, the LEPC had not subawarded any of its FY 2011
Victims of Crime Act grant funds. Grant recipients have 3 years to expend those
funds.

                                         38
Non-profit organizations provide many of these types of services.
Exhibit 12 shows the distribution of FYs 2006 through 2008 OJJDP
grant funds to non-profit organizations and U.S. Virgin Islands
government agencies. 34

             Exhibit 12: OJJDP Grant Funds Awarded to
     Non-Profit Organizations and U.S. Virgin Islands Government
          Agencies (number of subawards in parentheses)
                          Non-Profit Organizations         Government Agencies



                                          $98,026 (6)
            2006 grant
                          $0 (0)



                                         $89,988 (6)
            2007 grant
                          $0 (0)



                                                                            $303,277 (8)
            2008 grants
                                            $131,953 (5)



        Source: Law Enforcement Planning Commission grant records


     As shown in the exhibit, 20 subawards totaling $491,291
(79 percent) went to non-profit organizations and 5 subawards totaling
$131,953 (21 percent) went to government law enforcement entities.
The LEPC’s allocation of these grants appears reasonable.

      At the time of our audit, the LEPC had not allocated the FYs 2009
and 2010 OJJDP grants. In July 2011, the LEPC provided its allocation
for one FY 2009 OJJDP grant – a $360,000 grant to enforce underage
drinking laws. 35 We have not received the LEPC’s allocation for the
FY 2010 OJJDP grant.


       34
          OJJDP grant funds are available in the federal fiscal year of the appropriation
plus two additional federal fiscal years. For FY 2009, the LEPC was awarded four
OJJDP grants totaling $541,785. Those funds are available until September 30, 2011.
As discussed earlier in the Grant Funds Not Drawn Down section of this report, some
OJJDP grants expired before all the funds were used.
       35
           The LEPC allocated $95,000 to two government organizations and $187,000
to six non-profit organizations. The remaining $78,000 had not been allocated.

                                                39
      Allocation of Office on Violence Against Women Grants

       Violence Against Women Act grants provide protection and
services that women and children need to pursue safe and healthy
lives and enable communities to hold offenders accountable. One of
the sources of OVW funds is the STOP Violence Against Women grant
program (STOP grant). Recipients of STOP grants must submit an
implementation plan to the OVW showing how the funds will be
allocated among the various components of the STOP program. The
implementation plan must state that the total award amount will be
allocated as follows: (1) at least 5 percent will be allocated for state
and local courts, including juvenile courts; (2) at least 25 percent will
be allocated to law enforcement; (3) at least 25 percent will be
allocated to prosecutors; (4) at least 30 percent will be allocated to
non-profit non-governmental victim services, of which at least 10
percent is to be distributed to culturally specific community-based
organizations; and (5) the remaining 15 percent may be spent at the
discretion of the recipient to address these statutory requirements.

     The allocation plan must also describe how the grant funds for
administrative costs will be allocated. States and territories have 24
months to meet these statutory requirements, which is the duration of
the OVW’s STOP grants. In 2008, the LEPC submitted its OVW grants
implementation plan covering a 3-year period.

      Exhibit 13 shows the required and the LEPC’s actual allocation of
grant funds for the OVW’s FYs 2007, 2008 and 2009 STOP grants. 36




      36
         In July 2011, the LEPC provided documentation showing it had allocated
$217,682 of the $636,252 FY 2010 award, but it did not explain why the remaining
funds were not allocated.

                                        40
                   Exhibit 13: Allocation of STOP Grant Funds
                                 MINIMUM REQUIRED         ACTUAL ALLOCATION 37
            CATEGORY
                                DOLLARS    PERCENT        DOLLARS     PERCENT
                        Grant Number 2007-WF-AX-0053 – $627,524
       Law Enforcement             $145,899    25%          $145,910      25%
            Prosecution            $145,899    25%          $145,911      25%
               Courts               $29,180    5%                 $0      0%
   Non-Profit Organizations        $222,619    30%          $222,640      38%
            Discretionary           $40,000    15%           $40,000      7%
        Administrative              $43,927    N/A           $43,930      N/A
               Total              $627,524                 $598,391
                        Grant Number 2008-WF-AX-0044 – $628,938
       Law Enforcement             $141,511    25%                $0      0%
            Prosecution            $141,511    25%          $141,511      25%
               Courts               $28,302    5%                 $0      0%
   Non-Profit Organizations        $169,814    30%          $146,410      26%
            Discretionary           $84,907    15%          $159,874      28%
        Administrative              $62,893    N/A           $62,893      N/A
               Total              $628,938                 $510,688
                        Grant Number 2009-WF-AX-0050 – $632,395
       Law Enforcement             $142,288    25%                $0      0%
            Prosecution            $142,289    25%                $0      0%
               Courts               $28,458    5%                 $0      0%
   Non-Profit Organizations        $170,747    30%          $205,971      35%
            Discretionary           $85,373    15%           $88,092      15%
        Administrative              $63,240    N/A           $44,268      N/A
               Total              $632,395                 $338,331
  Source: The Law Enforcement Planning Commission


       For the 2007 grant, the LEPC did not allocate the required
5 percent to the courts. For the 2008 grant, as of July 2011 the LEPC
had not allocated the minimum 25 percent of the grant to law
enforcement and the minimum 5 percent of the grant to the courts.
LEPC officials told us that some of the funds from these two grants
were not used because there were not enough grant applications for
some categories of activities. For the 2009 grant, as of July 2011 the
LEPC had allocated only $338,331 of the $632,395 award, but none of
the allocated funds were for law enforcement, prosecution, or the
courts.


       37
          The LEPC did not allocate $29,133 of FY 2007 grant. The LEPC has until
November 30, 2011, to allocate the FY 2008 grant and until May 31, 2012, to allocate
the FY 2009 grant.

                                          41
       Also, in July 2011, the LEPC provided documentation showing
that it had recently allocated $217,682 of the $636,252 FY 2010 grant
to non-profit organizations. At that time, there were no funds
allocated to the government agencies.

       We discussed the lack of funding to the courts with the LEPC’s
OVW grants manager. She told us there were no awards to the courts
because the courts did not apply for funding. The LEPC reported this
in its FYs 2008 and 2009 annual grant program reports submitted to
the OVW. These reports discussed problem areas in the U.S. Virgin
Islands that needed to be addressed, such as sensitivity training for
judicial and court system personnel, probation officials, and law
enforcement personnel. The report states that at times these
personnel “minimized the seriousness and fatality of domestic
violence.” The report also states that judges lack an understanding of
the dynamics surrounding victims of domestic violence and training for
the court system.

       We asked a U.S. Virgin Islands court official why her office had
not applied for STOP grant funding. She could not answer our
question, but she promised to “get back to us.” We made several
attempts to reach her again and left messages, but she never returned
our calls. The new LEPC Director told us that he became aware of this
situation and that he had contacted the courts to discuss why they had
not applied for funding. As of August 2011, court officials had not
responded to his request for a meeting.

       We discussed LEPC’s allocation of STOP funds with an OVW
official. The official told us OVW had performed site visits to the
U.S. Virgin Islands and had concerns with how the STOP Program had
been implemented by the LEPC, including the lack of implementation
plans, lack of outreach to potential grant applicants, and failure to
comply with the required allocation of funds. An OVW official had also
reached out to the court, but a judge told her that he was not
interested in grants because the grants have an end date. The OVW
official explained to the judge that this is a formula grant program with
awards going to the Virgin Islands every year. However, U.S. Virgin
Islands court officials still have not applied for grant funds. The OVW
official also told us that OVW had deobligated funding from previous
years because those funds were not used and expects to deobligate
funds from current awards.

      In summary, the LEPC has no procedures in place to ensure that
it complies with the STOP program statutory requirement for allocating

                                   42
grant funds and has been slow in allocating grant funds and making
subawards. As discussed earlier in this report, we identified $606,317
in grant funds (13 grants) that were not used before the grants
expired. The LEPC also has not complied with statutory requirements
for allocating OVW grant funds to the courts. It appears that local
courts have not applied to the LEPC for funds aimed specifically at
addressing violence against women. However, a U.S. Virgin Islands
court official would not discuss this matter with us and would not
respond to the new LEPC Director’s request for a meeting to discuss
the issue. We recommend that the LEPC implements procedures to
ensure it meets the statutory requirements for allocating OVW grant
funds.

      In its role of advisor to the Governor, the LEPC should ensure
the Governor is aware that the Virgin Islands court system has not
made an attempt to seek grant funding aimed at reducing domestic
violence and holding offenders accountable. Improved communication
and coordination between government judicial system agencies would
enable the LEPC to maximize the use of DOJ funds to reduce domestic
violence.

Unauthorized Use of a Third-Party Fiduciary to Administer Subawards

       As discussed earlier, the LEPC used a third-party fiduciary, the
St. Croix Foundation to manage the finances for various LEPC-funded
projects. The St. Croix Foundation is a private non-profit organization
that acts as a fiscal agent for public and private non-profit entities
awarded funds from the LEPC and other government entities. 38 With
LEPC approval, the U.S. Virgin Islands Department of Finance
disburses subawarded funds directly to the St. Croix Foundation. In
turn, the St. Croix Foundation reimburses the subrecipients for their
program expenditures and submits subrecipients’ financial reports to
the LEPC. The St. Croix Foundation retains 7.5 percent of each LEPC
subaward as an administrative fee for providing these services.
According to its FY 2007 and 2009 Single Audit reports, the St. Croix
Foundation has the authority to redirect or deny the use of federal
funds. Giving such authority to the St. Croix Foundation increases the
risk that grant funds may be used for unallowable purposes. This
language does not appear in the written agreements between the
St. Croix Foundation and the subrecipients.


       38
           The St. Croix Foundation administers funds from the U.S. Department of
Justice, U.S. Department of Housing and Urban Development, U.S. Department of
Agriculture, the VI Department of Health, and the VI Police Department.

                                         43
      In May 2007 OJP conducted a monitoring site visit to the LEPC
and told the former LEPC Director to stop using a fiduciary to
administer grant funds and that the former LEPC Director needed to
consult with the Bureau of Justice Assistance. At the time of our audit,
the St. Croix Foundation was administering $690,353 in DOJ funds for
18 LEPC-funded projects. We discussed this with the former LEPC
Director who told us that OJP had not formally requested that he stop
using a fiduciary to administer grant funds. However, we obtained
documentation showing that in June 2007 OJP notified the former LEPC
Director in writing to stop using a third-party fiduciary. The letter
from OJP to the former LEPC Director is presented in Appendix 8.

       The former LEPC Director also told us that the St. Croix
Foundation was doing a “great job” helping subrecipients administer
their grant funds and was providing accurate and timely reports to the
LEPC. However, the St. Croix Foundation’s FY’s 2007, 2008, and 2009
Single Audit reports appear to contradict what the former LEPC
Director told us. In those audits, auditors identified serious
deficiencies in the St. Croix Foundation’s ability to adequately manage
federal programs. Some of the auditors’ findings were repeat
deficiencies from prior years. The St. Croix Foundation refers to
subrecipient projects funded through the LEPC as “fiscal sponsorship”
accounts. The auditor’s findings from those audits are explained in
Appendix 3.

      We selected a judgmental sample of seven LEPC-funded projects
administered by the St. Croix Foundation and tested whether the
St. Croix Foundation submitted subrecipients’ financial reports to the
LEPC when they were due and whether the expenditures the St. Croix
Foundation reimbursed for these projects were allowable, supported by
invoices or other documentation, and included in the grant budget
approved by the LEPC. We tested a total of $195,999 in grant funds
administered by the St. Croix Foundation.

      As shown in Exhibit 14, we found that $93,432 (48 percent of
the amount tested) in funds disbursed by the St. Croix Foundation was
either for unallowable costs ($7,305) or was not supported by
adequate documentation ($86,127).




                                  44
            Exhibit 14: Unallowable and Unsupported Costs for
             Projects Administered by the St. Croix Foundation
                                                                 AMOUNT      AMOUNT
                  PROJECT                     GRANT N UMBER
                                                               UNALLOWABLE UNSUPPORTED
Dembaya Arts Conservatory                    2008-DJ-BX-0055                    $3,848
Conflict Resolution Organization for Peace   2009-DJ-BX-1097      $2,455        $1,020
Cruzan Dance Company                         2009-DJ-BX-1097                   $20,908
Music in Motion                              2009-DJ-BX-1097      $2,850       $41,712
Stop the Bleeding Summit                     2009-DJ-BX-1097      $2,000
Per Ankh, Inc.                               2009-SG-B9-0119                   $18,639
                  Totals                                         $7,305        $86,127
Source: Law Enforcement Planning Commission and St. Croix Foundation records


      The $7,305 in unallowable costs include $2,455 for art work,
$2,000 for a music video, and $2,850 for consultant services, which
are unallowable costs according to the special conditions of the grant.
Details of the unsupported expenditures are presented in Appendix 6.

        We also found the following.

    •   23 of 24 financial reports we reviewed were not submitted to the
        LEPC by the due dates.

    •   A St. Croix Foundation employee prepared and approved five
        check requests. Not separating the duties of preparing and
        approving expenditures increases the risk that funds may be
        misused.

    •   The St. Croix Foundation made disbursements without the
        written authorization of the St. Croix Foundation’s fiscal officer,
        which is contrary to its internal policies.

      In summary, the St. Croix Foundation’s FYs 2007, 2008, and
2009 financial audit reports identified serious weaknesses in its ability
to administer federal funds. Using the St. Croix Foundation to
administer grant funds increases the risk that those funds could be
misspent. The LEPC manager for OJP’s Byrne JAG grant program told
us that subrecipients were not required to use the St. Croix Foundation
and that there were other third-party fiduciaries that could be used.
However, we noted that the LEPC encourages subrecipients to use the
St. Croix Foundation to administer their grant funds. The former LEPC
Director told us the LEPC encourages subrecipients to use the St. Croix
Foundation to administer their grant funds and he provided a copy of
the St. Croix Foundation “fiscal sponsorship” agreement form provided
to subrecipients. As discussed earlier, using a third-party fiduciary has

                                             45
resulted in excess administrative costs being charged to DOJ grant
funds and financial auditors found significant weaknesses in the St.
Croix Foundation’s ability to administer federal funds. We recommend
that OJP require the LEPC to stop using a third-party fiduciary to
administer DOJ grant funds.

Monitoring Subrecipients

      The OJP Financial Guide, Part III, Chapter 9, states that the
primary recipient of a grant is responsible for monitoring
subrecipients to ensure they fulfill all fiscal and programmatic
responsibilities. The primary recipient is responsible for all aspects of
the program including proper accounting and financial recordkeeping
by the subrecipient including accounting for receipts and expenditures,
cash management, maintaining adequate financial records, and the
refunding of expenditures disallowed by audits (OJP Guide, Part II,
Chapter 3). The primary recipient is also responsible for oversight of
subrecipient spending and monitoring outcomes and benefits
attributable to the use of Recovery Act funds by its subrecipients
(Part III, Chapter 20).

      Monitoring helps ensure that grant programs are implemented,
objectives are achieved, and grant funds are properly expended. OJP
requires that primary recipients monitor subawards throughout the life
of the grant to ensure that subrecipients: (1) comply with the
programmatic, administrative, and fiscal requirements of the relevant
statutes, regulations, policies, and guidelines; (2) carry out grant-
funded programs in a manner consistent with the relevant statutes,
regulations, policies, and guidelines of the program; (3) receive
guidance on policies and procedures, grant program requirements,
general federal regulations, and basic programmatic, administrative,
and financial reporting requirements; and (4) identify and resolve any
problems that may impede the effective implementation of grant
programs.

       LEPC program managers told us they review subrecipients’
monthly fiscal reports to ensure expenditures are allowable and
supported and conduct annual site visits to every subrecipient to
monitor the programmatic and fiscal aspects of the projects. However,
as discussed later, we found little evidence that the LEPC conducted
site visits and also found that the LEPC had reimbursed subrecipients
for unsupported and unallowable costs.



                                   46
      Monitoring Fiscal Requirements

      Each subrecipient receives a list of grant conditions and a
description of documentation that must be submitted to the LEPC to
support their grant expenditures and requests for reimbursements.
Required supporting documents include timesheets for personnel
costs, invoices, purchase orders, contracts, and copies of cancelled
checks. Subrecipients must submit these documents along with each
monthly fiscal report submitted to the LEPC. We performed testing of
expenditures incurred by subrecipients. The results of our testing are
discussed in the Grant Expenditures section of this report.

      We also reviewed the LEPC’s files for 14 subrecipients that
received funding from the FYs 2006 through 2009 OJP and OVW
grants, including Recovery Act grants. We determined the following.

  •   35 of 40 subrecipients’ financial reports were submitted to the
      LEPC from 1 to 199 days late.

  •   10 of 26 subrecipients did not comply with the sub-grant
      budgets approved by the LEPC.

      We discussed these issues with LEPC personnel and we were told
that the LEPC was understaffed. Only one person, the Fiscal Officer,
was responsible for drawing down grant funds from OJP, submitting
the required financial reports for each grant to OJP, and overseeing 75
subrecipients, including reviewing subrecipients’ monthly financial
reports and funding requests, tracking subrecipients’ fund balances,
and processing subrecipients’ payments. The LEPC needs to improve
its monitoring of subrecipients by ensuring all LEPC staff are
adequately trained and being used to administer DOJ grants.

Technical Assistance

       We also reviewed the LEPC’s grant monitoring files to determine
whether LEPC staff conducted annual site visits to assess
subrecipients’ progress toward meeting goals and objectives and to
provide any needed technical assistance. Only 7 of 18 subrecipient
files we examined included documentation showing LEPC staff
conducted these site visits and only one of those 18 subrecipients
received technical assistance from the LEPC. Officials from two of the
LEPC’s subrecipients told us they requested, but did not receive,
technical assistance from the LEPC. We conclude that the LEPC did not
adequately monitor and provide technical assistance to subrecipients

                                  47
to ensure they met grant program requirements and achieved grant
goals. LEPC officials told us they did not have sufficient staff to
properly manage the grants.

      In August 2011 we discussed the staff level and training with the
new LEPC Director. He told us that the LEPC does have a sufficient
number of staff and existing staff are not properly trained to
administer the DOJ grants. He also told us that the LEPC needs to hire
at least one more person and that the Director of Financial
Management Services will receive training at the beginning of FY 2012.

Reporting

      According to the OJP Financial Guide, Part III, Chapter 11, grant
recipients are required to submit timely and accurate financial and
grant progress reports to OJP. Before October 2009, the LEPC was
required to submit quarterly Financial Status Reports to OJP within 45
days after the end of each quarter. Beginning October 1, 2009, the
Federal Financial Report (FFR) replaced the Financial Status Report.
FFRs are due 30 days after the end of each calendar quarter. A final
financial report is due 90 days after the end of the grant period.

      Grant recipients are also required to submit grant performance
(progress) reports annually unless the awarding agency requires
quarterly or semi-annual reports. These reports present information
relevant to the performance of the grant program or projects. Grant
programs have different due dates for periodic and final grant progress
reports.

      For Recovery Act grants, grant recipients are also required to
report quarterly to FederalReporting.gov their grant expenditures and
the number of jobs created or saved. These reports are due within 10
days after the end of each calendar quarter.

Financial Reports

      Timeliness

      We selected six grants awarded by OJP and two grants awarded
by the OVW and tested whether the financial reports for the two most
recent reporting periods, 16 reports in all, were submitted by the dates
they were due. We found that 8 of the 16 financial reports we tested
were submitted from 13 to 28 days late. Our test results are shown in
Exhibit 15.

                                  48
        Exhibit 15: Financial Reports the LEPC Submitted Late
                                                         R EPORT
   GRANTING                                 QUARTER                  DATE      DAYS
                     GRANT N UMBER                         DUE
    AGENCY                                  ENDING                 SUBMITTED   LATE
                                                          DATE
               2008-DJ-BX-0055 (BJA)        06/30/10    07/30/10   08/27/10     28
               2009-DJ-BX-1097 (BJA)        06/30/10    07/30/10   08/12/10     13
               2008-VA-GX-0030 (OVC)        06/30/10    07/30/10   08/20/10     21
      OJP
               2009-VA-GX-0044 (OVC)        06/30/10    07/30/10   08/12/10     13
               2008-AH-FX-0065 (OJJDP)      06/30/10    07/30/10   08/25/10     26
               2009-AH-FX-0092 (OJJDP)      06/30/10    07/30/10   08/25/10     26
               2008-WF-AX-0044              06/30/10    07/30/10   08/25/10     26
     OVW
               2009-WF-AX-0050               06/30/10   07/30/10   08/12/10     13
  Source: Office of Justice Programs records


      We examined the Office of Justice Programs’ records to
determine the extent of the LEPC’s late FFRs and the effect that late
reporting had on the administration of funds. According to those
records, OJP froze the LEPC’s grant funds 45 times between August
2008 and April 2011 because of delinquent financial reporting.

      LEPC staff told us reports were submitted late because the
LEPC’s Director of Financial Management Services did not submit the
reports when they were due. When reports are not submitted on time,
OJP and OVW cannot assess the progress of the grants.

      Accuracy

      The LEPC also did not have controls in place to ensure that FFRs
submitted to OJP and OVW were accurate. For the same 8 grants
tested for timeliness of reports, we tested whether the 16 FFRs were
accurate. We compared the expenditures recorded in the U.S. Virgin
Islands accounting records to the expenditures reported in the FFRs
submitted to OJP.

      As shown in Exhibit 16, 14 of 16 FFRs we tested did not agree
with the expenditures recorded in the U.S. Virgin Islands accounting
records.




                                          49
        Exhibit 16: Accuracy of Federal Financial Reports (FFRs)
                                                EXPENSES
                                               ACCORDING     EXPENSES
GRANTING       GRANT N UMBER       Q UARTER
                                                 TO THE      R EPORTED   DIFFERENCE
 AGENCY         (PROGRAM)           ENDED
                                              ACCOUNTING      IN FFR S
                                                R ECORDS
                                    03/31/10     $352,147           $0     $352,147
          2009-DJ-BX-1097 (BJA)
                                    06/30/10     $220,521     $727,800   ($507,279)
                                    03/31/10            $0          $0            $0
          2008-DJ-BX-0055 (BJA)
                                    06/30/10            $0    $144,775   ($144,775)
                                    03/31/10       $58,326          $0       $58,326
          2009-VA-GX-0044 (OVC)
                                    06/30/10       $76,608    $202,936   ($126,328)
  OJP
                                    03/31/10     $115,481           $0     $115,481
          2008-VA-GX-0030 (OVC)
                                    06/30/10       $24,586    $201,868   ($177,282)
          2009-AH-FX-0092           03/31/10            $0          $0            $0
          (OJJDP)                   06/30/10        $1,876          $0        $1,876
          2008-AH-FX-0065           03/31/10        $8,102          $0        $8,102
          (OJJDP)                   06/30/10       $10,268     $15,458      ($5,190)
                                    03/31/10     $115,062           $0     $115,062
          2009-WF-AX-0050
                                    06/30/10       $18,222    $167,611   ($149,389)
  OVW
                                    03/31/10       $11,124          $0       $11,124
          2008-WF-AX-0044
                                    06/30/10       $20,287    $284,414    (264,127)
Source: The Law Enforcement Planning Commission


      According to LEPC officials, subrecipients often receive grant
funds in advance of grant costs. The Department of Finance records
the advance payments to subrecipients as grant expenditures, but
those expenditures are not reported by the LEPC in the FFRs.
Consequently, there is a difference between grant expenditures
recorded in the U.S. Virgin Islands accounting records and those
reported to OJP. The expenditures incurred by the subrecipients are
eventually reported to LEPC through monthly financial reports that
they submit to the LEPC, which the LEPC then reports to OJP.

       We found that the LEPC and the Department of Finance did not
reconcile and had no procedures for reconciling the differences
between the U.S. Virgin Islands accounting records and subrecipients’
monthly financial reports. The LEPC used subrecipients’ financial
reports to prepare FFRs submitted to OJP. LEPC officials told us that
they did not have sufficient staff to ensure that FFRs accurately
reflected the financial status of each grant. Consequently, OJP and
OVW were provided incorrect financial information on these grants.

       In August 2011, the new LEPC Director told us that he was in the
process of developing new policies for administering DOJ grants. The
policies include implementation of reconciliations to ensure that
accurate financial information is reported to OJP and OVW.



                                         50
      We recommend that OJP and OVW ensure the LEPC implements
procedures to reconcile grant expenditures reported in the accounting
records to those reported in subrecipients’ monthly financial reports
and in FFRs the LEPC submits to OJP.

Grant Progress Reports

      We also tested whether Categorical Assistance Progress Reports
(grant progress reports) were submitted when due. The due dates for
grant progress reports vary depending on the type of grant and the
year the grant was awarded. Most grants require an annual progress
report. Progress Reports for some grants must be submitted twice a
year. Grant reporting requirements are outlined in the OJP Financial
Guide.

      We tested eight grants to determine whether the progress
reports were submitted by the due dates. The results of our testing
are shown in Exhibit 17.

           Exhibit 17: Timeliness of Grant Progress Reports
   GRANTING                                PERIOD     R EPORT     DATE       DAYS
                    GRANT N UMBER
    AGENCY                                 ENDING    DUE DATE   SUBMITTED    LATE
              2008-DJ-BX-0055 (BJA)       12/31/09   03/31/10    02/17/10      0
              2009-DJ-BX-1097 (BJA)       09/30/10   11/29/10    11/24/10      0
              2008-VA-GX-0030 (OVC)       09/30/08   12/30/08    01/14/09      15
              2009-VA-GX-0044 (OVC)       09/30/09   12/30/09    12/30/09      0
     OJP
                                          12/31/09   01/30/10    01/28/10      0
              2009-AH-FX-0092 (OJJDP)
                                          06/30/10   07/30/10    07/21/10      0
                                          12/31/08   01/30/09    02/24/09      25
              2008-AH-FX-0065 (OJJDP)
                                          06/30/10   07/30/10    07/21/10      0
              2008-WF-AX-0044 (OVW)       12/31/08   03/30/09    07/20/09     112
     OVW
             2009-WF-AX-0050 (OVW)       12/31/09 03/30/10       03/26/10       0
  Source: The Law Enforcement Planning Commission and the Office of Justice Programs


       As shown above, 3 of the 10 reports we reviewed were
submitted from 15 to 112 days late. We asked LEPC officials why
these reports were submitted late and we were told that the LEPC has
been understaffed for many years. As discussed earlier in the
Financial Reports section, OJP froze the LEPC’s grant funds 45 times
because of late reporting and failure to take corrective action on
deficiencies OJP staff identified during site visits to the LEPC.




                                         51
Quarterly Recovery Act Reports

        The Recovery Act, Section 1512, requires recipients of Recovery
Act funds to report quarterly to FederalReporting.gov on how they
spent the grant funds and the number of jobs created or saved. The
initial report was due October 10, 2009, with quarterly reports due
10 days after the close of each calendar quarter thereafter. 39

      The LEPC received two Recovery Act grants from OJP and one
Recovery Act grant from the OVW. We reviewed the Recovery Act
reports for these three grants for the quarters ended December 2009,
March 2010, and June 2010, and found that these reports were
generally submitted by the dates they were due. We also tested
whether the grant drawdowns, expenditures, and job data in the
Recovery Act reports agreed with the LEPC’s accounting and other
records. The results of our testing of Recovery Act reports are
presented in Exhibits 18 and 19.

 Exhibit 18: Accuracy of Quarterly Recovery Act Financial Reporting
  GRANTING          AREA         QUARTER      R EPORTED      ACTUAL     ACCURATE
   AGENCY        R EPORTED        ENDED     (CUMULATIVE ) (CUMULATIVE ) (YES/N O)
                   Byrne JAG Program Recovery Act Grant 2009-SU-B9-0059
                                 12/31/09        $24,597 $4,972,500   No
               Drawdowns         03/31/10     $4,972,500 $4,972,500   Yes
                                 06/30/10     $4,972,500 $4,972,500   Yes
                                 12/31/09        $24,597     $4,136   No
              Disbursements      03/31/10        $48,756    $62,263   No
                                 06/30/10       $719,291   $787,429   No
    OJP               VOCA Program Recovery Act Grant 2009-SG-B9-0119
                                 12/31/09             $0   $345,350   No
                Drawdowns        03/31/10       $411,500   $411,500   Yes
                                 06/30/10       $411,500   $411,500   Yes
                                 12/31/09             $0         $0   Yes
              Disbursements      03/31/10        $53,702   $134,304   No
                                 06/30/10        $53,702   $194,315   No
                      STOP Program Recovery Act Grant 2009-EF-S6-0056
                                 12/31/09             $0    $44,687   No
               Drawdowns         03/31/10       $147,662   $192,349   No
   OVW                           06/30/10       $638,390   $192,349   No
                                 12/31/09             $0         $0   Yes
              Disbursements      03/31/10             $0         $0   Yes
                                 06/30/10             $0    $80,296   No
Source: The Law Enforcement Planning Commission



      39
         The due date for the quarter ended December 31, 2009, was extended from
January 10, 2010, to January 15, 2010. The due date for the quarter ended June 30,
2010, was extended from July 10, 2010, to July 14, 2010.

                                       52
      As shown above, all nine Recovery Act reports we reviewed
contained an error in either the drawdowns or the disbursements
reported to FederalReporting.gov. LEPC staff told us the discrepancies
were the result of a lack of coordination within the agency. As a
result, OJP was provided incorrect information about the status of
these grants.

      According to OMB Memorandum 10-08, December 18, 2009,
recipients of Recovery Act grants should use the following formula to
calculate the number of full-time equivalent (FTE) jobs created or
saved as a result of Recovery Act funding.

Total Number of Hours Worked               Quarterly Hours
and Funded with Recovery Act funds   ÷     in a Full-time                 = FTEs
During the Reporting Quarter               Schedule


      We also reviewed Recovery Act reports to determine if the LEPC
accurately reported the number of jobs created or saved. To
accomplish this we compared data in the reports to supporting
documentation provided by the LEPC. Exhibit 19 shows the results of
our testing.

            Exhibit 19: Jobs Created with Recovery Act Funds
                         (Reported versus Actual)
                                                 R EPORTED    ACTUAL
    GRANTING                             QUARTER
                    GRANT N UMBER                N UMBER OF N UMBER OF VARIANCE
     AGENCY                               ENDED
                                                    J OBS      J OBS
                                         12/31/09       .62        1.65      (1.03)
                   2009-SU-B9-0059
                        (BJA)            03/31/10      3.02        3.57       (.55)
                                         06/30/10      6.22        8.41      (2.19)
      OJP
                                         12/31/09            0     1.98      (1.98)
                   2009-SG-B9-0119
                       (VOCA)            03/31/10      3.35        2.35        1.00
                                         06/30/10      6.54        2.86        3.68
                                         12/31/09            0       0              0
      OVW          2009-EF-S6-0056       03/31/10            0       0              0
                       (VAWA)
                                        06/30/10       2.15        1.44            .71
  Source: The Law Enforcement Planning Commission and FederalReporting.gov

      As shown above, for 7 of 9 Recovery Act reports we reviewed,
the job data the LEPC reported to FederalReporting.gov was incorrect.
LEPC officials told us that the discrepancies resulted from the
subrecipients’ use of improper methodology that led to inaccurate
reporting. Overall, the LEPC slightly underreported to the federal
government, the number of jobs created with Recovery Act funds.
Subsequent to our audit site work, an LEPC program manager told us
that the LEPC had taken steps to improve the accuracy of Recovery Act

                                          53
reporting by reconciling the information provided by subrecipients to
supporting records. We did not assess these steps.

Grant Goals and Accomplishments

       Grant goals and accomplishments should be based on
measureable outcomes rather than on counting activities. The
Government Performance and Results Act provides a framework for
setting goals, measuring progress, and using data to improve
performance. To measure performance, grant fund recipients must
establish measureable goals, a performance baseline, and a system for
collecting and analyzing data needed to measure progress. For
example, a goal to reduce juvenile crime by 10 percent each year
would require the grant recipient to establish the current rate of
juvenile crime, which is the baseline, review records pertaining to
juvenile crimes, and assess whether the 10 percent reduction has been
achieved.

      LEPC officials told us they use the programmatic reports
submitted to them by subrecipients to evaluate grant program
performance and accomplishments. The LEPC reports this information
to OJP.

      We sought to evaluate grant goals and accomplishments for
OJP’s Byrne JAG grants awarded to the LEPC for FYs 2006, 2008, and
2009. 40 We selected these grants for testing because the Byrne JAG
program is the primary source of funds for law enforcement purposes.
The Byrne JAG program permits state administering agencies, tribes,
and local units of government to support a broad range of activities
based on their own local needs and conditions.

      We reviewed the grant progress reports the LEPC submitted to
OJP for these grants, but those reports provided little information
about the status of completion of grant projects or whether the grants
achieved, or were making progress at achieving, grant goals and
objectives. Consequently, we could not determine the outcomes of the
projects funded by the Byrne JAG grants we tested. We observed that
on at least three different occasions (July 2008, May 2009, and April
2011) OJP requested that the LEPC provide more details about the
goals and objectives of its various grant-funded projects. However,
we found no evidence that the LEPC provided these additional details.

      40
          The BJA did not award a Byrne JAG grant in FY 2007 because the LEPC did
not apply for the grant.

                                        54
      In August 2010, the U.S. Virgin Islands Legislature also
questioned how the LEPC had used grant funds. In a Virgin Islands
Senate Appropriations Budget Committee hearing, a Senator
questioned the former LEPC Director, who was also the Drug Policy
Advisor, about the effectiveness of funds spent on crime given the rate
of crime in the territory, and “why more is not being done to put the
money to good use.”

      The crime rate in the U.S. Virgin Islands has been highlighted in
the local media. According to U.S. Virgin Islands government sources,
the homicide rate in the U.S. Virgin Islands has increased steadily for
several years. In 2009, the U.S. Virgin Islands had 56 homicides per
100,000 people compared to the U.S. mainland rate of 5 homicides per
100,000 people. Although the former LEPC director allocated 86
percent of the FYs 2006, 2008, and 2009 Byrne JAG grant funds to
non-profit organizations for “crime prevention” programs, it is not
clear whether these programs helped prevent crime in the U.S. Virgin
Islands.

      When the LEPC received the 2009 Byrne JAG Recovery Act grant,
the Governor directed that those funds be allocated to three
U.S. Virgin Islands government organizations – the Police Department,
the Bureau of Corrections, and the Department of Justice. These
organizations planned to use the funds to improve prison programs,
increase crime investigations and prosecution success rates, upgrade
crime technology systems, and train crime prevention and prosecution
personnel.

       In summary, the LEPC did not assess and did not have
procedures to assess whether subrecipients were meeting the goals
and objectives of the grants. The LEPC needs to implement a process
for identifying measurable grant goals and objectives, determine the
outcomes of subrecipients’ projects, and ensure that subrecipients’
funds are used to prevent and control crime, improve the criminal and
juvenile justice system, increase knowledge about crime and related
issues, and assist crime victims.

      We discussed this with the new LEPC Director and he concurred
that there was not an adequate process in place to determine the
accomplishment of goals and outcomes of programs. He told us that
he plans to establish procedures to evaluate program accomplishments
and outcomes.


                                  55
Conclusion

      The control environment resulted in LEPC’s non-compliance with
laws, regulations, guidelines, and terms and conditions of the grants.
The LEPC did not have adequate policies, procedures, and staff with
the training and experience to ensure it complied with the
requirements of the grants and achieved grant goals and objectives.
We found weaknesses in the areas of cash management, grant
expenditures, property management, management of subrecipients,
and financial and programmatic reporting. Specifically, we found that
the LEPC:

  •   could not account for $972,976 in grant funds drawn down;

  •   did not establish a separate bank account for the non-Recovery
      Act Byrne JAG grants and commingled other DOJ funds with
      funds from other sources;

  •   charged $160,546 in excess administrative costs to some grants;

  •   did not use $606,317 in grant funds from some grants before
      those grants expired;

  •   did not identify and report interest income earned on Byrne JAG
      Recovery Act grant funds and ensure the additional funds were
      used for grant purposes;

  •   spent grant funds for unallowable purposes;

  •   did not have adequate controls to track the use of prepaid airline
      tickets for intra-island flights, which resulted in some tickets
      having expired before they were used;

  •   did not have an adequate system for soliciting and making
      subawards;

  •   did not adequately monitor subrecipients to ensure they met the
      fiscal and programmatic requirements of the grants;

  •   used a third-party fiduciary to administer the finances for some
      subrecipients after OJP told the LEPC to stop doing so and failed
      to identify unsupported and unallowable costs administered by
      the third-party fiduciary;


                                  56
  •   submitted financial reports late to OJP;

  •   submitted inaccurate Recovery Act reports to
      FederalReporting.gov;

  •   did not allocate grant funds in accordance with grant
      requirements for the 2007, 2008, and 2009 OVW grants; and

  •   did not assess and had not procedures to assess whether
      subrecipients were meeting the goals and objectives of the
      grants.

      As result of these weaknesses, we question $2,173,159 in grant
funds the LEPC received as either unallowable or unsupported. Of
these funds, $1,325,606 is from grants awarded by OJP and $847,553
is from grants awarded by the OVW. To address these weaknesses we
make 25 recommendations, of which 14 recommendations are
designed to improve the management of grants.




                                   57
Recommendations 41

We recommend that OJP and OVW:

1.   Ensure the LEPC has adequate staff with the training and
     experience to administer the grants. [MI]

2.   Ensure the LEPC implements procedures to time its drawdown
     requests to ensure that, when required, federal cash-on-hand is
     the minimum needed for disbursements to be made immediately
     or within 10 days. [MI]

3.   Ensure the LEPC implements procedures to reconcile grant funds
     drawn down to the expenditures recorded in the U.S. Virgin
     Islands accounting records and the expenditures reported by
     subrecipients and follow up on any differences. [MI]

4.   Ensure the LEPC implements a system for tracking the use of any
     prepaid goods and services. [MI]

5.   Ensure the LEPC implements a grant solicitation and awards
     process that ensures fair and open competition for grant funds.
     [MI]

6.   Ensure the LEPC implements procedures to ensure financial and
     grant progress reports are accurate and submitted when due. [MI]

7.   Ensure the LEPC implements procedures to ensure it submits
     accurate Recovery Act reports. [MI]

8.   Ensure the LEPC implements procedures requiring subrecipients to
     identify, track, and report on the progress towards achieving
     measureable grant goals and objectives. [MI]

We also recommend that OJP:

9.   Ensure that DOJ grant funds are not commingled with funds from
     other sources. [MI]


      41
         Recommendations are classified as management improvement
recommendations [MI], recommendations to remedy questioned costs that were not
supported by adequate documentation [QC-Unsupported], recommendations to
remedy questioned costs that are unallowable [QC-Unallowable], and
recommendations related to funds that could be put to better use [FBU].

                                      58
10. Remedy the $600,542 in grant fund drawdowns that are
    unaccounted for. [QC-Unsupported]

11. Ensure that the LEPC: (a) establishes a bank account to deposit
    all funds drawn down from DOJ grants only; (b) implements
    appropriate accounting procedures to separately track grant fund
    balances; and (c) periodically reconciles each grant balance to the
    bank account. [MI]

12. Deobligate and put to better use $134,261 in grant funds for OJP
    grants that have expired. [FBU]

13. Ensure the LEPC establishes procedures to identify income from
    grant funds and programs and ensure the funds are used for grant
    purposes. [MI]

14. Ensure the LEPC allocates the $43,503 in interest earned on the
    FY 2009 Byrne JAG Recovery Act funds and uses the funds for
    grant purposes or returns the funds to the DOJ. [FBU]

15. Remedy the $160,546 in excess administrative costs charged to
    the grants. [QC-Unallowable]

16. Remedy $286,533 in unsupported costs associated with
    subawards administered by the LEPC. [QC-Unsupported]

17. Remedy $6,789 in unallowable costs associated with subawards
    administered by the LEPC. [QC-Unallowable]

18. Ensure the LEPC implements procedures to ensure it only
    reimburses subrecipients for costs that are allowable and
    supported by adequate documentation such as timesheets for
    personnel costs, invoices, purchase orders, contracts, and
    receipts. [MI]

19. Remedy $86,127 in unsupported costs associated with subawards
    administered by the St. Croix Foundation, a third-party fiduciary.
    [QC-Unsupported]

20. Remedy $7,305 in unallowable costs associated with subawards
    administered by the St. Croix Foundation, a third-party fiduciary.
    [QC-Unallowable]



                                  59
21. Require the LEPC to stop using the St. Croix Foundation or any
    other third-party fiduciary, to administer DOJ grant funds. [MI]

We also recommend that OVW:

22. Remedy the $372,434 in OVW grant fund drawdowns that are
    unaccounted for. [QC-Unsupported]

23. Deobligate $472,056 in OVW grant funds that have expired. [FBU]

24. Remedy $3,063 in OVW grant funds spent on airline tickets for
    inter-island travel, which expired without being used. [QC-
    Unallowable]

25. Ensure the LEPC implements procedures to ensure it complies with
    STOP grant fund allocation requirements. [MI]




                                  60
                                                                APPENDIX 1

                  Objectives, Scope, and Methodology

       The purpose of this audit was to assess the Law Enforcement
Planning Commission’s (LEPC) administration of Department of Justice
(DOJ) grants including its process for soliciting and making subawards
and whether the LEPC and subrecipients’ reimbursements claimed for
costs under the grant were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant, and to determine program performance and accomplishments. The
objective of our audit was to review performance in the following areas:
(1) internal controls; (2) grant fund drawdowns; (3) income generated
from grant funds and programs; (4) grant expenditures;
(5) management of property items bought with grant funds;
(6) management of subrecipients, including the process for soliciting
applications for funding and making subawards and monitoring of
subrecipients; (7) financial, grant progress, and Recovery Act reports;
and (8) grant goals and accomplishments.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered grant awards made to the LEPC under the
Edward Byrne Memorial Justice Assistance Program (Byrne JAG), STOP
Violence Against Women (STOP), Victims of Crime Act (VOCA), and Juvenile
Justice and Delinquency Prevention programs (OJJDP). The grants were
awarded from FY 2006 through FY 2010, including three Recovery Act grants
awarded under the Byrne JAG, STOP, and VOCA programs. We also
performed limited testing of FY 2007 grant awarded by the Bureau of Justice
Statistics’ National Criminal History Improvement Program. We tested
compliance with what we consider to be the most important conditions of the
grants. Unless otherwise stated in our report, the criteria we audit against
are contained in the Office of Justice Programs Financial Guide, Office of
Management and Budget Circulars, the Recovery Act, and grant award
documents.

      In conducting our audit, we performed sample testing in drawdowns;
grant expenditures, including personnel and other expenditures; financial
reports; property management; management of subrecipients; grant

                                     61
progress reports; and program performance and accomplishments. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the grants reviewed, such as dollar amounts, grant
program, or expenditure category. We used judgmental sampling for the
grants we tested. This non-statistical sample design does not allow us to
project the results of our testing to the universe from which the samples
were selected.

      In addition, we reviewed the timeliness and accuracy of FFRs, grant
Progress Reports, and Recovery Act reports; evaluated the LEPC’s
management and monitoring of subrecipients; and evaluated the LEPC’s
program accomplishments. However, we did not assess the reliability of the
financial management system as a whole.




                                    62
                                                                   APPENDIX 2

                      Schedule of Dollar-Related Findings

                  Description                                  Amount        Page
Unallowable Costs
OJP Grants
2008-DJ-BX-0055 (BJA) - Excess Administrative Costs               $23,804     26
2006-DJ-BX-0093 (BJA) - Excess Administrative Costs               $54,307     26
2008-VA-GX-0030 (OVC) - Excess Administrative Costs               $48,039     26
2007-VA-GX-0031 (OVC) - Excess Administrative Costs                $2,167     26
2008-AH-FX-0065 (OJJDP) - Excess Administrative Costs             $32,229     26
                                                    Subtotal    $160,546
2008-DJ-BX-0055 (BJA) - Subrecipient Expenditures                  $6,789     27
2009-DJ-BX-1097 (BJA) - Subrecipient Expenditures                  $7,305     46
                                                    Subtotal     $14,094
OVW Grants
2007-WF-AX-0053 – Expired Airline Tickets                          $3,063     25
                                                    Subtotal      $3,063
Total Unallowable Costs                                         $177,703
Unsupported Costs
OJP Grants
2006-DJ-BX-0093 (BJA) - Unaccounted for Funds                     $40,919     20
2006-VA-GX-0051 (OVC) - Unaccounted for Funds                    $282,119     20
2006-JB-FX-0041 (OJJDP) - Unaccounted for Funds                   $67,945     20
2006-JP-FX-0043 (OJJDP) - Unaccounted for Funds                   $14,998     20
2006-JF-FX-0060 (OJJDP) - Unaccounted for Funds                      $503     20
2007-JB-FX-0076 (OJJDP) - Unaccounted for Funds                    $3,811     20
2007-VA-GX-0031 (OVC) - Unaccounted for Funds                    $129,701     20
2007-JP-FX-0023 (OJJDP) - Unaccounted for Funds                   $25,075     20
2007-RU-BX-K012 (BJS) - Unaccounted for Funds                     $35,471     20
                                                    Subtotal    $600,542
2008-DJ-BX-0055 (BJA) - Subrecipient Expenditures                 $50,384     46
2008-DJ-BX-0055 (BJA) - Subrecipient Expenditures                  $3,848     46
2008-VA-GX-0030 (OVC) - Subrecipient Expenditures                $180,326     26
2006-DJ-BX-0093 (BJA) - Subrecipient Expenditures                 $39,906     26
2009-DJ-BX-1097 (BJA) - Subrecipient Expenditures                 $63,640     45
2009-SG-B9-0119 (OVC) - Subrecipient Expenditures                 $18,639     45
2009-SG-B9-0119 (OVC) - Subrecipient Expenditures                 $15,917     26
                                                    Subtotal    $372,660
OVW Grants
2006-WF-AX-0019 - Unaccounted for Funds                           $372,434    20
                                                    Subtotal     $372,434
Total Unsupported Costs                                        $1,345,636



                                         63
Funds to Better Use
OJP Grants
2007-JB-FX-0076 (OJJDP) - Funds Not Drawn Down                   $28,436   23
2007-JF-FX-0063 (OJJDP) - Funds Not Drawn Down                   $80,000   23
2008-AH-FX-0065 (OJJDP) - Funds Not Drawn Down                    $5,445   23
2008-JP-FX-0061 (OJJDP) - Funds Not Drawn Down                   $12,099   23
2006-JB-FX-0041 (OJJDP) – Funds Not Drawn Down                    $5,160   23
2006-JF-FX-0076 (OJJDP) – Funds Not Drawn Down                    $3,121   23
                                                   Subtotal    $134,261
2009-SU-B9-0059 ( BJA) - Unreported Interest on Grant funds      $43,503   23
                                                   Subtotal     $43,503
OVW Grants
2006-WF-AX-0019 - Funds Not Drawn Down                          $190,431   23
2007-WF-AX-0053 - Funds Not Drawn Down                          $281,625   23
                                                   Subtotal    $472,056
Total Funds to Put to Better Use                               $649,820

    OJP Dollar-Related Findings                               $1,325,606
    OVW Dollar-Related Findings                                 $847,553
    Total Dollar-Related Findings                             $2,173,159




                                        64
                                                              APPENDIX 3

              Single Audits of the St. Croix Foundation

•   Auditors found that total funds in the fiscal sponsorship cash account
    exceeded the balances of the individual fiscal sponsorship accounts.
    This finding was in the 2007, 2008, and 2009 audit reports. In its
    response to the 2007 audit report, the St. Croix Foundation stated that
    it would ensure individual funds are reconciled to the cash account.
    One of the primary causes for discrepancies between the cash
    accounts and the accounting records is that the St. Croix Foundation
    earned interest on cash balances that was not allocated to the
    individual fiscal sponsorship accounts. Interest earned on federal
    funds must be accounted for, reported on financial reports submitted
    to OJP, and may only be spent for allowable program purposes.

•   Auditors found that 2 (5 percent) of 40 financial reports the St. Croix
    Foundation submitted to the LEPC did not agree with the St. Croix
    Foundation’s accounting records. This finding was in the 2007 audit
    report. In its response to the 2007 audit report, the St. Croix
    Foundation stated that it would ensure that monthly reports match the
    general ledger.

•   Auditors found that 17 (22.9 percent) of 74 cash disbursements tested
    were incorrectly recorded in the St. Croix Foundation’s accounting
    records. Consequently, the St. Croix Foundation prepared and
    submitted incorrect financial reports to the LEPC. This finding was in
    the 2007 audit report. In its response to the 2007 audit report, the
    St. Croix Foundation stated that it would ensure all transactions are
    reviewed by the fiscal officer and correctly posted to the general ledger
    to the best of their judgment.

•   Auditors found that 29 (72.5 percent) of 40 subrecipient financial
    reports submitted to the LEPC were submitted from 1 to 5 days late.
    This finding was reported in the 2007 audit. In its response to the
    2007 audit, the St. Croix Foundation stated that sending reports to the
    LEPC by the 5th day of each month is unrealistic and it has taken steps
    to ask the LEPC to extend the due date for these reports to the tenth
    day of each month. At the time of our audit, the LEPC had not
    changed its reporting requirements.

•   Auditors found that the St. Croix Foundation reimbursed subrecipients
    for expenses that were not in the grant budget approved by the LEPC.
    After the St. Croix Foundation disbursed the funds, it sought the

                                    65
      LEPC’s approval for a budget adjustment. This finding was reported in
      the 2007 audit. In its response to the 2007 audit, the St. Croix
      Foundation stated that it would take the necessary steps to correct
      this deficiency.

  •   Auditors found that 10 (13.5 percent) of 74 cash disbursements tested
      pertaining to programs funded through the LEPC did not have proper
      documentation. This finding was reported in the 2007 audit. In its
      response to the 2007 audit, the St. Croix Foundation stated that it
      would ensure that all check requests are supported with valid and
      appropriate documentation before being approved. However, in the
      2008 and 2009 audit reports, auditors reported similar findings for
      other programs.

       As discussed earlier in the Management of Subrecipients section of
this report, we selected a judgmental sample of seven LEPC-funded projects
administered by the St. Croix Foundation and tested whether the St. Croix
Foundation submitted the required financial reports to the LEPC when due.
We also tested whether expenditures the St. Croix Foundation reimbursed to
subrecipients for their project costs were allowable and supported by
timesheets, invoices, or other documentation. We identified serious
deficiencies with the St. Croix Foundation’s ability to administer funds. As
discussed previously in this report, we tested $195,999 in grant funds
administered by the St. Croix Foundation and found that $93,432 (48
percent) was spent for unallowable costs ($7,305) or was not supported by
adequate documentation ($86,127).




                                    66
                                                                   APPENDIX 4

                            OJP Site Visit Reports

      OJP Site Visit, May 2007

      In May 2007, OJP conducted a site visit to the LEPC and found that the
LEPC needed to improve its management of grants. OJP’s findings,
recommendations, and the status of the LEPC’s corrective actions are
discussed below.

   • OJP found that the LEPC kept a file for each subrecipient but the files
     lacked documentation such as site visit monitoring reports. OJP
     recommended that the LEPC ensure that grant monitoring files include
     these documents.

      We reviewed the files for 18 subrecipients and found that 11
      subrecipients’ files did not contain site visit reports indicating that the
      LEPC monitored the subrecipients. We also reviewed 26 financial
      reports subrecipients submitted to the LEPC and found 22 files where
      the LEPC failed to identify subrecipients’ lack of compliance with grant
      conditions.

   • OJP found that the LEPC charged $53,698 to Byrne JAG funds for
     airline ticket vouchers to be used as needed, but the LEPC did not
     keep a ledger showing the dates the tickets were used, who traveled,
     and the purpose of the trip. The LEPC could not provide
     documentation showing how the tickets were used. OJP requested
     that the LEPC return the $53,698 to the DOJ. The LEPC returned
     $6,100, but the remaining balance of $47,598 was referred to the
     U.S Department of the Treasury for collection.

  •   The LEPC spent Byrne JAG funds to purchase two vehicles for official
      use, but appeared to be using the vehicles for purposes not related to
      the grants and did not keep a vehicle usage log. One vehicle was
      driven home every night because of “vandalism at the LEPC parking
      area.” OJP recommended that the LEPC maintain a log for vehicle
      usage and gas and ensure that vehicles bought with grant funds are
      only used for grant related purposes.

  •   OJP officials told the former LEPC Director to ensure that grant funds
      are not used for food, which was a line item in the budget for one
      subrecipient (Solutions Improvisation – The Village).


                                       67
   •   OJP officials told the former LEPC Director to ensure that its employees
       complete time and attendance records.

The status of these findings and recommendations as of August 2011 are
shown below.

   •   The LEPC made additional advance purchases of airline tickets in 2009
       and 2010. Some of those tickets expired without being used.

   •   As of August 2011 there had not been any collection by the
       U.S. Department of the Treasury.

   •   The LEPC implemented a log to track the use of prepaid airline tickets,
       but the log was not maintained.

   •   The LEPC maintained a vehicle usage log.

   •   LEPC employees generally completed time and attendance records.

   •   In September 2009 a subrecipient (Solutions Improvisation – The
       Village), spent $633 at a resort hotel beach bar. The former LEPC
       Director approved the reimbursement of these costs.

       OJP Correspondence Pertaining to the Virgin Islands’ Administration of
       Block and Formula Grants (not dated)

       In 2008 an OJP program manager sent a letter to senior OJP officials
about ongoing problems with the LEPC’s administration of Office of Juvenile
Justice and Delinquency Prevention (OJJDP) grants. 42 The letter stated that
the LEPC’s OJJDP program manager was relatively new to the duties and
seemed overwhelmed by her responsibilities. The letter also stated that the
previous LEPC program manager for OJJDP grants now works exclusively on
a different grant program and has not provided adequate training to his
replacement. The report also cited examples of the LEPC’s lack of
responsiveness to phone calls, e-mails, and other requests for information.

       During the current audit, the OJJDP program manager told us that
after the OJP site visit she attended two training events. We also discussed
the LEPC’s lack of responsiveness with the former LEPC Director and he told
us that his office would not respond to inquiries that “lacked substance.”
During our audit, we also experienced a lack of responsiveness from the

       42
          The memorandum is not dated, but it includes discussions about events that
occurred during and before April 2008.

                                            68
former LEPC Director to some of our requests for documents and other
information. On another occasion, we had to contact the LEPC and the
Department of Finance several times to obtain accounting reports. After the
Governor appointed a new LEPC Director in January 2011, we noticed an
improvement in the LEPC’s response to our inquiries.

      OJP Site Visit – March 2009

       In March 2009, OJP conducted a site review of the LEPC’s
management of all active Byrne JAG and Residential Substance Abuse
Treatment (RSAT) grants. At the time of the review, the LEPC had one
active Byrne JAG grant (FY 2006) and planned to implement the
FY 2008 Byrne JAG and RSAT grant programs by June 2009. OJP found that
the LEPC kept a complete file system, but the LEPC was not aware that
$67,332 of the FY 2006 Byrne JAG grant had not been drawn down and
expended. The LEPC submitted the final progress report, but did not submit
the final financial report for the FY 2006 Byrne JAG grant. OJP instructed
the LEPC to resubmit the progress report as a regular report instead of a
final report.

     According to OJP, the LEPC did not receive FY 2007 Byrne JAG funds
because the LEPC did not apply for those funds.

      OJP Site Visit – November 2009

      In November 2009 OJP conducted a site visit to review the LEPC’s
management of Office of Juvenile Justice and Delinquency Prevention
(OJJDP) grants and visit several detention facilities to assess compliance
with laws pertaining to the handling of juveniles.

       OJP’s site visit report stated that at least two of the facilities scheduled
for the OJP visit were not aware of and not prepared for the visit, which
resulted in long waits for OJP staff, and the purpose of OJP’s visits had not
been communicated to the facilities. The report also stated that the LEPC
has a history of being late in registering and applying for grants, submitting
required reports, and responding to e-mail and telephone messages. OJP’s
site visit report also stated that the LEPC’s newly named compliance monitor
for OJJDP grants does not appear to be receiving proper direction and
training on her duties and responsibilities.

      OJP recommended that the LEPC: (1) respond timely to inquiries from
OJJDP staff, (2) improve its intra-office communication and training,
(3) improve its inter-agency communication with detention facilities, and
(4) ensure the compliance monitor conducts semi-annual site visits to all

                                        69
facilities that hold juveniles and provide ongoing training to law enforcement
staff on the core requirements of the OJJDP act.

      During the current audit, the LEPC’s compliance monitor for OJJDP
grants told us that after about seven months of employment without
adequate guidance she started performing site visits to facilities that hold
juveniles. However, she had recently attended training in Austin, Texas, and
Washington, DC.

       OJP Site Visit – February 2010

     In February 2010, OJP staff conducted an on-site review of the LEPC’s
administration of eight OJP grants and found the LEPC:

   •   did not submit financial and grant progress reports by their due dates;

   •   did not have policies and procedures for monitoring subrecipients;

   •   did not ensure grant funds were deposited into a separate interest
       bearing trust fund account for one grant, which is a violation of one of
       the special conditions of the grant;

   •   did not provide a listing of equipment purchased with grant funds for
       two grants; and

   •   charged $250,550 in unallowable and unsupported costs to grant
       funds.

      OJP made 12 recommendations to improve the LEPC’s management of
grants and to remedy the questioned costs.

        As discussed through this report, we found the LEPC: (1) frequently
did not submit financial and grant progress reports to OJP by their due
dates; (2) did not adequately monitor subrecipients; (3) did not ensure that
Byrne JAG grant funds were deposited into a trust fund account, which is a
violation of one of the special conditions of the grant; (4) did not maintain a
list of equipment bought with federal funds; (5) drew down $972,976 in
grant funds that are unaccounted; and (6) charged unsupported and
unallowable costs to grant funds.




                                        70
                                                                                        APPENDIX 5

                                        Unsupported Costs
                                   (Funds Managed by the LEPC)
                                         R EPORTING                              AMOUNT        AMOUNT
            SUBRECIPIENT                   PERIOD               CATEGORY        R EPORTED    UNSUPPORTED N OTES
Grant Number 2006-DJ-BX-0093 (Byrne JAG)
University of the Virgin Islands          June 2009     Salaries                 $6,300.00      $6,300.00 A, B
University of the Virgin Islands          June 2009     Other Category           17,550.00      17,550.00 C,B
University of the Virgin Islands          July 2009     Professional Services    10,080.00      10,080.00 A, B
University of the Virgin Islands          July 2009     Other                     5,976.05       5,976.05 C,B
                                   Sub-Total                                    $39,906.05    $39,906.05
Grant Number 2008-DJ-BX-0055 (Byrne JAG)
Our Town Frederiksted                    March 2009     Professional Services   $14,830.77     $14,830.77 A, B
Our Town Frederiksted                  November 2009 Salaries                     5,000.00       5,000.00 A, B
Our Town Frederiksted                  November 2009 Professional Services       10,000.00      10,000.00 A, B
VI Basketball Federation                 March 2009     Professional Services     4,415.00       4,415.00 A, B
VI Basketball Federation                 March 2009     Supplies                    890.25         890.25 C,B
VI Basketball Federation                 March 2009     Travel                    8,984.80       8,984.80 C,B
VI Basketball Federation                  June 2009     Professional Services     3,467.33       3,467.33 A, B
VI Basketball Federation                  June 2009     Travel                   10,637.48       2,795.38 C,B
                                   Sub-Total                                    $58,225.63    $50,383.53
Grant Number 2008-VA-GX-0030 (VOCA)
Family Resource Center                  October 2009    Salaries                 $4,940.93      $4,940.93 A, B
Family Resource Center                  October 2009    Fringe Benefits             378.49         378.49 D
Family Resource Center                  October 2009    Other Category            5,707.88       5,707.88 C,B
Family Resource Center                 December 2009 Salaries                     8,633.61       8,633.61 A, B
Family Resource Center                 December 2009 Fringe Benefits                855.47         855.47 D
Family Resource Center                  January 2010    Salaries                  7,639.66       7,639.66 A, B
Family Resource Center                  January 2010    Fringe Benefits             779.45         779.45 D
Family Resource Center                  February 2010   Salaries                  7,876.56       7,876.56 A, B
Family Resource Center                  February 2010   Fringe Benefits             797.54         797.54 D
Family Resource Center                   March 2010     Salaries                  7,756.18       7,756.18 A, B
Family Resource Center                   March 2010     Fringe Benefits             593.39         593.39 D
Family Resource Center                    May 2010      Salaries                  7,178.05       7,178.05 A, B
Family Resource Center                    May 2010      Fringe Benefits             549.14         549.14 D
Family Resource Center                    June 2010     Salaries                  7,676.43       7,676.43 A, B
Family Resource Center                    June 2010     Fringe Benefits             587.26         587.26 D
Family Resource Center                    July 2010     Salaries                 10,658.95      10,658.95 A, B
Family Resource Center                    July 2010     Fringe Benefits             815.41         815.41 D


                                                        71
                                        R EPORTING                              AMOUNT        AMOUNT
           SUBRECIPIENT                   PERIOD               CATEGORY        R EPORTED    UNSUPPORTED N OTES
Family Resource Center                 August 2010     Salaries                 10,673.45      10,673.45 A, B
Family Resource Center                 August 2010     Fringe Benefits             816.51         816.51 D
Legal Services                         October 2008    Salaries                  4,958.33       4,958.33 A, B
Legal Services                         October 2008    Fringe Benefits           1,425.32       1,425.32 D
Legal Services                        November 2008 Salaries                     4,958.33       4,958.33 A, B
Legal Services                        November 2008 Fringe Benefits              1,425.32       1,425.32 D
Legal Services                        December 2008 Salaries                     4,958.33       4,958.33 A, B
Legal Services                        December 2008 Fringe Benefits              1,425.32       1,425.32 D
Legal Services                         January 2009    Salaries                  4,958.33       4,958.33 A, B
Legal Services                         January 2009    Fringe Benefits           1,425.32       1,425.32 D
Legal Services                         February 2009   Salaries                  4,958.33       4,958.33 A, B
Legal Services                         February 2009   Fringe Benefits           1,425.32       1,425.32 D
Legal Services                          March 2009     Salaries                  4,958.33       4,958.33 A, B
Legal Services                          March 2009     Fringe Benefits           1,425.32       1,425.32 D
Legal Services                           April 2009    Salaries                  4,958.33       4,958.33 A, B
Legal Services                           April 2009    Fringe Benefits           1,425.32       1,425.32 D
Legal Services                           May 2009      Salaries                  4,958.33       4,958.33 A, B
Legal Services                           May 2009      Fringe Benefits           1,425.32       1,425.32 D
Legal Services                           June 2009     Salaries                  4,958.33       4,958.33 A, B
Legal Services                           June 2009     Fringe Benefits           1,425.32       1,425.32 D
Legal Services                           July 2009     Salaries                  4,958.37       4,958.37 A, B
Legal Services                           July 2009     Fringe Benefits             172.12         172.12 D
Legal Services                         August 2009     Salaries                  4,958.37       4,958.37 A, B

Legal Services                        September 2009 Salaries                    4,958.25       4,958.25 A, B
The Safety Zone                        October 2008    Other                     1,136.62         984.00 B
The Safety Zone                       November 2008 Other                        1,136.62         984.00 B
The Safety Zone                       December 2008 Other                        1,112.81         984.00 B
The Safety Zone                        January 2009    Other                     1,068.61         984.00 B
The Safety Zone                        February 2009   Other                     1,017.42         984.00 B
VI Volunteer Advocates for Children   November 2009 Other                        2,325.00       2,325.00 B
VI Volunteer Advocates for Children      July 2010     Other                     2,444.56       2,325.00 B
Women's Coalition                        April 2009    Salaries                  7,714.36       7,714.36 C,B
Women's Coalition                        April 2009    Supplies                    $40.17          40.17 A,B
Women's Coalition                        April 2009    Professional Services       $25.00          25.00 C,B
Women's Coalition                        April 2009    Other                     1,330.53         301.43 A,B
Women's Coalition                      January 2009    Professional Services       447.00         447.00 C,B
Women's Coalition                      January 2009    Other                       847.08         360.50 C,B



                                                       72
                                        R EPORTING                           AMOUNT         AMOUNT
            SUBRECIPIENT                  PERIOD                CATEGORY    R EPORTED     UNSUPPORTED N OTES
Women's Coalition                          May 2009     Supplies                427.00          427.00 C,B
Women's Coalition                          May 2009     Salaries               8,197.48       2,650.33 A,B
Women's Coalition                          May 2009     Other                  1,952.58       1,376.59 C,B
                                 Sub-Total                                 $188,637.16 $180,326.70
Grant Number 2009-SG-B9-0119 (VOCA)
Council on Alcoholism                  January 2010     Fringe Benefits        $501.88         $501.88 D
Council on Alcoholism                 February 2010     Fringe Benefits         501.88          501.88 D
Council on Alcoholism                      June 2010    Salaries               3,811.50       3,811.50 B
Council on Alcoholism                December 2009 Salaries                    1,897.68       1,897.68 A, B
Council on Alcoholism                December 2009 Fringe Benefits              409.52          230.15 D
Council on Alcoholism                  January 2010     Salaries               2,731.72       2,731.72 A, B
Council on Alcoholism                 February 2010     Salaries               2,731.72       2,731.72 A, B
Council on Alcoholism                 February 2010     Other Category          847.87          167.50 B
Council on Alcoholism                      June 2010    Other                  1,949.88       1,948.66 B
Kidscope, Inc.                             April 2009   Salaries               2,832.00         322.00 A
Kidscope, Inc.                             April 2009   Travel                  750.00          750.00 C, D
Kidscope, Inc.                         January 2010     Salaries               2,832.00         322.00 A
                                Sub-Total                                   $21,797.65     $15,916.69

                                   Total                                   $308,566.49 $286,532.97

Notes:

       A – No timesheets
       B – No proof of payment such as a cancelled check
       C – No invoice
       D – No other supporting documents




                                                        73
                                                                                        APPENDIX 6

                                  Unsupported Costs
                       (Funds Managed by the St. Croix Foundation)
                                     R EPORTING                             AMOUNT        AMOUNT
             PROJECT                   PERIOD             CATEGORY         R EPORTED    UNSUPPORTED   N OTES
Grant Number 2008-DJ-BX-0055

Dembaya Arts Conservatory             April 2009 Professional Services      $4,450.00     $ 2,190.00 A, B
Dembaya Arts Conservatory             May 2009    Supplies                     495.48        495.48 C,B
Dembaya Arts Conservatory             May 2009    Professional Services      1,162.53       1,162.53 A, B
                              Sub-Total                                     $6,108.01     $3,848.01
Grant Number 2009-DJ-BX-1097

Conflict Resolution Org. for Peace    May 2010    Professional Services     $8,130.00      $1,020.00 A
Cruzan Dance Company                 March 2010 Professional Services       10,250.00      10,250.00 A, B
Cruzan Dance Company                  April 2010 Professional Services       5,690.00       5,690.00 A, B
Cruzan Dance Company                  April 2010 Supplies                    1,608.37       1,608.37 C,B
Cruzan Dance Company                  May 2010    Professional services      3,360.00       3,360.00 A, B
Music in Motion                       June 2009 Salaries                     5,000.00       5,000.00 A, B
Music in Motion                       June 2009 Professional Services        1,500.00       1,500.00 A, B
Music in Motion                       June 2009 Other                        1,172.04       1,172.04 C,B
Music in Motion                      March 2010 Salaries                     8,000.00       8,000.00 A
Music in Motion                      March 2010 Professional Services        7,911.00        861.00 A, B, D
Music in Motion                       May 2010    Salaries                  10,400.00      10,400.00 A, B
Music in Motion                       May 2010    Equipment                  3,700.00       3,700.00 C,B
Music in Motion                       May 2010    Supplies                   1,000.00       1,000.00 C,B
Music in Motion                       May 2010    Other                      1,706.01       1,706.01 C,B
Music in Motion                      August 2010 Salaries                    5,372.70       5,372.70 A
Music in Motion                      August 2010 Other                       3,000.00       3,000.00 C
                              Sub-Total                                    $77,800.12    $63,640.12
Grant Number 2009-SG-B9-0119

Per Ankh                              April 2010 Professional Services      18,638.75      18,638.75 A, B
              Total                                                       $102,546.88    $86,126.88


Notes:

    A – No timesheets
    B – No proof of payment such as a cancelled check
    C – No invoice
    D – No other supporting documentation




                                                       74
                                                              APPENDIX 7

                Crime Prevention Projects Funded With
                    Byrne Justice Assistance Grants

     Boys and Girls Club - $109,999

      The Boys and Girls Club was awarded $60,000 and $49,999 from the
FYs 2008 and 2009 Byrne JAG grants. According to an August 2009 report
from the LEPC Byrne JAG grant program manager, the recipient used the
funds for sailing, arts, recreation, field trips, and to purchase gym and
playground equipment. The report states that 45 to 50 students participated
in the summer program.

     Brighter Writers Club – $55,000

       The Brighter Writers Club was awarded $30,000 and $25,000 from the
FYs 2006 and 2009 Byrne JAG grants. Brighter Writers is a 6-week summer
day camp program offering skills enrichment for children between the ages
of 5 to 14.

     Cruzan Dance Company - $32,000

       The Cruzan Dance Company was awarded $32,000 from the FY 2009
Byrne JAG grant. According to the program description, this is an after-
school program designed to enhance crime prevention awareness by
providing bi-weekly dance classes, training to become a model, and
consulting advice to children who wish to participate in pageant
competitions. The grant application states that the purpose of the grant is
to use performing arts to instill positive reinforcement and educate
individuals about crime and violence awareness. The recipient’s finances are
administered by a third-party fiduciary, The St. Croix Foundation, for
Community Development, Inc.

     Dembaya Arts Conservatory - $8,260

      The Dembaya Arts Conservatory was awarded $8,260 from the
FY 2008 Byrne JAG grant. According to a February 2009 memorandum from
the LEPC Byrne JAG grants manager, this program includes dance and music
instruction, singing, and arts and crafts. The recipient planned to measure
grant performance by the percentage of children that completed the
program. The budget for the grant funds included $2,550 for craft supplies,
costumes, drums, and bells.


                                      75
      St. Patrick’s School – $82,699

       The St. Patrick’s School was awarded $20,000, $18,653, and $44,046,
respectively, from the FYs 2006, 2008, and 2009 Byrne JAG grants. The
funds were to be used for an afterschool project and a summer camp. The
final report for the grant stated that 91 high-risk children participated in this
annual camp.

      Savan Boys Club – $15,000

      The Savan Boys Club was awarded $15,000 from the FY 2009 Byrne
JAG grant. According to a July 2010 report from the LEPC Byrne JAG
program manager; this is an afterschool and summer program for youth
between the ages of 7 to 17 who are at risk of becoming juvenile
delinquents. The report stated that 33 youth participated in gardening,
cooking classes, fishing, swimming, baseball, and caring for fruit trees.

      Learning Networks – $58,768

       Learning Networks was awarded $19,832 and $38,936 under the
FYs 2006 and 2009 Byrne JAG grants. The purpose of the funding is to
teach at-risk youth how to care for animals, recognize and prevent animal
illnesses, adopt animals, and investigate animal cruelty. The final project
report stated that 13 students completed the course and three students
were offered positions as youth aides to the program.

      Pistarckle Theatre – $38,000

      Pistarckle Theatre was awarded $38,000 from a FY 2009 Byrne JAG
grant. This program had been awarded $10,000 from a School Safety
Enhancement grant awarded by OJJDP in FY 2007. Pistarckle Theatre is a
year-round after-school theater education program that allows children to
act out everyday social ills and develop ways in which they can avoid
negative behavior and peer pressure that may lead to substance abuse,
criminal behavior, and other forms of juvenile delinquency.

      St. Croix Foundation, Board-up & Clean-up - $40,000

      The St. Croix Foundation Board-up & Clean-up program was awarded
$40,000 from the FY 2009 Byrne JAG grant. The St. Croix Foundation will
review all areas of downtown Christiansted and designated properties that
need to be boarded and/or cleaned in partnership with the Office of the
Lt. Governor. Some of the activities within the program include removal of

                                       76
fire hazards and boarding up of abandoned properties that harbor illegal
activities.

      Women’s Coalition-Children - $50,000

      The Women’s Coalition-Children was awarded $50,000 from the
FY 2009 Byrne JAG grant. The program proposes to use its new Children's
Center to offer a high risk youth and after-school program where they will be
shown videos and hear guest speakers on the subjects of date rape, drug
abuse, gang violence, anger management, animal abuse and other crimes.
An educational component will also be conducted using volunteers to provide
one-on-one tutoring, homework assistance, use of computers and internet,
and a library to stress education as a way of preventing criminal behavior.

      Enterprise Zone - $40,000

      The Enterprise Zone program was awarded $ 40,000 from the 2009
Byrne JAG Grant. This project will entail the board-up of abandoned
buildings so that vagrants will not occupy and use these buildings for living
quarters, using and selling drug paraphernalia and other illegal activities in
the Savanne Community.

      Garden School - $11,120

      The Garden School was awarded $11,120 from the 2006 Byrne JAG
grant. The program empowers students or clients to succeed in solving
problems by giving them a picture of themselves in at least 40 related
tutorials per clients which total to 14 hours of interactive sessions in a 5 to 6
week period. The tutorial help clients assess and react to situations and
evaluate their attitudes about topics such as sexual abuse, drugs, and
violence and how to take control in overcoming misconstrued feelings and
actions.

      Virgin Islands (VI) Night Out - $30,000

       The VI Night Out program was awarded $30,000 from the 2006 Byrne
JAG grant. The program consists of prevention activities that will target
youth ages4 to 17 and adults ranging from age 18 to senior citizens. The
territorial programs will foster partnerships between law enforcement and
the community to educate the populace about the dangers of drugs and
criminal activities.




                                       77
     Methodist Outreach Service - $80,000

      This is a comprehensive training, outreach, and support program
designed to address the individual needs of target groups from the church
community as well as the surrounding communities of the Savan area and
the Rothschild Francis Market Square area.

     VI Basketball Federation - $190,000

       The VI Basketball Federation was awarded $100,000, $40,000 and
$50,000 under the FYs 2006, 2008, and 2009 Byrne JAG grants. This
program would have the responsibility of taking at least 2,000 youths off the
streets during a time when they are most likely to be vulnerable to
delinquent activities and gang violence. The program would also provide the
youths with the opportunity to participate in sports, recreational and
educational activities that will allow them to channel their energy into a
positive direction.




                                     78
                                                                                            Appendix 8

                      Letter from OJP to the LEPC

                                                     u.s. Department of JWltlU

                                                     Officc Of Justice Programs

                                                     Oific~   o/the Assistant A.ttom~ G~nt!rar

June S, 2007



Mr. Meridith Nielson
Drug Policy Advisor
Virgin Islands Law Enforcement Planni ng Commission (LE PC)
8172 Subbase, Suile 3
SI. Thomas, Virgin Islands 00802

Re: Grant Numbers 2QOO..OB·BX·2078, 200I·DB·BX·0178, 2002·DB·BX.{l178.
2003·DB·BX...()() I I, 2004·DB· BX...()()IS, 200S·OJ·BX·I S89, 2006-0J·8X.(N)93,
200S·RT·BX"'()()IS

Dear M r. Nielson:

1bank you for the time and assistance you and your staff provided during the Bureau of
Justice Assistancc's (BIA) and the Office of the Comptrollers' (OC) monitoring visit on
May 22 - 24, 2007. , lIJ>~ated having the opportunity to discuss the status of the grant
program and Nlated issucs. lbe visits to the sub.grantees in SI. Croix, 1be V illage and
the RSAT programs were very infonnaDve.

This letter proyide:! a summary o rlbe issues discussed d uring our ail interview and a
section with recommendations for program enhancement. Each iuue is stated separately
below, along with the oorrectivc actions we discussed and you agreed to undertake. I
have also included target dates for the completion of these correcti ve actions.

   •   JAO, 200s·DJ·BX·IS89, OMS changen:quest must becompleled by 611107.
   •   RSAT, 200S·RT·BX·00IS, GMS change request must be completed by 611 5107.
   •   LEPC will provide a copy of an FBI audit report by 617107.
   •   LEPC will provide a list of the LEPC Advisory Board.
   •   LEPC must stop awarding sub-grantees using a fiduciary, you must consull BJA.
   •   LEPC will provide an update on Jacob Wetterling by June 22, 2007.
   •   Grant funds must not be used for food and as an incentive as described in the sub·
        grantee9 budget (The Village).
   •   Time IUId attendance sheets must be completed by each employee al LEPC.
   •   Vehicles obtained fur LEPC with Byrne and JAG funds must contain a log fur
        usage and gas. The vehi.cIes must be used only for grant related purposes.
   •   LEPC's Criminal Justice Records Improvement (CJRI) assessment by BJA
        technicalnssislance provider m ust be completed by July 3 1, 2007.
   •   LEPC grant files must include supporting documentation sucli. as monitoring site
        visit reports.
   •   LEPC must acknowledge BJA when advertising for BJA &f1Ult related purposes.




                                            79

 Mr. Meridith Nielson
 Page 2
 June.5,2007




         • LEPC must keep a ledger for all Seaplane tickets purchased with BJA grant
            funds .

 Please provide an official response within 60 days of receipt of this letter. Ifmyoffice
 can provide any assistance to you in addressing these issues, pfease do not hesitate to
 contact us. We will work with you to identify any technical assistance needs. Feci free
 10 contact me at (202) 3.53-8645 or email atGeurdo.yel8Z(!YC.¢ilusdoi.goy .

I look forward to working with you as the grant progresses. Thank you again for your
cooperation during my recent visil




ce:   Mr. Flemon Lewis
      Ms. Jill Young
      GMS Monitoring Module (uploaded file)
      BJA working file




                                          80

                                                                APPENDIX 9

              GOVERNMENT OF THE U.S. VIRGIN ISLANDS
                  RESPONSE TO THE DRAFT REPORT




                              February 3, 2012


Mr. Ferris B. Polk
Regional Audit Manager
US Department of Justice
Office of the inspector General
75 Spring Street, Suite 1130
Atlanta, GA 30303


Dear Mr. Polk:

      I am in receipt of the Draft Evaluation Report— Audit of Management
of Department of Justice (DOJ) Grants Awarded to the U.S. Virgin Islands
Law Enforcement Planning Commission (LEPC) by the Office of Justice
Programs (OJP) and the Office on Violence Against Women (OVW). Thank
you for providing the Government of the Virgin Islands with an opportunity
to comment on the draft audit report. Our responses to the
recommendations are attached.

       Your draft report offers twenty-five (25) recommendations for our
concurrence or non-concurrence. We have addressed each of these in the
attached LEPC Response to the report (Exhibit I). Through this experience,
LEPC has strengthened the lines of communication with key central service
departments and agencies in its efforts to meet the financial standards
required by the Office of the Chief Financial Officer (OCFO). This positive
interaction has already increased the knowledge and competency level of its
staff and will provide future training opportunities. As a result, compliance


                                     81
with grant guidelines, achievement of grant goals and objectives, and
accountability will be greatly enhanced.

      With respect to the recommendations which require the institution of
written policies and procedures, LEPC will have these drafted and
implemented within thirty (30) days of the submission of this response to
the draft audit report. Additionally, LEPC will provide documentation that will
further support and clarify expenditures referenced in the recommendations
requiring remediation. This documentation will be forwarded to OJP under
separate cover by the end of June, 2012.

      We greatly appreciate the time and effort that went into the
development of this report. The issues presented are indeed of a critical
nature, and I acknowledge the many contributions that have been made in
our community as a result of DOJ grant funding. Accordingly, my office and
LEPC are committed to working collaboratively with USDOJ so that our grant
funding is properly administered, and so that the residents and visitors to
the U.S. Virgin Islands can benefit from a safer environment.




Cc:   Director Debra Gottlieb, Office of Management & Budget
      Commissioner Angel Dawson, Department of Finance
      Director Victor Brown, Law Enforcement Planning Commission




                                      82
                     Government of the Virgin Islands’ Response
                                         to the
           U.S. Department of Justice (DOJ), Office of the Inspector General
                                  Draft Audit Report
Audit of Management of DOJ Grants awarded to the U.S. Virgin Islands Law Enforcement
Planning Commission by the Office of Justice Programs and the Office on Violence Against
                                        Women


FINDING No. 1

The Law Enforcement Planning Commission (LEPC) did not have adequate controls to account
for, manage, and report the use of Department of Justice (DOJ) grant funds.

RECOMMENDATION Nos. 1 thru 8

       No. 1. Ensure LEPC has adequate staff with the training and experience to administer the
       grants. (Refer to Corrective Action for Finding No. 2)
       No. 2. Ensure LEPC implements procedures to time its drawdown requests to ensure
       that, when required, federal cash-on-hand is the minimum needed for disbursements to be
       made immediately or within 10 days. (Refer to Corrective Action for Finding No. 3)
       No. 3. Ensure LEPC implements procedures to reconcile grant funds drawn down to the
       expenditures recorded in the U.S. Virgin Islands accounting records and the expenditures
       reported by subrecipients and follow up on any differences. (Refer to Corrective Action
       for Finding No. 3)
       No. 4. Ensure LEPC implements a system for tracking the use of any prepaid goods and
       services. (Refer to Corrective Action for Finding No. 10)
       No. 5. Ensure LEPC implements a grant solicitation and awards process that ensures fair
       and open competition for grant funds. (Refer to Corrective Action for Finding No. 11)
       No. 6. Ensure LEPC implements procedures to ensure financial and grant process reports
       are accurate and submitted when due. (Refer to Corrective Action for Finding No. 15)
       No. 7. Ensure LEPC implements procedures to ensure it submits accurate Recovery Act
       reports. (Refer to Corrective Action for Finding No. 16)
       No. 8. Ensure LEPC implements procedures requiring subrecipients to identify, track,
       and report on the progress toward achieving measurable grant goals and objectives.
       (Refer to Corrective Action for Finding No. 17)

Government’s Response

LEPC concurs with Recommendations Nos. 1 thru 4 and 6 thru 7, but does not concur with
Recommendation Nos. 5 and 8. As it pertains to Recommendation No. 5 LEPC is required to
adhere to Title 31, Section 231 to 239 of the Virgin Islands Code and LEPC has been following a
process that is outlined in the recently implemented LEPC Grant Management &
Accounting/Fiscal Policy and Procedure Manual (GMPPM) (Attachment 1). As it pertains to
Recommendation No. 8 LEPC has a progress report requirement but will enhance it where
possible.


                                             83
Corrective Action:

In October of 2011 the Law Enforcement Planning Commission (LEPC) formally instituted
policies and procedures, which can be seen in the attached Grant Management Policy and
Procedure Manual (GMPPM), (Attachment I) to address the management and administration of
its grants, and to strengthen internal controls. This manual was prepared with input from the
staff and the Grant Administrator reviewed the finished product with the staff. Each member of
staff was given a copy of the product and the importance of adhering to these policies and
procedures was emphasized. The GMPPM will be utilized by LEPC in conjunction with existing
and future standard operating procedures (SOPs) released by the V.I. Department of Finance, the
V.I. Office of Management and Budget and other Central Service Agencies, coupled with
operation manuals/procedures for the Government of the Virgin Islands Enterprise Resource
Planning (ERP) System modules.

Implementation Date(s): October 2011; (GMPPM) and on-going

Due Date(s): March 31, 2012 (amendment to GMPPM)
             May 31, 2012 (on-line financial training)
Responsible Party(ies): Grant Administrator, Law Enforcement Planning Commission
                        (LEPC)

FINDING No. 2

LEPC did not have adequate policies, procedures, and staff with the training and experience to
administer the grants.

RECOMMENDATION No. 1

       No. 1. Ensure LEPC has adequate staff with the training and experience to administer the
       grants.

Government’s Response
LEPC concurs with Recommendation No. 1.

Corrective Action:
Two (2) members (Financial Specialist and Grant Manager for VOCA/VAWA) of LEPC’s staff
that work with grants completed the U.S. Department of Justice’s (USDOJ) Grants Financial
Management training in December of 2011. One (1) individual (Grant Manager) completed
training for the Enforcing Underage Drinking Laws (EUDL) Grant and Office of Juvenile and
Justice Delinquency Program (OJJDP) training and two (2) other members (Grant Manager
VOCA/VAWA and Director of Victim Witness Services) participated in the mandated training
for the VOCA/VAWA grants. LEPC will work to have the additional six (6) employees, who
are working with grants in various capacities, also complete the grant financial management
training, with fraud detection, which is being offered by USDOJ within the next ninety (90) days.
LEPC will take advantage of all Training and Technical Assistance (TTA) available through the


                                              84
Office of Justice Programs (OJP), to ensure that all grants are fiscally and programmatically
administered in an efficient manner.

LEPC staff has also participated in December 2011 in the V.I. Department of Finance’s (VIDOF)
Center of Excellence training session that included presentations by VIDOF, the Government of
the Virgin Islands’ Division of Personnel (VIDOP), and the V.I. Office of Management and
Budget (VIOMB). Topics included Policies, Procedures and Processes regarding Human
Resources/Payroll, Reports, Procurement/Central Stores, Tracking Assets, Drawdowns, Grants
and Budgeting. Also, between November of 2011 and January of 2012, LEPC staff attended
budget workshops hosted by VIOMB in both island districts. LEPC will also avail itself of any
and all future training offered by the VIDOF, VIOMB and other Central Service Agencies such
as VIDOP and the V.I. Department of Property and Procurement (VIP&P).
Also refer to Correction Action for Finding No. 1.

Implementation Date(s): November 2011 – January 2012 and on-going (training)

Due Date(s): May 31, 2012 (on-line training)

Responsible Party(ies): Director, LEPC


FINDING No. 3

LEPC did not ensure that federal cash-on-hand was the minimum needed for disbursements to be
made immediately or within 10 days and drew down excess grant funds.

RECOMMENDATION Nos. 2 and 3

       No. 2. Ensure LEPC implements procedures to time its drawdown requests to ensure that,
       when required, federal cash-on-hand is the minimum needed for disbursements to be
       made immediately or within 10 days.
       No. 3. Ensure LEPC implements procedures to reconcile grant funds drawn down to the
       expenditures recorded in the U.S. Virgin Islands accounting records and the expenditures
       reported by subrecipients and follow up on any differences.

Government’s Response

LEPC concurs with Recommendation Nos. 2 and 3.

Corrective Action:

Refer to Corrective Action for Finding No.1.
Also, page 27 of the GMPPM addresses minimizing cash on hand, and disbursing funds within
the ten (10) day guideline. Further, page 27 of the LEPC GMPPM, which deals with other sub
grantees, will be amended to include procedures which will give LEPC through the expenditure
approval process in the ERP, some control of the expenditures entered into the VI accounting


                                               85
records by governmental agencies. This, will be done within thirty (30) days, to ensure pre-
approval of expenditures by government sub-grantees, and ensure the availability of supporting
documents (scanned into the ERP) for authorized expenditures to be drawn down.

Additionally, LEPC will also design, develop and implement a spreadsheet that tracks all
drawdowns and allocates the drawdowns by grant/project code. Specifically containing date of
drawdown, total amount of drawdown, amount of drawdown allocated by grant, interest earned
and amount of interest allocated to each grant. This spreadsheet will be forwarded to the
Department of Finance, Treasury Division after each drawdown.

Implementation Date(s): October, 2011 and on-going (GMPPM)

Due Date(s): March 5, 2012 (Amendment to GMPPM)

Responsible Party(ies): Director, LEPC; Director of Financial Services, LEPC
                        Financial Specialist, LEPC


FINDING No. 4

LEPC could not provide accounting records showing how it spent $972,976 in grant funds drawn
down.

RECOMMENDATION Nos. 10 and 22

       No. 10. Remedy the $600,542 in grant fund drawdowns that are unaccounted for.
       No. 22. Remedy the $372,434 in OVW grant fund drawdowns that are unaccounted for.

Government’s Response

LEPC concurs with Recommendation Nos. 10 and 22.

Corrective Action:

While at the time of the audit the documents that would have clarified these outstanding amounts
were not readily available, LEPC will work with the VIDOF to retrieve accounting records that
will show the expenditure of said funds. LEPC will also make contact with subrecipients to
acquire any outstanding supporting documents and provide such documentation to OJP.
However, to strengthen controls related to subgrantee expenditures, LEPC has formally
requested that VIDOF insert its applicable staff (the Director or his Designee) into the approval
queue for expenditures for LEPC government subgrantees. LEPC will notify the affected
subgrantees of this change regarding the VIERP in writing; and page 27 of the LEPC GMPPM,
which deals with other subgrantees, will be amended to include the procedures that will give
LEPC through the expenditure approval process in the ERP, some control of the expenditures
entered into the VI accounting records by governmental agencies. This will be done within thirty
(30) days to ensure pre-approval of expenditures by government subgrantees, and timely


                                              86
availability and access to supporting documents that will be scanned into the ERP for authorized
expenditures to be subsequently drawn down.

The GMPPM will be updated to reflect the new policy and procedures which will be in effect for
the Non-Governmental Organizations (NGOs). This policy and procedure will be in line with the
requirement that funds will be paid on a reimbursement basis. The NGOs will be required to
submit, along with their request for funds, documents evidencing their expenditures. The NGOs
will be advised of this change.

Due Date(s): March 5, 2012 (approval queue); June 30, 2012 (supporting document)

Responsible Party(ies): Director, LEPC; Grant Managers, Financial Staff, LEPC
                        Director of Treasury, VIDOF

FINDING No. 5

LEPC did not establish separate bank accounts as required for the non-Recovery Act Byrne JAG
grants as was required by special conditions of the grants and commingled funds from other DOJ
grants with funds from other sources.

RECOMMENDATION Nos. 9 and 11

       No. 9. Ensure that DOJ grant funds are not commingled with funds from other sources.
       No. 11. Ensure that the LEPC: (a) establishes a bank account to deposit all funds drawn
       down from DOJ grants only; (b) implements appropriate accounting procedures to
       separately track grant fund balances; and (c) periodically reconciles each grant balance to
       the bank account.

Government’s Response

LEPC concurs with Recommendations Nos. 9 and 11.

Corrective Action:

In October 2010 and November 2011, as requested, LEPC obtained separate accounts for all
DOJ grants through the VI Department of Finance. See the GMPP Manual, page 8, Section I for
the policy regarding this issue. This has caused commingling of funds from OVW and BJA.
However, in communication with the Atlanta OIG Office via email on January 17, 2012
(Attachment 2), it has now been agreed that one bank account can be established by LEPC for all
DOJ Non Recovery grant funds. This has been agreed, in concert with VIDOF, to implement
within the next thirty (30) business days. LEPC will track all grant drawdowns in an electronic
spreadsheet, whose format has been recommended by VIDOF.

Implementation Date(s): October 2010 and November 2011 (separate accounts)

Due Date(s): March 19, 2012 (one bank account)


                                               87
Responsible Party(ies): Director, LEPC; Financial Specialist, LEPC
                        Director of Treasury, VIDOF

FINDING No. 6

LEPC did not draw down and expend $606,317 in grant funds before the grants expired.

RECOMMENDATION Nos. 12 and 23

       No. 12. Deobligate $134,261 in grant funds for OJP grants that have expired.
       No. 23. Deobligate $472,056 in OVW grant funds that have expired.

Government’s Response

LEPC partially concurs with Finding No. 6 and Recommendation Nos. 12 and 23.

Corrective Action:

At the time of the audit an OJP grant for $80,000 (#2007-JF FX 0063) was on hold for
compliance issues. Since then these funds have been released and expended. This grant expired
in September of 2011. The documents to support the expenditure of said funds from this grant
will be sent under separate cover. LEPC will revisit the files for the other grants listed in
“Exhibit 4: Unaccounted for Funds From Expired Grants,” on page 20 of the Audit Report.
LEPC will then request permission to draw down the amounts that have been expended. The
outstanding supporting documents for these transactions will be provided to OJP.
LEPC will revisit its OVW files and submit documents that will substantiate expenditures by
subgrantees for the $472,056. However, since these funds were not drawn down to cover the
expenditures, LEPC will request a waiver from the Office of Chief Financial Officer (OCFO) so
that LEPC can access expired grant funds and be able to drawdown amounts to cover the
expenditures. Any unspent funds will be deobligated.

Due Date(s): February 29, 2012 (documentation/waiver request)

Responsible Party(ies): Director, LEPC; Grant Administrator, Grant Managers,
                        Fiscal Unit, LEPC

FINDING No. 7

LEPC did not identify and report interest income earned on grant funds and ensure the additional
funds were used for grant purposes. LEPC earned $43,503 in interest on Byrne JAG Recovery
Act grant funds drawndown in advance, but it did not report the income to OJP and did not
allocate the additional income to the grant as required.




                                              88
RECOMMENDATION Nos. 13 and 14

       No. 13. Ensure LEPC established procedures to identify income from grant funds and
       programs and ensure the funds are used for grant purposes.
       No. 14. Ensure LEPC allocates the $43,503 in interest earned on the FY 2009 Byrne JAG
       Recovery Act funds and uses the funds for grant purposes or returns the funds to DOJ.

Government’s Response

LEPC concurs with Recommendation Nos. 13 and 14.

Corrective Action:

As of August 2011, LEPC has commenced working with VIDOF to track income from grant
funds. LEPC will utilize a spreadsheet that tracks all drawdowns and allocates the drawdowns by
grant/project code. Specifically, it will contain date of drawdown, total amount of drawdowns,
amount of drawdown allocated by grant, interest earned, and amount of interest allocated to each
grant. This spreadsheet will be forwarded to the Department of Finance, Treasury Division after
each drawdown. Interest is being tracked by the Grant Manager and the Accounting/Fiscal Unit
at LEPC in conjunction with VIDOF.
LEPC will use the $43,503 in the interest earned from the FY 2009 Byrne JAG Recovery Act
funds for grant purposes. The Grant Administrator and the ARRA JAG Grant Manager will
award the interest earned to date to a subgrantee by June 29, 2012.

Implementation Date(s):      August 2011 (tracking income)

Due Date(s): March 5, 2012 (earned income policy); June 29, 2012 (allocation of interest
              earned)
Responsible Party(ies): Director, LEPC; Grant Administrator, Grant Manager, LEPC
                        Director of Treasury, VIDOF


FINDING No. 8

LEPC did not have adequate controls to track the use of prepaid airline tickets for inter-island
flights, which resulted in some tickets having expired before they were used.

RECOMMENDATION No. 24

       No. 24. Remedy $3,063 in OVW grant funds spent on airline tickets for inter-island
       travel, which expired without being used.

Government’s Response

LEPC concurs with Recommendation No. 24.



                                              89
Corrective Action:

Refer to Corrective Action for Finding No. 1.
LEPC will implement a system for tracking the use of any prepaid goods and services. LEPC
will require that the subrecipients keep a receiving record for prepaid services rendered and the
receipt of prepaid goods. This record will require the identification of the goods and/or service
received, the signature of the subrecipients, and the signature of the goods and/or service
provider and the date that the goods and/or services were received. Subrecipients will be
required to notify LEPC, through the transmittal of a copy of the receiving record, within 10 days
of the receipt of said goods and/or services. Goods and/or services received will be verified by
the Grant Manager(s) during quarterly site visits.
LEPC will add an Addendum to its GMPPM which will specify the policies governing the
purchase and use of “bulk tickets” for inter-island travel. Additionally, LEPC will centralize the
distribution and logging of bulk tickets.

Due Date(s): March 30, 2012 (tracking prepaid items)

Responsible Party(ies): Director, LEPC; Grant Managers, LEPC
                        Office Manager/Confidential Secretary, LEPC

FINDING No. 9

LEPC charged $160,546 in excess administrative costs to some grants.

RECOMMENDATION No. 15

       No. 15. Remedy the $160,546 in excess administrative costs charged to the grants.

Government’s Response

LEPC partially concurs with Recommendation No. 15.

Corrective Action:

Of the amount stated, $24,375 was charged to the various subgrantees for professional services
rendered by the St. Croix Foundation. (Support will be sent under a separate cover.) LEPC will
work with VIDOF to make the necessary adjustments to remedy the charges to the other grants.
As soon as the changes have been made in the system, copies of the documents will be sent to
OJP.

Due Date(s): May 31, 2012 (adjustments)

Responsible Party(ies): Director, LEPC; Accounting/Fiscal Unit, LEPC
                        Director of Financial Reporting and Audit, VIDOF




                                               90
FINDING No. 10

LEPC spent grant funds for unallowable purposes. The LEPC did not adequately monitor
subrecipients’ use of grant funds. Consequently, $293,322 in grant expenditures from the grant
awarded by OJP was either unsupported or unallowable.


RECOMMENDATION Nos. 4, 16, 17 and 18

       No. 4. Ensure the LEPC implements a system for tracking the use of any prepaid goods
       and services.
       No. 16. Remedy $286,533 in unsupported costs associated with sub awards administered
       by the LEPC.
       No. 17. Remedy $6,789 in unallowable costs associated with sub awards administered by
       the LEPC.
       No. 18. Ensure the LEPC implements procedures to ensure it only reimburses sub
       recipients for costs that are allowable and supported by adequate documentation such as
       timesheets for personnel costs, invoices, purchase orders, contract, and receipts.

Government’s Response

LEPC concurs with Recommendation Nos. 4 and 18, and partially concurs with
Recommendation Nos. 16 and 17.

Corrective Action:

At the time of audit, supporting documentation presented by LEPC was deemed insufficient.
LEPC has begun the review of its files and have contacted the subrecipients to acquire the
additional documents recommended. LEPC will adhere to the policy and procedures laid out in
its (GMPPM) Manual, page 30-31, procedures 2 and 5, which will ensure that expenditures are
fully documented.
LEPC will re-visit its files and contact the subrecipient to ascertain the actual work done for
$4,200, which was described as consultation. LEPC will also contact the other sub recipient
concerning the balance and take the action that becomes necessary to clear this issue. LEPC will
provide OJP with the supporting documents. In the future, LEPC will adhere to its GMPPM
(Manual), page 30-31, procedures 2 and 5.
LEPC will implement policy and procedures which will ensure compliance with reimbursing
subrecipients’ costs that are allowable and supported by adequate documentation such as
timesheets for personnel costs, invoices, purchase orders, contracts, and receipts. See GMPPM
(Manual) pages 30 procedure 1 that deals with the required reporting documents.
Due Date(s): May 31, 2012 (supporting documents)
Responsible Party(ies): Director, LEPC; Grant Manager, LEPC




                                              91
FINDING No. 11

LEPC did not have an adequate system for soliciting and making subawards.

RECOMMENDATION No. 5

        No. 5. Ensure the LEPC implements a grant solicitation and awards process that
        ensures fair and open competition for grant funds.
Government’s Response

LEPC does not concur with Recommendation No. 5.

Corrective Action:

LEPC has been following the dictates of Virgin Islands Code Title 31, Section 231-239 which
demands transparency and fairness in the award of any monies flowing through the Virgin
Islands Government. It is now a written policy of the LEPC, which is being followed, to
advertise all grants solicitation in a form of Request for Proposal (RFP), in local newspapers,
through press releases, and on the local airwaves, to ensure fair and open competition for grant
funds. Evidence of these actions will be kept in the master grant file maintained by the grant
manager. All applicants have access to any and all information pertaining to the specific grant
solicitation through LEPC. Please see pages 9-12 of the LEPC GMPPM.

Due Date(s): May 31, 2012 (RFP document)

Responsible Party(ies): Director, LEPC; Grant Managers, LEPC


FINDING No. 12

LEPC did not allocate grant funds in accordance with grant requirements for the 2007, 2008, and
2009 OVW grant.

RECOMMENDATION No. 25

       No. 25. Ensure the LEPC implements procedures to ensure it complies with STOP grant
       fund allocation requirements.

Government’s Response

LEPC does not concur with Recommendation No. 25. LEPC has been in compliance with the
allocation guidelines since inception of its grant application(s) for funds.




                                              92
Corrective Action:

LEPC complies with STOP grant funds allocation requirements as stated in the OVW solicitation
and outlined in LEPC’s GMPP Manual, page 6, Procedure 1 states that the application will be
developed in accordance with the OJP grant solicitation. At the end of Procedure 3, it is
reiterated that the process will follow the solicitation guidelines. LEPC allocates the funds as per
the guidelines in the solicitation, which reflects the 30% for Victim Services, 5% for the Courts,
25% for Law Enforcement, 25% for Prosecution and 15% Discretionary. The grants cited in this
report were allocated along the solicitation guidelines. Funding for the Victim Services have
consistently been awarded on time because the organizations have always applied. The
governmental agencies have not responded to the RFPs in the same way thus resulting in
multiple years funds being available at the same time.
Late application on the part of the governmental agencies translates into late awards. LEPC does
not have the latitude to allocate the funding in a proportion other than the percentages specified
above. For example, unless there is a change in the requirements and/or unless the grantor
provides written authorization to allocate the 5% for the Courts, to another entity, LEPC must
continue to allocate this percentage to the Courts which may or may not apply (at all or timely)
in order for the allocation to be awarded.

Implementation Date(s): Inception of grant funds

Due Date(s): N/A

Responsible Party(ies): Director, LEPC; Grant Managers, LEPC

FINDING No. 13

LEPC used a third-party fiduciary to administer grant funds for some sub-recipients after OJP
told the LEPC to stop doing so and failed to identify unsupported and unallowable costs
administered by the third-party fiduciary.

RECOMMENDATION Nos. 19, 20 and 21

       No. 19. Remedy $86,127 in unsupported costs associated with subawards administered
       by the St. Croix Foundation, a third-party fiduciary.
       No. 20. Remedy $7,305 in unallowable costs associated with subawards administered by
       the St. Croix Foundation, a third-party fiduciary.
       No. 21. Require LEPC to stop using the St. Croix Foundation or any other third-party
       fiduciary, to administer grant funds.

Government’s Response

LEPC partially concurs with Recommendation Nos. 19, 20 and 21.




                                                93
Corrective Action:

While LEPC previously provided documentation to support expenditures, the additional
information requested will be provided. LEPC has requested the additional supporting
documents from the St. Croix Foundation and will provide the same to OJP.
The expenditures were part of the steps taken to achieve the goal of the program. LEPC will re-
visit St. Croix Foundation files and contact the subrecipient to provide more details that would
explain the use of the funds and make the connection to the program objectives.
The St. Croix Foundation provides accounting services to many of the fledgling community
organizations which help to keep youths away from crime. Many of these small organizations do
not have the human resources to effectively manage federal funds. These fiduciaries bring
accounting and fiscal management experience and knowledge to many of these community-
based programs. Without these third party fiduciaries many of these organizations would find it
very difficult to comply with reporting requirements, and thus may not exist. As requested,
LEPC will, for the upcoming grant cycle avoid the use of third party fiduciaries.

Due Date(s): May 31, 2012 (supporting document)

Responsible Party(ies): Director, LEPC; Grant Managers, LEPC


FINDING No. 14

LEPC did not adequately monitor subrecipients to ensure they met the fiscal and programmatic
requirements of the grants.

RECOMMENDATION Nos. 2, 3, 4 and 6

       No. 2. Ensure LEPC implements procedures to time its drawdown requests to ensure
       that, when required, federal cash-on-hand is the minimum needed for disbursements to be
       made immediately or within 10 days. (Refer to Corrective Action for Finding No. 3)
       No. 3. Ensure LEPC implements procedures to reconcile grant funds drawn down to the
       expenditures recorded in the U.S. Virgin Islands accounting records and the expenditures
       reported by subrecipients and follow up on any differences. (Refer to Corrective Action
       for Finding No. 3)
       No. 4. Ensure LEPC implements a system for tracking the use of any prepaid goods and
       services. (Refer to Corrective Action for Finding No. 8)
       No. 6. Ensure LEPC implements procedures to ensure financial and grant process reports
       are accurate and submitted when due. (Refer to Corrective Action for Finding No. 15)

Government’s Response

LEPC concurs with Recommendation Nos. 2, 3, 4 and 6.




                                              94
Corrective Action:

Refer to Corrective Action for Finding No. 1
Additionally, LEPC will also design, develop and implement a spreadsheet that tracks all
drawdowns and allocates the drawdowns by grant/project code. Specifically containing date of
drawdown, total amount of drawdown, amount of drawdown allocated by grant, interest earned,
and amount of interest allocated to each grant. This spreadsheet will be forwarded to the
Department of Finance, Treasury Division after each drawdown.

Implementation Date(s): October 2011 and ongoing (GMPPM)

Due Date(s): March 31, 2012 (drawdown spreadsheet)

Responsible Party(ies): Director, LEPC; Grant Administrator, Grant Managers,
                        Financial Specialist, Director of Financial Services, LEPC


FINDING No. 15

LEPC submitted financial reports late to OJP.

RECOMMENDATION No. 6

           No. 6. Ensure the LEPC implements procedures to ensure financial and grant progress
           reports are accurate and submitted when due.

Government’s Response

LEPC concurs with Recommendation No. 6.

Corrective Action:

LEPC will institute policies and procedures that will require all Grant Managers and the Fiscal
Office to submit all progress and financial reports in an accurate and timely manner. The Grant
Administrator will be tasked to supervise grant managers on submittal of all reports. This will be
done in their regular meetings. Notices/reminders, when received by the Director, will be
forwarded to the Grant Managers and copied to the Grant Administrator. This policy will be
implemented within ninety (90) days.

Due Date(s): May 3, 2012 (grant reporting policy)

Responsible Party(ies): Director, LEPC; Grant Administrator, Grant Managers, Financial
                        Staff, LEPC




                                                95
FINDING No. 16

LEPC submitted incorrect Recovery Act reports to Federal Reporting.gov.

RECOMMENDATION No. 7

       7. Ensure LEPC implements procedures to ensure it submits accurate Recovery Act
          reports.
Government’s Response

LEPC concurs with Recommendation No. 7.

Corrective Action:

Policies and procedures which will ensure accurate reporting on Recovery Act grants will be
written and implemented by March 31, 2012. The enforcement of these policies will be handled
the same way as the policies for other LEPC grants. At this time the Office of Economic
Opportunities (OEO), in the Office of the Governor, also participates in the reporting process of
the Recovery Act funds. Grant Administrator will ensure that Grant Managers submit accurate
and timely reports.

Additionally, LEPC will also design, develop and implement a spreadsheet that tracks all
drawdowns and allocates the drawdowns by grant/project code. Specifically containing date of
drawdown, total amount of drawdown, amount of drawdown allocated by grant, interest earned,
and amount of interest allocated to each grant. This spreadsheet will be forwarded to the
Department of Finance, Treasury Division after each drawdown.

Due date(s): March 31, 2012 (Recovery reporting policy)

Responsible Party(ies): Director, LEPC; Grant Administrator, Grant Managers, LEPC


FINDING No. 17

LEPC did not assess, and had no procedures to assess, whether subrecipients were meeting the
goals and objectives of the grants.

RECOMMENDATION No. 8

       No. 8. Ensure LEPC implements procedures requiring subrecipients to identify, track,
       and report on the progress toward achieving measurable grant goals and objectives.

Government’s Response

LEPC does not concur with Recommendations No. 8.


                                              96
Corrective Action:
Refer to Corrective Action for Finding No. 1.
LEPC has had unwritten policies which required that subrecipients report periodically on the
progress of their programs as outlined in their grant applications. LEPC now has written policies
and procedures which pertain to the tracking and reporting on the progress of goals and
objectives of all programs funded through LEPC. See pages 15 No. 3, 16 (e), and 22 of the
GMPPM. These will be monitored by the Grant Managers through the reporting process and site
visits. Grant Administrator will ensure that all Grant Managers monitor on a quarterly basis.

Implementation Date(s): Pre 2011? (informal policies) October 2011 (GMPPM)

Responsible Party(ies): Director, LEPC; Grant Managers, LEPC




                                              97
                                                                APPENDIX 10

                    OFFICE OF JUSTICE PROGRAMS
                   RESPONSE TO THE DRAFT REPORT


                                       U.S. Department of Justice

                                       Office of Justice Programs

                                      Office of Audit, Assessment, and Management



                                      Washington, D.C. 20531




SUBJECT:	              Response to the Draft Audit Report, Audit of
                       Management of U.S. Department of Justice Grants
                       Awarded to the U.S. Virgin Islands Law Enforcement
                       Planning Commission by the Office of Justice
                       Programs and the Office on Violence Against Women

The Office of Justice Programs (OJP) appreciates the opportunity to review
and comment on the Office of the Inspector General’s (OIG’s) draft report,
entitled “Audit of Management of U.S. Department of Justice Grants Awarded
to the U.S. Virgin Islands Law Enforcement Planning Commission by the
Office of Justice Programs and the Office on Violence Against Women,” dated
December 14, 2011. We consider the subject report resolved and request
written acceptance of this action from your office.

In fiscal year (FY) 2010, the U.S. Virgin Islands Law Enforcement Planning
Commission (LEPC) was designated as a high-risk grantee by the U.S.

                                     98

Department of Justice (DOJ). As a result, new awards from the DOJ to the
LEPC have contained special conditions that provide additional oversight as
necessary, and restrict the LEPC from obligating, expending, or drawing
down under the new awards from the DOJ. The additional special award
conditions will remain in effect until the LEPC has documented substantial
progress toward addressing the significant unresolved findings cited in a
February 2010 programmatic and financial monitoring review, completed by
OJP’s Office of Juvenile Justice and Delinquency Prevention and the Office of
the Chief Financial Officer (OCFO).

Further, in FY 2012, OJP will be conducting on-site financial and
programmatic monitoring of DOJ grants awarded to the LEPC.
The report contains 25 recommendations and $2,173,159 in questioned
costs, of which 21 recommendations and $1,325,606 in questioned costs
are directed to OJP. The following is OJP’s analysis of the draft audit report
recommendations. For ease of review, the recommendations are restated in
bold and are followed by our response.

1.    We recommend that OJP and OVW ensure that the LEPC has adequate staff with
      the training and experience to administer the grants.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of implemented policies and procedures, for ensuring
      that adequate staff are assigned to administer Federal grants; and
      they are properly qualified and trained to perform the work.

2.    We recommend that OJP and OVW ensure that the LEPC implements procedures
      to time its drawdown requests so that Federal cash-on-hand is the minimum needed
      for disbursements to be made immediately or within 10 days.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of procedures implemented to ensure that drawdown
      requests are timed so that Federal cash-on-hand is the minimum
      needed for disbursements to be made immediately or within 10 days.

3.    We recommend that OJP and OVW ensure that the LEPC implements procedures
      to reconcile grant funds drawn down to the expenditures recorded in the U.S. Virgin
      Islands accounting records and the expenditures reported by subrecipients, and
      follow up on any differences.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of procedures implemented to ensure that grant funds
      drawn down are reconciled to the expenditures recorded in the U.S.
      Virgin Islands accounting records, and those amounts reported by


                                          99
     subgrantees; and that any differences are investigated and corrected,
     as appropriate.

4.   We recommend that OJP and OVW ensure that the LEPC implements a system for
     tracking the use of any prepaid goods and services.

     We agree with the recommendation. We will coordinate with the LEPC
     to obtain a copy of procedures implemented to ensure that a system
     for tracking the use of any prepaid goods and services is created and
     maintained.

5.   We recommend that OJP and OVW ensure that the LEPC implements a grant
     solicitation and awards process that ensures fair and open competition for grant
     funds.

     We agree with the recommendation. We will coordinate with the LEPC
     to obtain a copy of procedures implemented to ensure that a grant
     solicitation and awards process is administered, so that there will be
     fair and open competition for grant funds.

6.   We recommend that OJP and OVW ensure that the LEPC implements procedures
     to ensure financial and grant progress reports are accurate and submitted when
     due.

     We agree with the recommendation. We will coordinate with the LEPC
     to obtain a copy of procedures implemented to ensure that financial
     and grant progress reports are accurate and timely submitted.

7.   We recommend that OJP and OVW ensure that the LEPC implements procedures
     to ensure it submits accurate Recovery Act reports.

     We agree with the recommendation. We will coordinate with the LEPC
     to obtain a copy of procedures implemented to ensure that Recovery
     Act reports are accurate.

8.   We recommend that OJP and OVW ensure that the LEPC implements procedures
     requiring subrecipients to identify, track, and report on the progress towards
     achieving measureable grant goals and objectives.

     We agree with the recommendation. We will coordinate with the LEPC
     to obtain a copy of procedures implemented to ensure that
     subrecipients identify, track, and report on their progress in achieving
     measurable grant goals and objectives.

9.   We recommend that OJP ensure that DOJ grant funds are not commingled with

                                         100
      funds from other sources.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of procedures implemented to ensure that DOJ grant
      funds are not commingled with funds from other sources.

10.   We recommend that OJP remedy the $600,542 in grant fund drawdowns that are
      unaccounted for.

      We agree with the recommendation. We will coordinate with the LEPC
      to remedy the $600,542 in questioned costs related to unsubstantiated
      grant fund drawdowns.

11.   We recommend that OJP ensure that the LEPC: (a) establishes a bank account to
      deposit all funds drawn down from U.S. Department of Justice (DOJ) grants only;
      (b) implements appropriate accounting procedures to separately track grant fund
      balances; and (c) periodically reconciles each grant balance to the bank account.

      We agree with the recommendation. We will coordinate with the LEPC
      to ensure they develop and implement procedures for: (a) establishing
      a separate bank account exclusively for U.S. Department of Justice
      (DOJ) grant funds; (b) establishing appropriate accounting procedures
      to separately track grant fund balances; and (c) periodically
      reconciling each grant balance to the bank account.

12.   We recommend that OJP de-obligate and put to better use the $134,261 in grant
      funds for OJP grants that have expired.

      We agree with the recommendation. The OCFO de-obligated the
      remaining grant funds that had expired for the following awards:
      2006-JB-FX-0041, 2006-JF-FX-0060, 2007-JB-FX-0076, 2007-JF-FX-
      0063, 2008-AH-FX-0065, and 2008-JP-FX-0061 (see Attachment).
      The Office of Justice Programs requests closure of this
      recommendation.

13.   We recommend that OJP ensure that the LEPC establishes procedures to identify
      income from grant funds and programs, and ensure the funds are used for grant
      purposes.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of procedures implemented to ensure that income
      earned on grant funds and programs is easily identified; used only for
      grant purposes; and properly reported to OJP.

14.   We recommend that OJP ensure that the LEPC allocates the $43,503 in interest

                                         101
      earned on the FY 2009 Byrne JAG Recovery Act funds and uses the funds for grant
      purposes or return the funds to the DOJ.

      We agree with the recommendation. We will coordinate with the LEPC
      to ensure that interest earned on its FY 2009 Byrne JAG Recovery Act
      award is properly allocated and used toward meeting the objectives of
      the grant; or we will request that LEPC return the funds to the DOJ.

15.   We recommend that OJP remedy the $160,546 in excess administrative costs
      charged to the grants.

      We agree with the recommendation. We will coordinate with the LEPC
      to remedy the $160,546 in questioned costs related to excess
      administrative costs charged to grant numbers 2006-DJ-BX-0093
      ($54,307), 2007-VA-GX-0031($2,167), 2008-AH-FX-0065 ($32,229),
      2008-DJ-BX-0055 ($23,804), and 2008-VA-GX-0030 ($48,039).

16.   We recommend that OJP remedy the $286,534 in unsupported costs associated with
      subawards administered by the LEPC.

      We agree with the recommendation. We will coordinate with the LEPC
      to remedy the $286,534 in questioned costs related to subawards
      administered by the LEPC charged to grant numbers 2006-DJ-BX-0093
      ($39,906), 2008-DJ-BX-0055 ($50,384), 2008-VA-GX-0030
      ($180,327), and 2009-SG-B9-0119 ($15,917).

17.   We recommend that OJP remedy the $6,789 in unallowable costs associated with
      subawards administered by the LEPC.

      We agree with the recommendation. We will coordinate with the LEPC
      to remedy the $6,789 in unallowable subgrantee costs charged to
      grant number 2008-DJ-BX-0055.

18.   We recommend that OJP ensure that the LEPC implements procedures to ensure it
      only reimburses subrecipients for costs that are allowable and supported by
      adequate documentation such as timesheets for personnel costs, invoices, purchase
      orders, contracts, and receipts.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of procedures implemented to ensure that
      subrecipients are only reimbursed for costs that are allowable, and
      supported by adequate documentation.

19.   We recommend that OJP remedy the $86,127 in unsupported costs associated with
      subawards administered by the St. Croix Foundation, a third-party fiduciary.

                                         102
      We agree with the recommendation. We will coordinate with the LEPC
      to remedy the $86,127 in unsupported costs charged to grant
      numbers 2008-DJ-BX-0055 ($3,848), 2009-DJ-BX-1097 ($63,640),
      and 2009-SG-B9-0119 ($18,639), associated with subawards
      administered by the St. Croix Foundation.

20.   We recommend that OJP remedy the $7,305 in unallowable costs associated with
      subawards administered by the St. Croix Foundation, a third-party fiduciary.

      We agree with the recommendation. We will coordinate with the LEPC
      to remedy the $7,305 in unallowable costs charged to grant number
      2009-DJ-BX-1097, associated with subawards administered by the St.
      Croix Foundation.

21.   We recommend that OJP require the LEPC to stop using the St. Croix Foundation
      or any other third-party fiduciary, to administer grant funds.

      We agree with the recommendation. We will coordinate with the LEPC
      to obtain a copy of procedures implemented to ensure that LEPC
      discontinues using a third-party fiduciary to administer grant funds.

We appreciate the opportunity to review and comment on the draft audit
report. If you have any questions or require additional information, please
contact Jeffery A. Haley, Deputy Director, Audit and Review Division, on
(202) 616-2936.

cc:   Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Denise O’Donnell
      Director
      Bureau of Justice Assistance

      Tracey Trautman
      Acting Deputy Director for Programs
      Bureau of Justice Assistance

      Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance




                                        103
      Gerard Ramker
      Chief, Criminal Justice Data Improvement Program
      Bureau of Justice Statistics

      Melodee Hanes
      Acting Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Marilyn Roberts
      Deputy Administrator
      Office of Juvenile Justice and Delinquency Prevention

      Joye E. Frost
      Acting Director
      Office for Victims of Crime

      James Cantrall
      Deputy Director
      Office for Victims of Crime

      Dennis Greenhouse
      Deputy Director
      Office for Victims of Crime



cc:   Susan B. Carbon
      Director
      Office on Violence Against Women

      Rodney Samuels
      Audit Liaison
      Office on Violence Against Women

      Louise Duhamel, Ph.D.
      Acting Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20111980




                                    104
                                                           APPENDIX 11

                OFFICE ON VIOLENCE AGAINST WOMEN
                  RESPONSE TO THE DRAFT REPORT


                                                    February 16, 2012

MEMORANDUM


TO:              Ferris Polk
                 Regional Audit Manager
                 Atlanta Regional Audit Office

FROM:            Susan B. Carbon
                 Director
                 Office on Violence Against Women

                 Rodney Samuels
                 Audit Liaison/Staff Accountant
                 Office on Violence Against Women

SUBJECT:         Audit of Management of DOJ grants awarded to the U.S.
                 Virgin Islands Law Enforcement Planning Commission
                 (LEPC) by the Office of Justice Programs and the Office on
                 Violence Against Women


This memorandum is in response to your correspondence dated September
2011 transmitting the above draft audit report for LEPC. We consider the
subject report resolved and request written acceptance of this action from
your office.

The report contains twenty-five recommendations, of which
recommendations 22-25 are directed to the Office on Violence Against
Women (OVW). The recommendations directed to OVW include $375,497
in unsupported costs and $472,056 in funds to be de-obligated. The Office
on Violence Against Women (OVW) is committed to working with the grantee
to address each recommendation and bring them to a close as quickly as
possible. The following is an analysis of the audit recommendations:

  22.   Remedy the $372,434 in OVW grant fund drawdowns that
        are unaccounted for.

                                    105
            We agree with this recommendation. We will work with the grantee
            to remedy the $372,434 in OVW grant fund drawdown’s that are
            unaccounted for.

      23.   De-obligate $472,056 in OVW grant funds that have expired.

            After review of the OIG Report referenced above and the LEPC
            response to the report, OVW does agree and believes that it is
            imperative that each grantee provides documentation to support
            any fund expenditures received from OVW. Although the grantee
            only partially agrees with this recommendation, we will work with
            the grantee to de-obligate and/or provide any documentation to
            remedy the entire $472,056 in grant funds that have expired.

      24.   Remedy $3,063 in OVW grant funds spent on airline tickets
            for inter-island travel, which expired without being used.

            We agree with this recommendation. We will work with the grantee
            to remedy the $3,063 in OVW grant funds spent on airline tickets
            for inter-island travel, which expired without being used.

      25.   Ensure the LEPC implements procedures to ensure it
            complies with STOP grant fund allocation requirements.

             After review of the OIG Report referenced above and the LEPC
            response to the report, OVW does agree and believes that it is
            imperative that each grantee provides documentation to support
            any recommendations that relate to policy issues. Although the
            grantee did not concur with the recommendation, we will work with
            the grantee to receive documentation that ensures that they have
            implement procedures to ensure it complies with STOP grant fund
            allocation requirements.

We appreciate the opportunity to review and comment on this report. We
will continue to work with LEPC to address the open recommendations. If
you have any questions or require additional information, please contact
Rodney Samuels of my staff at (202) 514-9820.

cc:     Louise M. Duhamel, Ph.D.
        Acting Assistance Director
        Audit Liaison Group
        Justice Management Division


                                       106
Angela Wood
Budget Officer
Office on Violence Against Women

Omar Mohammed
Program Specialist
Office on Violence Against Women




                            107
                                                              APPENDIX 12

   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
          OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the U.S. Virgin Islands
Law Enforcement Planning Commission (LEPC), the Office of Justice
Programs (OJP), and the Office on Violence Against Women (OVW). The
LEPC’s response is incorporated in Appendix 9. OJP’s response is
incorporated in Appendix 10 and the OVW’s response is incorporated in
Appendix 11. The report contains 21 recommendations addressed to OJP
and 4 recommendations addressed to OVW. Subsequent to the issuance of
the draft report we made technical changes to the report that had no effect
on our findings or recommendations.

Analysis of the LEPC’s Response to the Draft Report

      The LEPC concurred with 14 recommendations, partially concurred
with 8 recommendations, and did not concur with 3 recommendations.

      The LEPC stated that it did not concur with Recommendation Number 5
because it followed U.S. Virgin Islands code which demands transparency
and fairness in the awarding of monies. The LEPC stated that it did not
concur with Recommendation Number 8 because it now has written policies
requiring subrecipients to identify, track, and report on grant goals and
accomplishments. The LEPC stated that it did not concur with
Recommendation Number 25 because it has been in compliance with OVW
grant fund allocation requirements since the inception of its grants. We
disagree with the LEPC’s reasons for non-concurrence with all three of these
recommendations. The reasons we disagree are explained under each
recommendation. We resolved these three recommendations based on
OJP’s and OVW’s concurrence with the recommendations.

       Along with its response to the draft report, the LEPC provided an
electronic copy of its Procedures Manual for the Law Enforcement Planning
Commission, dated October 1, 2011. Subsequent to its response to the
draft report the LEPC sent us copies of newly implemented policies and
procedures, and we forwarded those materials to OJP and OVW. We
considered the additional materials in analyzing the LEPC’s response to
recommendations, but OJP and OVW did not have the additional materials
for consideration in their responses. Our analysis of the responses to each
recommendation is discussed below under Summary of Actions Necessary to
Close the Report.


                                     108
Analysis of OJP’s and OVW’s Responses to the Draft Report

     In its response to the draft report, OJP concurred with the 21
recommendations addressed to OJP and stated that it would work with the
LEPC to close each recommendation.

      In its response to the draft report, OVW concurred with the four
recommendations addressed to OVW and stated that it would work with the
LEPC to close the recommendations. The following provides the OIG’s
analysis of the responses to the draft report and summary of actions
necessary to close the report.

Summary of Actions Necessary to Close the Report

      Recommendation Number

 1.   Resolved. We recommended that OJP ensure the LEPC has adequate
      staff with the training and experience to administer the grants. The
      LEPC concurred with our recommendation and stated that some LEPC
      staff had received DOJ grant training and additional LEPC staff will
      complete grant training within 90 days. OJP concurred with our
      recommendation and stated that it will coordinate with the LEPC to
      obtain a copy of its procedures for ensuring it has adequate staff with
      the training and experience to manage the grants. This
      recommendation is resolved based on the LEPC’s and OJP’s agreement
      to take appropriate corrective action. The recommendation can be
      closed when we review documentation showing all LEPC staff,
      including the LEPC’s Director of Financial Management Services,
      received DOJ grant training.

 2.   Resolved. We recommended that OJP ensure the LEPC implements
      procedures to time its drawdown requests to ensure that, when
      required, federal cash-on-hand is the minimum needed for
      disbursements to be made immediately or within 10 days. The LEPC
      concurred with our recommendation and provided a copy of
      procedures it has implemented. OJP concurred with our
      recommendation and stated that it will coordinate with the LEPC to
      implement these corrective actions. This recommendation is resolved
      based on the LEPC’s and OJP’s agreement to take appropriate
      corrective action. The recommendation can be closed when OJP
      agrees with the LEPC’s procedures.

 3.   Resolved. We recommended that OJP ensure the LEPC implements
      procedures to reconcile grant funds drawn down to the expenditures

                                    109
     recorded in the U.S. Virgin Islands accounting records and by
     subrecipients and follow up on any differences. The LEPC concurred
     with our recommendation and provided a copy of procedures it
     implemented to address this recommendation. OJP concurred with our
     recommendation and said it would coordinate with the LEPC to obtain
     a copy of procedures it has implemented. This recommendation is
     resolved based on the LEPC’s and OJP’s agreement to take appropriate
     corrective action. The recommendation can be closed when OJP
     agrees that the LEPC has implemented appropriate procedures.

4.   Resolved. We recommended that OJP ensure the LEPC implements a
     system for tracking the use of any prepaid goods and services. In its
     initial response to the draft report, the LEPC concurred with our
     recommendation but did not explain its planned corrective actions.
     OJP concurred with our recommendation and stated that it will
     coordinate with the LEPC to obtain a copy of procedures implemented
     to ensure that a system for tracking the use of any prepaid goods and
     services is created and maintained. Subsequent to its initial response
     to the draft report, the LEPC provided us with a copy of its policies for
     tracking prepaid goods and services. This recommendation is resolved
     based on the LEPC’s and OJP’s agreement to take appropriate
     corrective action. The recommendation can be closed when OJP
     agrees that the LEPC has implemented appropriate procedures.

5.   Resolved. We recommended that OJP ensure the LEPC implements a
     grant solicitation and awards process that ensures fair and open
     competition for grant funds. The LEPC did not concur with our
     recommendation and stated that it follows Virgin Islands Code Title 31,
     Section 231-239, which demands transparency and fairness in the
     awarding of funds flowing through the U.S. Virgin Islands Government,
     and it will publicly advertise and maintain documentation on all grant
     solicitations.

     We disagree that the LEPC has achieved transparency and fairness in
     making award decisions for the following reasons. For the 2006, 2008,
     and 2009 Byrne JAG grants, the LEPC made only 3 of 58 subawards
     (5.2 percent) to government agencies. LEPC staff told us they used
     scoring sheets to decide which applicants received subawards and
     after the awards were made the scoring sheets were discarded. LEPC
     staff also told us the former LEPC Director made all the final award
     decisions. The former LEPC Director told us he favored awarding the
     funds to non-profit organizations for crime prevention programs, which
     is recognized as an acceptable use of Byrne JAG funds. During our
     audit, two government officials told us they were concerned about the

                                    110
     LEPC’s awards process because they were not always aware the LEPC
     was seeking applications for grant funding and, at other times, when
     they applied for funding they received the funds late or not at all.
     Finally, during budget hearings, a U.S. Virgin Islands Senator
     questioned the former LEPC Director about how grant funds were
     being used. Based on our audit, it appears the LEPC’s awards process
     was not fair, competitive, and transparent. OJP concurred with our
     recommendation and stated that it will coordinate with the LEPC to
     obtain a copy of its procedures that ensure it maintains fair and open
     competition for grant funds.

     Along with its response to the draft report, the LEPC provided a copy
     of its recently implemented procedures pertaining to its subgrant
     solicitation and awards process. However, the LEPC’s procedures do
     not state that the LEPC must retain copies of the scoring sheet forms
     used to evaluate all grant funding applications or a process for
     grantees to appeal the LEPC’s decisions when applications are denied.

     This recommendation is resolved based on OJP’s agreement to take
     appropriate corrective action. The recommendation can be closed
     when we review procedures that ensure fair and open competition for
     grant funds.

6.   Resolved. We recommended that OJP ensure the LEPC implements
     procedures to ensure financial and grant progress reports are accurate
     and submitted when due. The LEPC concurred with our
     recommendation and stated that it will institute policies and
     procedures to ensure accurate and timely reports. OJP concurred with
     the recommendation and stated that it will coordinate with the LEPC to
     obtain a copy of procedures implemented to ensure that financial and
     grant progress reports are accurate and submitted timely. This
     recommendation is resolved based on the LEPC’s and OJP’s agreement
     to take appropriate corrective action. The recommendation can be
     closed when we review the LEPC’s procedures that ensure it submits
     accurate and timely financial and grant progress reports to OJP.

7.   Resolved. We recommended that OJP ensure the LEPC implements
     procedures to ensure it submits accurate Recovery Act reports. The
     LEPC concurred with this recommendation and stated that by
     March 31, 2012, it will implement policies and procedures to ensure
     accurate reporting of Recovery Act grants. OJP concurred with our
     recommendation and stated that it will coordinate with the LEPC to
     obtain a copy of its procedures implemented to ensure that Recovery


                                   111
     Act reports are accurate. This recommendation is resolved based on
     the LEPC’s and OJP’s agreement to take appropriate corrective action.
     The recommendation can be closed when we review the LEPC’s
     procedures that ensure it submits accurate Recovery Act reports.

8.   Resolved. We recommended that OJP ensure the LEPC implements
     procedures requiring subrecipients to identify, track, and report on the
     progress towards achieving measureable grant goals and objectives.
     The LEPC did not concur with this recommendation and stated that it
     had unwritten policies requiring subrecipients to periodically report on
     the progress of their programs. Despite the LEPC’s non-concurrence
     with our recommendation, it provided written procedures requiring
     subrecipients to periodically measure and assess progress towards
     project goals and objectives. OJP concurred with the recommendation
     and stated that it will coordinate with the LEPC to obtain a copy of the
     procedures implemented to address this recommendation. This
     recommendation is resolved based on the LEPC’s and OJP’s agreement
     to take appropriate corrective action. The recommendation can be
     closed when OJP agrees that the LEPC has implemented appropriate
     procedures.

9.   Resolved. We recommended that OJP ensure DOJ grant funds are
     not commingled with funds from other sources. We advised the LEPC
     to establish a bank account for DOJ non-Recovery Act grants. The
     LEPC concurred with this recommendation and stated that it had
     previously obtained separate accounts for all DOJ grants through the
     Department of Finance and this caused the commingling of funds, but
     it agreed to establish a separate bank account for all DOJ non-
     Recovery Act grants.

     OJP concurred with our recommendation and stated that it would
     coordinate with the LEPC to obtain a copy of the procedures
     implemented to address this recommendation. This recommendation
     is resolved based on OJP’s agreement. The recommendation can be
     closed when we review documentation showing that the LEPC
     established a separate bank account for all DOJ non-Recovery Act
     grants.

10. Resolved. We recommended that OJP remedy the $600,542 in grant
    drawdowns that are unaccounted for. The LEPC concurred with this
    recommendation and stated that it will work with the Department of
    Finance to retrieve accounting records showing these funds were
    expended. OJP concurred with the recommendation and indicated that
    it will coordinate with the LEPC to remedy the $600,542 in grant funds

                                    112
    that are unaccounted for. This recommendation is resolved based on
    the LEPC’s and OJP’s agreement to remedy the questioned costs. The
    recommendation can be closed when the $600,542 in unaccounted for
    grant funds has been remedied.

11. Resolved. We recommended that OJP ensure the LEPC:
    (a) establishes a bank account to deposit all funds drawn down from
    DOJ non-Recovery Act grants; (b) implements appropriate accounting
    procedures to separately track grant fund balances; and
    (c) periodically reconciles each grant balance to the bank account.
    The LEPC concurred with this recommendation and stated that it will
    establish a bank account for all DOJ non-Recovery Act grant funds and
    it will track grant drawdowns from each grant in an electronic
    spreadsheet. However, the LEPC’s response did not address the
    portion of our recommendation that it periodically reconcile each grant
    balance to the bank account. OJP concurred with our recommendation
    and stated that it would coordinate with the LEPC to ensure they
    develop and implement the procedures for this recommendation. This
    recommendation is resolved based on OJP’s agreement to take
    appropriate corrective action. The recommendation can be closed
    when we review documentation showing that the LEPC:
    (a) established a separate bank account to deposit all DOJ non-
    Recovery Act grant funds, (b) implemented a system to separately
    track grant fund balances, and (c) implemented procedures to
    periodically reconcile grant fund drawdowns to the bank account.

12. Closed. We recommended that OJP deobligate $134,261 in grant
    funds for OJP grants that had expired. The LEPC partially concurred
    with this recommendation and stated that for some of these grants it
    has incurred grant expenses. The LEPC planned to request permission
    to draw down the funds. However, for all of these grants, the period
    for liquidating grant expenditures had expired. Further, for some of
    these grants, the LEPC had already drawn down more grant funds that
    it had in grant expenditures according to its accounting records. OJP
    concurred with our recommendation and, subsequent to the issuance
    of the draft report, OJP deobligated the $134,261 in unspent funds.
    The recommendation is closed based on documentation showing OJP
    deobligated the $134,261 in unspent grant funds.

13. Resolved. We recommended that OJP ensure the LEPC establishes
    procedures to identify income from grant funds and programs and
    ensure the funds are used for grant purposes. The LEPC concurred
    with this recommendation and stated that it is working with the


                                   113
    Virgin Islands Department of Finance to track income from grant funds
    and will use a spreadsheet to track and allocate the income by grant
    project code. OJP concurred with our recommendation and stated that
    it will coordinate with the LEPC to obtain a copy of the procedures the
    LEPC implemented. This recommendation is resolved based on the
    LEPC’s and OJP’s agreement to take appropriate corrective action. The
    recommendation can be closed when we review the LEPC’s procedures
    for identifying income from grant funds and programs and ensuring
    the funds are used for grant purposes.

14. Resolved. We recommended that OJP ensure the LEPC allocates the
    $43,503 in interest earned on the FY 2009 Byrne JAG Recovery Act
    funds and uses the funds for grant purposes or returns the funds to
    the DOJ. The LEPC concurred with this recommendation and stated
    that it will use the $43,503 in interest earned for grant purposes. OJP
    concurred with the recommendation and stated that it will coordinate
    with the LEPC to ensure that the interest is allocated to the grant and
    used for grant purposes or returned to the DOJ. This recommendation
    is resolved based on the LEPC’s and OJP’s agreement to take
    appropriate corrective action. The recommendation can be closed
    when we review documentation showing that $43,503 in interest
    earned on the FY 2009 Byrne JAG grant funds is allocated to the grant
    and used for grant purposes or the $43,503 is returned to the DOJ.

15. Resolved. We recommended that OJP remedy $160,546 in excess
    administrative costs the LEPC charged to the grants. The LEPC
    partially concurred with this recommendation. In its response to the
    draft report, the LEPC stated that $24,375 of $160,546 in excess
    administrative costs was for professional services rendered by the
    St. Croix Foundation and it will provide support for those costs
    separately and work with the Virgin Islands Department of Finance to
    remedy the charges made to the other grants. However, all $160,546
    of these costs are unallowable because they exceeded the maximum
    amount of administrative costs allowed by these grants. OJP had
    notified the LEPC in June 2007 to stop using a third-party fiduciary to
    administer grants. The $24,375 is from a 2008 grant. The LEPC
    stated that it will work with the Virgin Islands Department of Finance
    to make the necessary adjustments to remedy the charges and
    provide documentation to OJP. OJP concurred with the
    recommendation and stated that it will work with the LEPC to remedy
    the $160,546. This recommendation is resolved based on OJP’s
    agreement to remedy the questioned costs. The recommendation can
    be closed when $160,546 in excess administrative costs has been
    remedied.

                                   114
16. Resolved. We recommended that OJP remedy $286,533 in
    unsupported costs associated with grant funds administered by the
    LEPC. The LEPC partially concurred with this recommendation and
    stated that it has begun reviewing its files and has contacted
    subrecipients to obtain additional documents. OJP concurred with the
    recommendation and stated that it will coordinate with the LEPC to
    remedy the $286,533. This recommendation is resolved based on
    OJP’s agreement to remedy the questioned costs. The
    recommendation can be closed when the $286,533 in unsupported
    subrecipient expenditures has been remedied.

17. Resolved. We recommended that OJP remedy $6,789 in unallowable
    costs associated with grant funds administered by the LEPC. The LEPC
    partially concurred with this recommendation and stated that it will
    review its files and contact the subrecipient for additional details about
    these costs. OJP concurred with the recommendation and stated that
    it will coordinate with the LEPC to remedy the $6,789 in unallowable
    costs. This recommendation is resolved based on OJP’s agreement to
    remedy the questioned costs. The recommendation can be closed
    when the $6,789 in unallowable costs has been remedied.

18. Resolved. We recommended that OJP ensure the LEPC implements
    procedures to reimburse subrecipients only for costs that are allowable
    and supported by adequate documentation such as timesheets for
    personnel costs, invoices, purchase orders, contracts, and receipts.
    The LEPC concurred with this recommendation and stated that it will
    implement policies and procedures to ensure subrecipients’ costs are
    adequately supported. OJP concurred with the recommendation and
    stated that it will coordinate with the LEPC to obtain a copy of the
    LEPC’s procedures. This recommendation is resolved based on the
    LEPC’s and OJP’s agreement to take appropriate corrective action. The
    recommendation can be closed when we review the LEPC’s procedures
    that ensure subrecipient expenditures are supported by adequate
    documentation.

19. Resolved. We recommended that OJP remedy $86,127 in
    unsupported costs associated with grant funds administered by a
    third-party fiduciary, the St. Croix Foundation. The LEPC partially
    concurred with this recommendation and stated that it will provide
    additional documentation to remedy the $86,127. OJP concurred with
    the recommendation and stated that it will coordinate with the LEPC to
    remedy these questioned costs. This recommendation is resolved
    based on OJP’s agreement to remedy the questioned costs. The

                                    115
    recommendation can be closed when $86,127 in unsupported costs
    administered by the St. Croix Foundation has been remedied.

20. Resolved. We recommended that OJP remedy $7,305 in unallowable
    costs associated with grant funds administered by a third-party
    fiduciary, the St. Croix Foundation. The LEPC partially concurred with
    this recommendation and stated that it will review the St. Croix
    Foundation’s files and contact the subrecipient to obtain more details
    about the $7,305 in unallowable costs charged to grant funds. OJP
    concurred with the recommendation and stated that it will coordinate
    with the LEPC to remedy the questioned costs. This recommendation
    is resolved based on OJP’s agreement to remedy the questioned costs.
    The recommendation can be closed when $7,305 in unallowable costs
    charged to grant 2009-DJ-BX-1097 has been remedied.

21. Resolved. We recommended that OJP require the LEPC to stop using
    the St. Croix Foundation, or any other third-party fiduciary, to
    administer DOJ grant funds. The LEPC partially concurred with this
    recommendation and stated that it will avoid using third-party
    fiduciaries “for the upcoming grant cycle.” The LEPC stated that the
    St. Croix Foundation provides accounting services to many fledgling
    community organizations that do not have the human resources to
    effectively manage federal funds. The LEPC also stated that without
    third-party fiduciaries, many of these organizations would find it
    difficult to comply with reporting requirements, and thus may not
    exist.

    We disagree with the LEPC’s response pertaining to when it plans to
    stop using third-party fiduciaries. The LEPC should not just avoid
    using the St. Croix Foundation for the upcoming grant cycle, but
    should stop using “any third-party fiduciary” to administer DOJ grants
    “without OJP approval.” The funds were awarded to the LEPC to
    administer, not to a third-party fiduciary. The LEPC is also the state
    administering agency for DOJ grants and is responsible for overseeing
    subrecipients’ finances, ensuring they meet program goals and
    objectives, and submitting any required reports. We found that 48
    percent of grant funds administered by the St. Croix Foundation that
    we tested, were spent on unallowable costs or were not adequately
    supported by timesheets, invoices, receipts, or other documents.
    Financial auditors also found that the St. Croix Foundation did not
    adequately manage federal funds.

    OJP concurred with the recommendation and stated that it will
    coordinate with the LEPC to obtain a copy of its procedures

                                  116
    implemented to ensure that the LEPC stops using the third-party
    fiduciary to administer the grant funds. This recommendation is
    resolved based on OJP’s agreement to take appropriate corrective
    action. The recommendation can be closed when we review
    documentation showing the LEPC has stopped using a third-party
    fiduciary to administer DOJ grant funds without OJP approval.

22. Resolved. We recommended that OVW remedy $372,434 in OVW
    grant fund drawdowns that are unaccounted for. The LEPC concurred
    with this recommendation and stated that at the time of the audit the
    documents for these outstanding amounts were not readily available
    and that the LEPC will work with the Department of Finance to retrieve
    the accounting records. However, several times during the audit we
    asked for the accounting records to support these costs but none were
    ever provided to us. OVW concurred with the recommendation and
    stated that it will work with the LEPC to remedy the questioned costs.
    This recommendation is resolved based on OVW’s agreement to
    remedy the questioned costs. The recommendation can be closed
    when the $372,434 in unaccounted for grant funds has been
    remedied.

23. Resolved. We recommended that OVW deobligate $472,056 in grant
    funds that have expired. The LEPC partially concurred with this
    recommendation and stated that it will submit documents to support
    $472,056 in expenditures by subgrantees and request a waiver from
    the Office of the Chief Financial Officer so that the LEPC can access the
    expired grant funds. However, according to the OJP Financial Guide,
    grant recipients have 90 days from the end date of the grant to draw
    down funds for any costs obligated during the grant award period.
    Any funds not drawn down within 90 days after the end of the award
    period revert to the awarding agency. For Grant Number
    2006-WF-AX-0019, the LEPC had until September 28, 2009, to draw
    down the remaining $190,431. For Grant Number 2007-WF-AX-0053,
    the LEPC had until February 28, 2010, to draw down the remaining
    $281,625. OVW concurred with our recommendation and stated that
    it will work with the LEPC to deobligate or provide documents to
    remedy the $472,056. This recommendation is resolved based on
    OVW’s agreement to take appropriate corrective action. The
    recommendation can be closed when the $472,056 has been
    deobligated.

24. Resolved. We recommended that OVW remedy $3,063 in grant funds
    spent on airline tickets for inter-island travel, which expired without
    being used. The LEPC concurred with the recommendation and stated

                                   117
    that it will implement procedures to improve the tracking of pre-paid
    airline tickets. OVW concurred with the recommendation and stated
    that it will work with the LEPC to remedy the questioned costs. This
    recommendation is resolved based on OVW’s agreement to remedy the
    questioned costs. The recommendation can be closed when the
    $3,063 has been remedied.

25. Resolved. We recommended that OVW ensure the LEPC implements
    procedures complying with Services, Training, Officers, and
    Prosecutors (STOP) grant fund allocation requirements. The LEPC
    stated that it did not concur with the recommendation and has been in
    compliance with allocation guidelines. However, as explained on page
    41, the LEPC had not allocated any grant funds for courts for the 2007,
    2008, 2009, or 2010 grants; had not allocated any funds for law
    enforcement for the 2008, 2009, or 2010 grants; and had not
    allocated any funds for prosecution for the 2009 and 2010 grants. The
    minimum required allocation of STOP grant funds is 25 percent for law
    enforcement, 25 percent for prosecution, 5 percent for courts, and 30
    percent for non-profit organizations. The remaining 15 percent is
    discretionary and can be allocated to any of these categories. We
    believe that in its role of advisor to the Governor, the LEPC should
    conduct more outreach to government entities to ensure they are
    aware that STOP grant fund are available. OVW concurred with the
    recommendation and stated that it will work with the LEPC to
    implement polices to ensure it complies with STOP grant fund
    allocation requirements. This recommendation is resolved based on
    OVW’s agreement to take appropriate corrective action. The
    recommendation can be closed when we review the LEPC’s policies
    that ensure its STOP grant funds are allocated according to the
    requirements.




                                  118
